<html>
<title> - UNITED STATES STRATEGY TO DEFEAT THE ISLAMIC STATE IN IRAQ AND THE LEVANT</title>
<body><pre>[Senate Hearing 113-668]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-668

  UNITED STATES STRATEGY TO DEFEAT THE ISLAMIC STATE IN IRAQ AND THE 
                                 LEVANT

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 17, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-102 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001














                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        

  





















                            C O N T E N T S

                              ----------                              
                                                                   Page

Connable, Ben, senior international policy analyst, Rand 
  Corporation, Washington, DC....................................    59
    Prepared statement...........................................    61
Corker, Hon. Bob, U.S. Senator From Tennessee....................     3
Ford, Hon. Robert S., senior fellow, Middle East Institute, 
  Washington, DC.................................................    55
    Prepared statement...........................................    57
Kerry, Hon. John F., Secretary of State, U.S. Department of 
  State, Washington, DC..........................................     5
    Prepared statement...........................................    11
    Responses of Secretary John F. Kerry to Questions Submitted 
      by Senator Marco Rubio.....................................    79
    Responses of Secretary John F. Kerry to Questions Submitted 
      by Senator Tom Udall.......................................    82
Menendez, Hon. Robert, U.S. Senator From New Jersey..............     1


              Additional Material Submitted for the Record

Prepared Statement of Hon. Tom Udall, U.S. Senator From New 
  Mexico.........................................................    79

                                 (iii)

  

 
  UNITED STATES STRATEGY TO DEFEAT THE ISLAMIC STATE IN IRAQ AND THE 
                                 LEVANT

                              ----------                              


                     WEDNESDAY, SEPTEMBER 17, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:38 p.m., in 
room SH-216, Hart Senate Office Building, Hon. Robert Menendez 
(chairman of the committee) presiding.
    Present: Senators Menendez, Boxer, Cardin, Shaheen, Coons, 
Durbin, Udall, Murphy, Kaine, Markey, Corker, Risch, Rubio, 
Johnson, Flake, McCain, Barrasso, and Paul.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. The committee will come to order.

    [Disturbance in hearing room.]

    The Chairman. The committee will come to order. Mr. 
Secretary, you have a warm welcome. Having just returned from a 
coalition-building mission that will determine the breadth of 
support and course of the anti-ISIL strategy in the near and 
long term, you are here at a critical moment for the Iraqi and 
Syrian people, for the region, and for the United States and 
the world.
    Let me say at the outset, in my view, the coalition you are 
working hard to build will require fully engaged and fully 
contributing senior partners, a coalition that must be defined 
not by words, but by deeds. The United States can lead this 
coalition, but our partners, particularly Sunni partners, must 
be all in. And I fully acknowledge that getting skin in the 
game will be different for different coalition partners, but 
Congress cannot be providing a blank check for the anti-ISIL 
campaign.
    I am pleased by the willingness of our partners in the 
Middle East to support, fund, and provide resources for this 
campaign. From Riyadh to Abu Dhabi, from Cairo to Amman to 
Beirut, our partners are sending the signal to ISIL that they 
are not welcome, that they have a bankrupt religious ideology, 
and that they will be aggressively confronted.
    Above all, the problems in Iraq and Syria that created an 
environment susceptible to ISIL's advance can only be solved 
locally. In Iraq, this means an inclusive government with a 
national agenda and leaders ready to empower the Iraqi Security 
Forces and Kurdish Peshmerga forces to take the fight to ISIL.
    In Syria, it means training and equipping a vetted Syrian 
opposition force that shares our vision for a pluralistic free 
Syria, free of ISIL and all violent extremist groups, but also 
free of Assad and his regime backers. This fighting force 
should be prepared to support a post Assad political structure 
whatever the circumstances under which he ultimately leaves 
Syria, by a negotiated settlement or other means.
    The President has laid out a comprehensive, holistic 
strategy that purports to integrate all the tools of U.S. power 
to defeat ISIL. What I expect to hear today are some 
specifics--the timeline for this mission, the scope, the 
resources in personnel, funds, intelligence, military assets, 
and assistance, as well as the role our coalition partners will 
play. We must be clear-eyed about the risks before providing 
our enduring support for this operation.
    The fact is we are living in 2014, not 2003. We must not 
repeat the mistakes of the past, given the nature of the threat 
we face. This means clearly defining the objectives, the 
political end state that we seek through this anti-ISIL 
campaign. I want to hear what success looks like in Iraq and 
Syria, across the region, and what conditions will indicate 
when it is time to end military action.
    Now this is what we know about ISIL: It has brutally, 
mercilessly, barbarically followed through on its threats to 
kill American hostages James Foley and Steven Sotloff. It 
beheaded British aid worker David Haines on Saturday and 
threatens to execute another British citizen, Alan Henning.
    It promotes genocide against anyone who does not share its 
warped version of Islam--moderate Sunnis, Shias, Christians, 
Yazidis, minorities. It enslaves women and children. It has 
seized United States and Iraqi military equipment, has built a 
formidable fighting force. It is pumping oil and selling it to 
the tune of $1 million a day to fund its brutal tactics, along 
with kidnappings, theft or extortion, and external support.
    It is recruiting disciples for its unholy war at a 
frightening pace from Europe, the United States, and anywhere 
they can find disaffected people. These foreign fighters are 
crossing often from Turkey, which either because of fear or 
maybe ideology has declined to participate to stop that flow of 
fighters and to counter ISIL.
    It has declared the territory it occupies a caliphate with 
intent to seize more territory from United States partners and 
allies from Jordan to Saudi Arabia to Lebanon. The risk to 
Jordanian and Lebanese stability is real. It is urgent, and it 
is grave. We would be fools not to take this threat seriously. 
ISIL is an enemy of the United States and the civilized world.
    Now as I have said many times, temporary and targeted 
airstrikes in Iraq and Syria fall under the President's powers 
as Commander in Chief, but if the military campaign lasts for 
an extended period of time, which I gather it will, it is my 
belief that Congress will need to approve an ISIL-specific 
authorization for the use of military force. I am personally 
not comfortable with reliance on either the 2001 AUMF that 
relies on a thin theory that ISIL is associated with al-Qaeda 
and certainly not on the 2002 Iraq AUMF, which relied on 
misinformation.
    I expect the administration, today and in the days ahead, 
to brief this committee on its comprehensive strategy and the 
operational objectives by which we will defeat ISIL so we can 
draft an appropriate AUMF to address the very grave ISIL threat 
we face.
    Now let me be clear. I support the President's strategy and 
his sense of urgency, and I commend you, Mr. Secretary, for 
your efforts with allies in the region who also face violent 
and destabilizing threats from ISIL. Let us not, however, make 
the 9/11 mistake of rushing into an AUMF--an authorization for 
the use of military force--that has become the overriding 
authorization for the last 13 years, has been used for 
indefinite duration, and has been used from South Asia to the 
Persian Gulf to Africa and Southeast Asia.
    The fact is we need to ensure that whatever authorization 
for the use of military force we consider is comprehensive and 
appropriate in scope and duration to meet the threat and 
sustain the fight. It is our responsibility to answer three 
fundamental questions. What will it ultimately take to degrade 
and destroy ISIL? How does this fight end? And what end state 
do we seek in the region?
    We need to get it right, in my view, not just get it fast. 
And in doing so, we need a bipartisan approach that puts 
politics aside and the Nation first. This is a long-term 
effort, and we in Congress must be very deliberate in our 
consideration of any new strategy, new authorities, and new 
funding that it will take to meet the new threat we face.
    I believe we need to defeat ISIL before they develop the 
operational capacity to perform a September 11-like attack. I 
never want to lose as many citizens from my home State of New 
Jersey or from the United States as we did on that day. That is 
our responsibility, and it is our solemn obligation.
    With that, let me turn to the ranking member, Senator 
Corker, for his comments.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Well, thank you, Mr. Chairman. And I 
appreciate the full and broad opening comments that you made 
and the way you have expressed many of our concerns regarding 
ISIL and their capacity over time to harm Americans.
    I know we are here a few days after the President publicly 
addressed this, as the Nation and many others around the 
Western world are--around the civilized world are outraged over 
the conduct of ISIL, and I know that Americans are greatly 
concerned about, over time, the effects they might have on this 
Nation, as you just expressed.
    We are also here exactly 1 year and 2 weeks after, in this 
very room, this committee voted out an authorization for the 
use of force in Syria. It was one of the bright moments, in my 
opinion, of this committee. Not necessarily because of the 
product, but because we all worked together in such a way to 
come to an end that we thought was best for the country, much 
in the light and in the tone that the chairman just laid out.
    So I just want to start by welcoming our Secretary. We have 
had some conversations. I appreciate his hard work. But I do 
want to say, as I have said to him personally, I am very 
disappointed that the administration has chosen to go about 
what they are doing without explicitly seeking the 
authorization of Congress.
    I think that is a huge mistake. I realize that part of 
that, unfortunately, has to do with the political season that 
we are in, which is, to me, very unfortunate that that might be 
a factor to some. I also realize that part of the strategy and 
plan or big parts of it are still being created. And therefore, 
it is being put together as we move along, and we are really 
not in a place right now for Congress to fully ascertain what 
the plan might be.
    And as the chairman just mentioned, he is going to deal 
with an authorization. Our committee will deal with an 
authorization. But I just want to say to our Secretary, I hope 
that when that is done, it is done with the administration 
explicitly seeking that, not saying if Congress wants to play a 
constructive role, it can and it would be welcomed. But one 
where you seek it and you lay out in detail for us, in both 
classified and open settings, what it is we are seeking to 
achieve and how we are going to go about it.
    And again, I know much of this is being made up as we go 
along. I do hope that the Secretary today will outline the true 
nature of the threat. I know he was in a meeting prior to 
coming in here where some of that was being discussed. But I 
hope that clearly today you will lay out what you think the 
true nature of the threat is.
    Thirdly, and just one glaring piece, I know that 
Secretaries of State probably do not have the same opportunity 
that Senators do to visit people in refugee camps and to see 
people that we said we would support and do not. We have been 
pushing, in this committee, for years or for a long time to arm 
and train the vetted moderate opposition. We passed that out of 
this committee a year and a half ago almost on a 15-3 vote. We 
have been pushing for it for longer than that.
    And in spite of the fact that there are some alleged 
activities that are occurring, we have not done the things that 
we said we would do. As a matter of fact, I would say that the 
position that the administration has taken over this last year 
and 2 weeks since we were here meeting about the authorization 
and passing one has led to many of the problems that we are 
facing today, many of the problems that are causing 
civilization itself to be fearful.
    And again, though, I appreciate the fact that the Secretary 
is here today, that the administration has stepped forward and 
has the beginnings of a thought process as to how to address 
it.
    I do want to say that what I have heard about dealing with 
the moderate opposition to me is odd. I know that the 
administration, especially at the White House, has stated how 
generally feckless--to use a word I think that describes it--
they believe this moderate opposition to be. And yet we look at 
this, and today, it is our entire ground game.
    I have supported the training and arming of these rebels 
for some time. I will say I was shocked yesterday to hear that 
in the Armed Services testimony these rebels are actually going 
to be used against ISIS. All of them that I have met with, and 
things may have changed, but their focus has been taking out 
Assad.
    I know they have had a two-front battle or war raging as 
they have tried to do that. But I am surprised that the 
administration is basing their entire ground game on a group of 
people that, candidly, are going to receive very little 
training under the small authorization that has been put forth, 
and that that is our entire ground game, which brings me back 
to point two, talking about the very nature of the threat.
    It seems to me the administration has placed many, many 
caveats on what we will not do, and at the same time, the 
rhetoric describing the threat is far greater than it seems to 
me than the plan that is being put together.
    And I will close with this. I know that typically when you 
have a coalition, you have the coalition put together before 
you announce it. I know in this case, we are announcing a 
coalition, and we are attempting to put it together.
    And I hope that what we are going to end up with is more 
than a group of coat holders. I hope that we are going to have 
people who are really going to be doing things on the ground 
that matter. But I do hope the Secretary, through his hard 
work, has generated commitments that will matter as it relates 
to this.
    This effort, we all know, is not going to be a 1- or 2-year 
effort. It is going to be a multiyear effort. Some people are 
saying a decade. Some people are saying a decade.
    And so, I do think it is important, as our chairman laid 
out, that all of us fully understand what we are undertaking, 
fully understand the nature of the threat, fully understand the 
commitment of this administration to deal with this threat in 
the appropriate way. So I welcome you here today. I look 
forward to your testimony and to our questions.
    The Chairman. With that, Mr. Secretary, we welcome you back 
to the committee you so ably and distinguishedly chaired. We 
thank you for your service to our country.
    We know that you just recently arrived from building this 
coalition, and we appreciate you being here today in order to 
inform members of what has been achieved, what is in front of 
us. And with that, the floor is yours.

   STATEMENT OF HON. JOHN F. KERRY, SECRETARY OF STATE, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Kerry. Well, Chairman Menendez, Ranking Member 
Corker, and members of the committee, my friends and former 
colleagues, I really thank you for holding this hearing on an 
issue that is obviously fraught with all the high stakes that 
both the chairman and the ranking member have just described 
and all the members of the committee understand deeply.
    And I really look forward to this opportunity to both 
define the threat that ISIL does pose, the ways in which it 
does, and, of course, our strategy for defeating it. And all of 
that could not be more critical for the country.
    During the years that I had the privilege of serving here 
and working with different administrations, it always struck me 
that American foreign policy works best and is strongest when 
there is a genuine discussion, a dialogue, a vetting of ideas 
back and forth, really a serious discussion, much more than an 
articulation of one set of ideas and then another, and they 
just oppose each other and they sit out there and there is no 
real effort to have a meeting of the minds.
    So I want to make sure that by the time we are done here 
today, I have heard from you. I know what you are thinking. And 
you have heard from me, and you know what we are thinking, what 
the administration is thinking. And that you have a clearer 
understanding of what it is that we have done so far, of how we 
see this, and how, hopefully, we can come to see it together, 
what we are doing now, and where we go next.
    And I state unequivocally, and it is not a passing 
sentence, that I welcome the input, need the input of this 
committee because it is together that we are going to be much 
stronger and much more effective in guaranteeing the success of 
this effort. And it is a big effort in a lot of ways. It is 
about ISIL in the immediacy, but as we will, I think, discuss 
today, it is about a lot more than that.
    So I want to underscore at the start, you know, there are 
some debates of the past 30 years, 29 of which I was privileged 
to serve in the Senate, that undoubtedly will fill up books and 
documentaries for a long time, and Iraq is certainly one of 
them. Iraq has caused some of the most heated debates and 
deepest divisions of the past decade, a series of difficult 
issues and difficult choices about which people can honestly 
disagree.
    But I did not come here today and I hope we do not have to 
rehash those debates. The issue that confronts us today is one 
on which we all ought to be able to agree. ISIL must be 
defeated, period. End of story. And collectively, we are all 
going to be measured by how we carry out this mission.
    You know, as I came in here, obviously, we had some folks 
who spoke out, and I would start by saying that I understand 
dissent. I have lived it. That is how I first testified in 
front of this committee in 1971. I spent 2 years protesting a 
policy. So I respect the right of Code Pink to protest and to 
use that right.
    But you know what? I also know something about Code Pink. 
Code Pink was started by a woman and women who were opposed to 
war, but who also thought that the Government's job was to take 
care of people and to give them health care and education and 
good jobs.
    And if that is what you believe in, and I believe it is, 
then you ought to care about fighting ISIL. Because ISIL is 
killing and raping and mutilating women. And they believe women 
should not have an education. They sell off girls to be sex 
slaves to jihadists.
    There is no negotiation with ISIL. There is nothing to 
negotiate. And they are not offering anyone health care of any 
kind. They are not offering education of any kind for a whole 
philosophy or idea or cult, whatever you want to call it, that, 
frankly, comes out of the Stone Age.
    They are cold-blooded killers marauding across the Middle 
East, making a mockery of a peaceful religion. And that is 
precisely why we are building a coalition to try to stop them 
from denying the women and the girls and the people of Iraq the 
very future that they yearn for. And frankly, Code Pink and a 
lot of other people need to stop and think about how you stop 
them and deal with that. So I----

    [Disturbance in hearing room.]

    Secretary Kerry [continuing]. It is important for people to 
understand, there is no invasion. The invasion was ISIL into 
Iraq. The invasion is foreign fighters into Syria. That is the 
invasion, and it is destructive to every possibility of 
building a state in that region.
    So even in a region that is virtually defined by division, 
and every member of this committee understands the degree to 
which these divisions are deep in that region. Leaders who have 
viewed the last 11 years very differently have all come 
together for this cause. They may agree on very little in 
general, but they are more unified on this subject than 
anything that I have seen them unified on in my career.
    So as President Obama described last week when he spoke 
directly to the American people, we do have a clear strategy to 
degrade, defeat, and destroy ISIL, and it is not in its 
infancy. It has been well thought through and carefully 
articulated and now is being built in these coalition efforts 
that began with the meeting in Jeddah and moved to Paris and 
will move to the United Nations this week when I chair a U.N. 
Security Council meeting on Friday.
    The United States will not go it alone. That has been a 
fundamental principle on which President Obama has sought to 
organize this effort, and that is why we are building a 
coalition, a global coalition. There are more than 50 countries 
that already have agreed or are now doing something. Not every 
country will decide that their role is to have some kind of 
military engagement, but every country can do something. And we 
will show exactly what that means.
    And as I traveled around the region and Europe in the last 
days, the question that foreign leaders were asking me was not 
whether they should join the coalition, but how they can help. 
We are also--and I emphasize this--we are not starting from 
scratch. This is an effort that we have been building over 
time, both on our own and with the help of our international 
partners.
    Even before President Obama delivered his speech last week, 
nearly 40 countries had joined in contributing to the effort to 
strengthen the capacity of Iraq to be able to strengthen its 
military, to train, to provide humanitarian assistance. We have 
been focused on ISIL since its inception as the successor to Al 
Qaeda of Iraq in 2013.
    And back in January, realizing that, we ramped up our 
assistance to the Iraqi Security Forces, increasing our 
intelligence, surveillance, reconnaissance, or ISR, the flights 
that get a better picture of the battlefield. We expedited 
weapons like the Hellfire missiles for the Iraqis in order to 
bring their capacity to bear in this fight.
    Early this summer, the ISIL threat accelerated when it 
effectively erased the Iraq-Syria border and the Mosul Dam 
fell. The President acted immediately, deliberately and 
decisively: We further surged the ISR missions immediately; we 
set up joint operation centers in Baghdad and Erbil 
immediately; and our Special Forces conducted a very detailed, 
in-depth assessment of Iraqi Security Forces and Kurdish 
Forces.
    We did that purposefully without jumping, as some people 
wanted us to, because we wanted to understand what is the 
capacity of the Iraqi Army to fight? How many brigades, having 
seen what happened in Mosul, are still prepared to engage? Are 
we getting into something that, in fact, we do not have the 
answers to with respect to who can do what?
    And to date, we have launched--we have supported those 
Iraqi Security Forces that, by the way, helped in the 
liberating of Amirli, helped in the freedom of Sinjar Mountain, 
helped in taking back the Mosul Dam. And now we have launched 
more than 150 airstrikes, and it is because of the platforms 
that we put in place last January and even before that those 
strikes have been among the most precise strikes that we have 
ever taken.
    The percentage, I will not go into it here, but I will tell 
you, you would be astonished if you heard openly now the 
accuracy of those efforts. Those were put in place back in 
June, and those strikes have been extremely effective in 
breaking the sieges that I described and beginning to move 
confidence back into the Iraqi military.
    The judgment and assessments of our military that went over 
there to look at the Iraqi military came back with a judgment 
of a sufficient number of brigades capable of and ready to 
fight. And with the reconstitution of the military in a way 
that can bring the country together and not be divided along 
sectarian lines or viewed to be the army of one individual, it 
is entirely likely that there will be much greater and more 
rapid progress.
    That has given us time to put in place the two pillars of a 
comprehensive strategy against ISIL: First, an inclusive Iraqi 
Government, which was essential--there would be no capacity for 
success here if we had not been able to see the Iraqi 
Government come together--and second, the broad international 
coalition so the United States is not alone.
    We redoubled our efforts, frankly, to help move the Iraqi 
political process forward, and we were very clear-eyed about 
the fact that the strategy of ISIL would only succeed if we had 
a strong, inclusive government, and frankly, that required 
transformation in the government, which the Iraqis themselves 
effected. With our support and several weeks of very complex 
negotiations, President Masum nominated Haider al-Abadi to 
serve as Prime Minister. And shortly thereafter, Prime Minister 
al-Abadi, again with our support and others, was able to form 
his Cabinet and present it to the Parliament, and last week, 
that government was approved.
    I have to tell you, it was quite astonishing to be in 
Jeddah the other day with the Saudis, Emiratis, the Bahrainis, 
the Jordanians, the Qataris, the Turks, the Lebanese, and 
Iraqis. Iraqis in Saudi Arabia, and everybody here in this 
committee knows what that relationship has been like for the 
last years.
    And to hear the Foreign Minister of Saudi Arabia, who 
chaired the meeting, Saud al-Faisal, say that they were 
prepared to open an immediate embassy in Baghdad. That is 
transformative. The result is something also for Iraq that has 
never seen before in its history, an election deemed credible 
by the United Nations, followed by a peaceful transition of 
power without any United States troops on the ground.
    I must say I was sort of struck. Yesterday, the Wall Street 
Journal had an article talking about Arab divide, but above the 
Arab divide language is the Shia foreign minister of Iraq, the 
Kurd president of Iraq, and the Sunni foreign minister of Saudi 
Arabia, all in communication and jointly working as never 
before. So I think people need to focus on what has been 
accomplished here.
    As you know, I went to Iraq last week. I traveled. I met 
with the leaders of Iraq. And throughout the entire process, we 
have been in touch with regional leaders to ensure that the new 
and inclusive government is going to receive support from the 
region.
    With this inclusive government in place, it is time for a 
defensive strategy that we and our international partners have 
pursued to get things together, get the inclusive government, 
know exactly where we are going, to now transition to an 
offensive strategy, one that harnesses the capabilities of the 
entire world to eliminate the ISIL threat once and for all.
    President Obama outlined this strategy in detail. I am not 
going to go through it in that detail, but I will just quickly 
say--I will be quick in walking through it. At its core, our 
strategy is centered on a global coalition that will 
collaborate closely across a number of specific areas, 
including direct and indirect military support.
    Military assistance can come in a range of forms, from 
training and equipping to logistics and airlift, and countries 
from inside and outside of our region are already right now 
providing that support in these venues. I have also no doubt 
whatsoever that we will have the capabilities and the resources 
we need to succeed militarily. And President Obama made clear 
that we would be expanding the military campaign to take on 
ISIL in Iraq, in Syria, wherever it is found. But this is not 
the gulf war in 1991. It is not the Iraq war in 2003, and that 
is true for a number of reasons.
    Number one, U.S. ground troops will not be sent into combat 
in this conflict. From the last decade, we know that a 
sustainable strategy is not U.S. ground forces. It is enabling 
local forces to do what they have to do for themselves and for 
their country.
    I want to be clear. The United States troops that have been 
deployed to Iraq, do not and will not, have a combat mission. 
Instead, they will support Iraq Forces on the ground as they 
fight for their country against these terrorists.
    And in Syria, the on-the-ground combat will be done by the 
moderate opposition, which serves as the current best 
counterweight in Syria to extremists like ISIL. We know that 
ISIL, as it gets weaker, the moderate opposition will get 
stronger. And that will be critical in our efforts to bring 
about the political solution necessary to address the crisis in 
Syria once and for all.
    That is one of the reasons why it is so critical that 
Congress authorize the opposition train-and-equip mission when 
it comes to the floor, but it is also critical that the 
opposition makes the most of the additional support, the kind 
of support that they have been requesting now for years. And 
they need to take this opportunity to prove to the world that 
they can become a viable alternative to the current regime.
    Number two, this is more than just a military coalition, 
and I want to emphasize that. In some ways, some of the most 
important aspects of what we will be doing are not military. 
This mission is not just about taking out an enemy on the 
battlefield. It is about taking out a network, decimating and 
discrediting a militant cult masquerading as a religious 
movement. It is similar to what we have been doing to al-Qaeda 
these last years.
    The bottom line is we will not be successful with a 
military campaign alone, and we know it. Nor are we asking 
every country to play a military role. We do not need every 
country to engage in that kind of military action, and frankly, 
we are not asking them and we do not want every country to do 
that. Only a holistic campaign will accomplish our objectives.
    In addition to the military campaign, it will be equally 
important for the global coalition to dry up ISIL's illicit 
funding. And by the way, the Bahrainis, at the meeting in 
Jeddah, have offered to host a meeting--because they have been 
already engaged in this--that brings people together to focus 
on precisely the steps we can all take to do this, and that can 
positively have an impact not just on ISIL, but on other flows 
of terrorism support.
    We have to stop the foreign fighters who carry passports 
from countries around the world, including the United States, 
and we also need, obviously, to continue to deliver urgently 
needed humanitarian assistance.
    And finally, and this is really--you cannot overstate this. 
We must continue to repudiate the gross distortion of Islam 
that ISIL is spreading. Put an end to the sermons by extremists 
that brainwash young men to join these movements and commit 
mass atrocities in the name of God.
    I was very encouraged to hear that Saudi Arabia's top 
clerics came out and declared terrorism a heinous crime under 
Sharia law and that the perpetrators should be made an example 
of. And I think--I might just mention--well, I will wait until 
we get in the Q and A. I will come back to this, but a very 
important statement was made today by the top clerics in the 
region, and I want to come back to that because I think it is 
critical.
    But let me just emphasize that when we say global 
coalition, we mean it. And this is not--Australia, other 
countries, the Far East, countries in Europe have all taken on 
already initial responsibilities. So, my colleagues, we are 
committed to working with countries in every corner of the 
globe to match the campaign with the capabilities that we need 
to fight.
    And I can tell you today that every single person I spoke 
to, in Wales at the Wales summit, in Jeddah, in Paris, where we 
had more than 30 countries and entities, they all expressed 
strong support for our mission and a willingness to help in 
some way. We had excellent meetings, and our meetings in 
Baghdad and in Cairo and in Ankara also advanced the process.
    At the conference in Paris, we took another step toward the 
United Nations General Assembly (UNGA) meetings this week. And 
the UNGA meetings, unlike the meetings we have had thus far, 
which have all been behind closed doors, the UNGA meetings, 
these countries will be speaking out publicly at the United 
Nations Security Council, and the world will begin to see what 
each of these countries are prepared to do.
    So we have a plan. We know the players. Our focus now is in 
determining what each country's role will be and how to 
coordinate those activities for success. Later this week, we 
are going to have more to say about our partners and the 
contributions, and we still fully expect this coalition to grow 
through UNGA and beyond.
    One of the things that I am most pleased about is we have 
asked one of our most respected and experienced military 
leaders, General John Allen, to come to the State Department 
and oversee this effort. He came within 24 hours of being 
asked, was at his desk at 7 o'clock in the morning, and is now 
already laying out the campaign from a diplomatic point of view 
for how we coordinate what will be needed for all of these 
other aspects beyond the military piece.
    And I had a long meeting with him yesterday, again today, 
and I am confident that together with Ambassador Brett McGurk, 
who will serve as his Deputy, and Assistant Secretary Anne 
Patterson, who was so much a part of our effort against al-
Qaeda when she was our Ambassador to Pakistan, we have a very 
experienced group of people engaged in this effort. The fact is 
if we do this right, then this effort could actually become a 
model for what we can do with respect to the individual 
terrorist groups in other places that continue to wreak havoc 
on the efforts of governments to build their states and provide 
for their people.
    And I am confident that with our strategy in place and our 
international partners by our side, we will have all that we 
need, and with the help of the Congress, we will be able to 
succeed in degrading and ultimately destroying this monstrous 
organization wherever it exists.
    I know that was a little long, Mr. Chairman, but I wanted 
to lay it out, and I appreciate your patience.
    [The prepared statement of Secretary Kerry follows:]

         Prepared Statement of Secretary of State John F. Kerry

    Chairman Menendez, Ranking Member Corker, and members of the 
committee, thank you for holding this hearing on an issue where the 
stakes are so high and a full understanding of the ISIL threat and our 
strategy for defeating it is so important.
    During the years I had the privilege of serving here, working with 
different administrations, it always struck me that American foreign 
policy works best when there's a genuine discussion, a dialogue, a 
vetting of ideas back and forth between Congress and the executive 
branch. So I want to make sure that by the time we're done here today, 
I've heard from you, you've shared your views and ideas, and that you 
also have a clear understanding of what we've done so far, what we're 
doing now, and where we go next--because your input and your support 
are absolutely critical to the success of this effort.
    I want to underscore at the start--there are some debates of the 
past 20 years that could, and probably will, fill up books and 
documentaries for a long time. Iraq is one.
    Iraq has caused some of the most heated debates and deepest 
divisions of the past decade--a series of difficult issues about which 
people can honestly disagree. But I didn't come here today to rehash 
those debates. The issue that confronts us today is one on which we 
should all agree: ISIL must be defeated. Period. End of story. And, 
collectively, we're all going to be measured by how we carry out this 
mission.
    I'd also underscore--the same is true on an international level. 
And even in a region that is virtually defined by division, leaders who 
have viewed the last 11 years very differently--and who agree on very 
little in general--are more unified on this subject than just about any 
other.
    So as President Obama described last week when he spoke directly to 
the American people, we have a clear strategy to degrade, defeat, and 
destroy ISIL. But the United States will not go it alone. That is why 
we are building a global coalition. And as I traveled around the world 
this week, the question foreign leaders were asking me was not whether 
they should join the coalition, but how they can help.
    We are also not starting from scratch. This is an effort we have 
been building over time, both on our own and with the help of our 
international partners: Even before President Obama delivered his 
speech last week, nearly 40 countries had joined in contributing to the 
effort to strengthen the capacity of Iraq including military 
assistance, training, and humanitarian assistance.
    We have been focused on ISIL since its inception as the successor 
to AQI in 2013. Back in January we ramped up our assistance to the 
Iraqi Security Forces, increasing our intelligence surveillance 
reconnaissance, or ISR, flights to get a better picture of the 
battlefield and expediting weapons like Hellfire missiles for the 
Iraqis to bring to bear in this fight.
    Early this summer, the ISIL threat accelerated when it effectively 
erased the Iraq-Syria border and the Mosul Dam fell. The President 
acted deliberately and decisively. We further surged our ISR missions 
over Iraq. We immediately set up joint operation centers in Baghdad and 
Erbil. And our special forces conducted a very detailed field 
assessment of Iraqi Security Forces and Kurdish forces.
    By the time ISIL launched the offensive in the north, President 
Obama authorized limited air strikes against ISIL and humanitarian 
missions to protect American personnel, prevent major catastrophes and 
support Iraqi Security Forces and Kurdish forces that were fighting 
bravely to do the same. To date, we've launched more than 150 
airstrikes. And it is because of the platforms we put in place back in 
June that those strikes have been highly precise and incredibly 
effective, including in the operations to break the siege of Sinjar 
Mountain, retake Mosul Dam, and resupply the town of Amerli.
    These actions blunted ISIL's momentum and created time and space 
for us to put in place the two pillars of a comprehensive strategy 
against ISIL: an inclusive Iraq Government, and a broad international 
coalition.
    We redoubled our efforts to help move the Iraqi political process 
forward. We are clear-eyed about the fact that any strategy against 
ISIL would only succeed with a strong, inclusive government in Iraq, 
with an ambitious national agenda, prepared to unite the country 
against ISIL.
    With our support, after several weeks of complex negotiations, 
President Masum nominated Haider al-Abadi to serve as Prime Minister. 
Shortly thereafter, Prime Minister al-Abadi--again with our support--
was able to form his Cabinet and present it to the Parliament, and, 
last week, that government was approved.
    This was a long and difficult process, led by the Iraqis, with our 
help as needed. The result was something Iraq had never before seen in 
its history: an election deemed credible by the United Nations, 
followed by peaceful transition of power, without any U.S. troops on 
the ground.
    I traveled to Baghdad last week, immediately after the new 
government was approved, to meet with Prime Minister al-Abadi and other 
leaders throughout the Iraqi Government. And I was very encouraged to 
hear them discuss in detail the government's National Plan to unite the 
country against ISIL, and empower local communities--particularly in 
Sunni areas--to mobilize, defeat ISIL, and maintain security control in 
their area.
    Throughout the entire process, we were in touch with regional 
leaders to ensure that a new and inclusive government would receive 
support from the region. Today, after years, even decades, of relative 
isolation from their neighbors, the Iraqis have begun to reintegrate 
with the broader Arab community. For example, last week, they were not 
just invited but warmly welcomed in Saudi Arabia, and the Saudis have 
now said they'll reopen an embassy in Baghdad.
    With this new, inclusive Iraqi Government in place, it's time for 
the defensive strategy we and our international partners have pursued 
thus far to transition to an offensive strategy--one that harnesses the 
capabilities of the entire world to eliminate the ISIL threat, once and 
for all.
    President Obama outlined this strategy in detail, so--while I am 
happy to answer any questions you may have--I will be brief in walking 
through it again now.
    At its core, our strategy is centered on a global coalition that 
will collaborate closely across a number of specific areas--including, 
certainly, on direct and indirect military support.
    To be clear, military assistance comes in a range of forms, from 
training and equipping, to logistics and airlift. And countries from 
inside and outside of the region are already providing support in these 
veins. So I have no doubt whatsoever we will have the capabilities and 
the resources we need to succeed militarily. And President Obama made 
clear we will be expanding the military campaign to take on ISIL in 
Iraq, in Syria--wherever it is found.
    But this is not the gulf war in 1991, and it is not the Iraq war in 
2003--for a couple of reasons. Number one, U.S. ground troops will not 
be sent into combat in this conflict. From the last decade we know that 
a sustainable strategy is not U.S. ground forces--it is enabling local 
forces to do what they must for themselves and their country. I want to 
be clear: the U.S. troops that have been deployed to Iraq do not and 
will not have a combat mission. Instead, they will support Iraqi Forces 
on the ground as they fight for their own country against these 
terrorists.
    And in Syria, the on-the-ground combat will be done by the moderate 
opposition--which serves as the best counterweight in Syria to 
extremists like ISIL. We know that as ISIL gets weaker, this moderate 
opposition will get stronger, which will be critical in our efforts to 
bring about the political solution necessary to address the crisis in 
Syria once and for all. That's one of the reasons why it's so critical 
that Congress authorizes the opposition train-and-equip mission when it 
comes to the floor. But it's also critical that the opposition makes 
the most of the additional support--the kind of support they've been 
requesting for years--and take this opportunity to prove to the world 
that they can be a viable alternative to Assad.
    Number two, this is more than just a military coalition because the 
objective requires more than a military victory. This mission isn't 
just about taking out an enemy on the battlefield. It's about taking 
out an entire network--decimating and discrediting a militant cult 
masquerading as a religious movement.
    It's similar to what we have been doing to al-Qaeda these last 
years.
    The bottom line is we will not be successful with a military 
campaign alone. Nor are we asking every country to play a military 
role--we don't need every country to play a military role and we don't 
want every country to play a military role.
    Only a holistic campaign can accomplish our objectives. That is why 
we are focused on multiple lines of effort.
    In addition to the military campaign, it will be equally important 
for the global coalition to dry up ISIL's illicit funding, to stop the 
foreign fighters who carry passports from countries around the world 
including the United States, to continue to deliver urgently needed 
humanitarian assistance, and finally, to repudiate the gross distortion 
of Islam that ISIL is spreading, and put an end to the sermons by 
extremists that brainwash young men to join these movements and commit 
mass atrocities in the name of God. I was very encouraged to hear that 
Saudi Arabia's top clerics came out and declared terrorism a ``heinous 
crime'' under Sharia law--and that perpetrators should be made an 
example of. Preventing an individual from joining ISIL for example, or 
from getting to the battle field in the first place, is the most 
effective measure we can take.
    I want to emphasize--when we say ``global coalition,'' we mean it. 
This is not a threat that a single country or region can take on alone. 
And there is a critical role for nearly every country to play.
    So we are committed to working with countries in every corner of 
the globe to match the campaign's requirements with the capabilities 
they are willing to bring to bear.I spent the past week in the Middle 
East and in Europe, meeting with dozens of leaders whose partnership 
will be essential to our success.
    And I can tell you today: every single person I spoke to over the 
course of my trip expressed strong support for our mission and a 
willingness to help in some way. We had excellent meetings, beginning 
at the NATO summit in Wales, and then in Jeddah. The Jeddah Communique 
represents a strong, comprehensive and unified statement of all the 
ways in which the region is committed to supporting this fight. Our 
meetings in Baghdad, in Cairo, and in Ankara also advanced the process. 
And at the conference earlier this week in Paris, we took another step 
along the road to the UNGA and the UNSC sessions next week.
    We have a plan and we know the players. Our focus now is 
determining what role each country will play.
    Later this week we will have more to say about our partners and 
contributions, and we fully expect the coalition to grow, evolve, and 
coalesce well beyond UNGA. That's why we've asked one of our most 
respected and experienced military leaders--Gen. John Allen--to come to 
the State Department and oversee this effort. And he's already hitting 
the ground running--he was at work last Friday at 7 am, less than 24 
hours after we sealed the deal for him to do this job, and he and I had 
a long meeting yesterday, just a few hours after I landed in D.C. 
General Allen will be working with one of our foremost Iraq experts, 
Ambassador Brett McGurk, as well as Assistant Secretary Anne Patterson, 
who was so much a part of the effort against al-Qaeda when she was our 
Ambassador in Pakistan.
    The fact is that, if we do this right, then this effort could 
become a global model for isolating and undermining other extremist 
threats around the world. But now we must be laser-focused on ISIL. And 
I'm confident that, with our strategy in place and our international 
partners by our side, we will have all that we need to succeed in 
degrading and ultimately destroying this monstrous organization--
wherever it exists.

    The Chairman. Well, thank you, Mr. Secretary.
    Let me start off with I think one of the most critical 
lessons that we have learned from past U.S. military 
interventions abroad is that we must have a clear vision for 
the end state that we are seeking and a coherent strategy that 
is focused about how not only do we enter and succeed, but how 
do we exit a theater of war.
    So I would like to get, as succinctly as you can, a 
statement from you as to what does the end goal look like. I 
heard you talk about taking out a network. I get that. But 
beyond that, what is the political end state conditions we are 
seeking so that we will know that it is time to end military 
action?
    Secretary Kerry. Well, the military action ends when we 
have ended the capacity of ISIL to engage in broad-based 
terrorist activity that threatens the state of Iraq, threatens 
the United States, threatens the region. That is our goal. And 
that means ending their ability to live in ungoverned spaces, 
have a safe haven, and be able to control territory and move at 
will to try to attack the United States or other places.
    The threat, obviously, right now is more immediate to the 
Middle East and to Europe, but we have Americans over there 
fighting with passports.
    The Chairman. So, obviously, that does not mean we are 
going to look to eliminate every person who is associated with 
ISIL.
    Secretary Kerry. We have not been able to eliminate every 
person associated with al-Qaeda.
    The Chairman. Absolutely. So then the question----
    Secretary Kerry. But we have been able to reduce their 
capacity to mount a major attack under the circumstances that 
we are able to obviously guard against, and engage in, 
preventive actions----
    The Chairman. So, in Iraq, we want a sovereign Iraq whose 
territorial integrity has been restored without the presence of 
ISIL.
    Secretary Kerry. And an independent, inclusive government 
that is functioning.
    The Chairman. And in Syria?
    Secretary Kerry. In Syria likewise. We believe that, 
ultimately, there is no solution to Syria without a political 
settlement. That goal has not changed. But Assad has had little 
incentive to negotiate.
    The incentive that existed when I first went to Moscow last 
year, and President Putin and Russia agreed to support the 
Geneva process, regrettably got sidetracked by a number of 
things, one of which was the in-fighting that began to take 
place in the opposition itself. Two, the unexpected degree to 
which Assad became an extraordinary magnet for terrorists, and 
that is when you began to have this amazing flow of foreign 
fighters who came to get rid of Assad.
    And as Assad gassed people and barrel bombed people and 
tortured and so forth, it became more evident to those global 
fighters, and particularly to countries in the region, they 
were focused on whatever group could get rid of Assad. And 
unfortunately, tragically, ISIL is somewhat an outgrowth of 
that phenomenon.
    And therefore, we are today--you know, I think all the 
countries in the region have recognized that there was a 
mistake of judgment with respect to that process, and I think 
people are bending over backwards to try to rectify it.
    The Chairman. I think members of this committee who joined 
together to first vote for the authorization of use of military 
force as President Obama was headed to the G20 summit at the 
time in Russia to deter Assad from using chemical weapons and 
who subsequently voted in a bipartisan effort to arm the vetted 
Syrian rebels over a year ago fully appreciate that.
    It is my hope that when we refine the definition of the end 
state as it relates to the campaign against ISIL that we 
understand that if I am a moderate vetted rebel and I am being 
asked to fight against ISIL now, I also need to fight against 
Assad because that is my ultimate mission. And so, as we move 
forward, I would like to hear how that is coinciding.
    Let me ask you two other questions. I heard you very 
clearly when you said we are not asking all of our partners to 
engage in direct military actions, but I hope that there will 
be, and I would like to hear from you, can we expect part of 
the Sunni Arab coalition members to, in fact, be part of 
military actions in this regard? Because this cannot be simply 
a campaign by the West against the East.
    Secretary Kerry. You are absolutely correct, Mr. Chairman. 
And first of all, let me thank you and I thank the committee 
for the vote that you took, the only entity in the Congress 
that did. And it was an affirmative vote, and we are grateful 
for that and respect it.
    Currently, there are countries outside of Europe and 
outside of the region committed to engage in military action. 
There are countries in Europe committed to take military 
action. There are countries in the region, Arab countries, 
committed to take military action.
    We will have sufficient levels of commitment to take 
military action. It will be up to CENTCOM and General Allen and 
others to work on the question of who will do what.
    The Chairman. It is fair to say that this is going to be a 
multiyear effort?
    Secretary Kerry. Well, the President has been very clear 
about that. Certain parts of it will be, absolutely. I cannot 
tell you--I can tell you this. When we took them on at Mosul 
Dam and the Iraqis were on the ground and took them on, we took 
back Mosul Dam. When we took them on at Amirli, they moved out. 
When we took them on at Sinjar Mountain, we freed the people at 
Sinjar Mountain.
    And we have currently enabled people to be able to hold 
them off at Haditha Dam, and it is clear from the intelligence 
we pick up that what we are doing now, which has fundamentally 
been more defensive than offensive, has already had an impact 
on them. I am convinced that with the proper effort, we can 
have an impact.
    The Chairman. I do not dispute that you have had in the 
short term an impact to stem their advances, at least within 
the region that they are in. My question, though, is no one 
reasonably can come from the administration and suggest that 
the ultimate goal, which is taking out this network, is not 
going to be a multiyear effort?
    Secretary Kerry. It is a multiyear effort. The President 
has already said that.
    The Chairman. With that as a reality, then let me turn to 
the AUMF. How is it that the administration believes that--and 
I support its efforts. But how is it that the administration 
believes that the 9/11 AUMF or the Iraq AUMF provide the 
authorization to move forward whether the Congress decides to 
or not?
    You know, it was not too long ago that members of the 
administration appeared before the committee, and when I asked 
them, I was headed toward repealing the Iraq AUMF. And there 
were administration witnesses who believed that it should be 
repealed on behalf of the administration. How is it that the 
administration now thinks it can rely upon that for legal 
authority?
    Secretary Kerry. Mr. Chairman, how is it? It is because 
good lawyers within the White House, within the State 
Department, who have examined this extremely closely have come 
to the conclusion across the board that the 2001 AUMF, which 
says all necessary and appropriate force against those nations, 
organizations, or persons responsible for 9/11, those who 
harbored such organizations or persons, to prevent future acts 
of international terrorism against the United States by such 
persons or organizations, includes al-Qaeda. It has always been 
interpreted as including al-Qaeda. And al-Qaeda and----
    The Chairman. Al-Qaeda threw out ISIL----
    Secretary Kerry. But al-Qaeda and associated forces, that 
is the language. Al-Qaeda and associated forces. Now al-Qaeda, 
ISIL began as al-Qaeda. In 2005 in Iraq, 2004, ISIL was Al 
Qaeda in Iraq. And it only became this thing called ISIL a year 
ago, and it only became that out of convenience to separate 
themselves in an internal fight, but not because their thinking 
changed, not because their targets changed, not because their 
actions changed.
    They are the same people doing--the same people that we 
were prepared to and were attacking for all of those years. And 
a mere publicity stunt to separate yourself and call yourself 
something else does not get you out from under the force of the 
United States law----
    The Chairman. I appreciate your ability as a former 
prosecutor and a gifted attorney to try to make the case. I 
will tell you----
    Secretary Kerry. Well----
    The Chairman [continuing]. That at least from the chair's 
perspective you are going to need a new AUMF, and it will have 
to be more tailored because I do not want to be part of 13 
years later and multitude of countries that have been used in 
this regard, for that to be the authority. And I think our 
goals are the same. I think we need to get you a different set 
of authorities, and I look forward to working with my 
colleagues----
    Secretary Kerry. Not only are our goals the same, Mr. 
Chairman, but we know you are thinking about retooling the 
AUMF, and we welcome. We would like Congress, please, do this. 
We want that to happen. We are not going to make our actions 
dependent on it happening, but we will work with you as closely 
as we can and should in order to tailor an AUMF going forward, 
and we look forward to that opportunity.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    I just want to say, as I have said to you personally, we 
have three Senators--the President, Vice President, Secretary 
of State--that are exercising terrible judgment right now. And 
to say that you are going to do this regardless of what we say, 
you are not going to ask for buy-in by the United States Senate 
or House of Representatives on behalf of the American people in 
a conflict that you say is going to be multiyear, some people 
say a decade, taking us into another country with a different 
enemy is exercising the worst judgment possible.
    And so, I have said this to you as strongly as I can 
personally. That is in essence what you are saying to the 
chairman right now. Saying ``if Congress wants to play a 
constructive role we would welcome that'' to me is a political 
game. And I am disappointed that you, as Secretary of State, 
after being chairman of this committee, after espousing the 
views that you have espoused in the past, out of convenience 
and parsing legal words would make the statement you just made.
    So let me move on and say I would love--you say much has 
been accomplished. That is a nice photograph on the front of 
the Wall Street Journal. Tell me what has been accomplished. 
What Arab Sunni nation is going to have a ground force in 
Syria? What Arab Sunni country is going to be flying in and 
bombing and doing missile raids with an Arab insignia on the 
side of the plane? Tell me that.
    Secretary Kerry. Senator, you will hear that at the 
appropriate time within the next days, as John Allen and the 
team work with all of these countries for the permissions, for 
the basing, for all the things that will take place. I have 
told you they have----
    Senator Corker. Let me ask you this.
    Secretary Kerry. No, no, no. Let me----
    Senator Corker. Are you convinced that that will happen?
    Secretary Kerry. Let me finish.
    Senator Corker. Are you convinced that that will happen?
    Secretary Kerry. Well, I have already said that. I----
    Senator Corker. So we will have Arab Sunni countries 
participating in the ground effort in Syria?
    Secretary Kerry. No, I did not say the ground effort, and 
you know, right now the plan is to work through the--and our 
judgment is that we can be effective working in the way that we 
are. Let me say a couple of things, first of all, with respect 
to your----
    Senator Corker. Well, you can say the answer to my 
questions, okay?
    Secretary Kerry. Well, no, when I----
    Senator Corker. I am not going to be filibustered----
    Secretary Kerry. No, I am going to answer your question. I 
am going to answer your question.
    Senator Corker. Okay.
    Secretary Kerry. And I am sure the chair will be, you know, 
happy to have the kind of dialogue I talked about earlier. It 
is important to talk this through.
    Senator Corker. I have got 2 minutes and 34 seconds and 4 
more questions.
    Secretary Kerry. Well, Senator, you have not let me answer 
any of them yet. So let me try to answer the question.
    Senator Corker. Well, the question is what Arab Sunni 
country is going to be putting boots on the ground in Syria 
against this now-claimed army by your----
    Secretary Kerry. At this moment, no country has been asked 
to put boots on the ground or no country is talking of it. And 
we do not think it is a good idea right now. So there is no 
discussion of that at this moment.
    Now with respect to the judgment about asking Congress to 
do it, I am asking. Do it. Pass it. We would love to have you 
do it. But we are not going to get stuck in the situation, when 
we have the authority, of not exercising our authority to do 
what we believe we need to do to protect the country.
    So we are asking you to do it. Pass it tomorrow.
    Senator Corker. You are asking us to do it, but you are not 
giving any details because you do not have them.
    Secretary Kerry. That is not true, Senator.
    Senator Corker. Well, then share them.
    Secretary Kerry. Senator, I am not going to share them in 
public here today. Many of these things----
    Senator Corker. Share them in a classified setting.
    Secretary Kerry. I am confident there will be so many 
classified briefings that you will be tired of them. But at the 
moment, we are not going to lay this out until John Allen has 
had a chance to come to the U.N. on Friday, until we have had a 
chance to work closely with all of these countries in order to 
make this as effective as possible.
    Senator Corker. Do you realize how unserious the things 
that you have laid out and the things that were laid out 
yesterday sound when you are discussing training 5,000, in your 
all's own words, doctors and dentists and others in Saudi 
Arabia over a year? I do not know whether they are being 
trained for offensive or defensive--I would like you to clarify 
that--activities. My understanding is that they will be given 
higher tech equipment after they prove themselves on the 
battlefield.
    Do you understand how unrealistic and how that effort on 
the ground where they are based, where ISIL is based, does not 
match the rhetoric that the administration has laid out? And 
therefore, you are asking us to approve something that we know 
the way you have laid it out makes no sense.
    We have a strong sense that our Army, our military leaders 
have urged you to put special forces on the ground, but, no, we 
are not going to do that. So this does not even seem serious. 
It seems like a political answer to the United States as they 
cry out about this uncivilized activity, but it does not seem 
real to me.
    And if you are willing to get in a classified setting and 
lay out all these details and tell us which of these countries 
are going to be flying their flag into Syria, they are going to 
be putting people on the ground. Because we know. We know the 
Free Syrian Army cannot take on ISIL. You know that.
    You talk about a multiyear process. We are talking decades 
if that is going to be our salvation. So I will just close with 
this. I am disappointed. I was disappointed in the briefing we 
had last week.
    I do want us to deal with this in an effective way. You 
have not laid it out in a way that meets that test. I hope when 
we come back and before you put people in harm's way 
unnecessarily, you have a plan that achieves the end that you 
just laid out. But we know right now that is not where you are.
    And again, I hope you will seek it, I hope you will say 
that you are not going to do it without it, and I hope you will 
lay out a plan that will convince us that you are serious about 
doing the things you said you were going to do to the American 
people and to us about ISIL because you have not done it now. 
And I hope you will lay out a way to pay for it, to pay for it, 
because we know this is going to take many, many years, and it 
has to do with the safety of our citizens.
    Secretary Kerry. Mr. Chairman, can I, I hope, answer a 
little bit here?
    Senator, you know, I must say to you I really find it 
somewhat surprising for you to suggest that as the President of 
the United States talks to the Nation and commits to take 
strikes in order to deal with ISIL, as we have come back from a 
week of very serious meetings with nations around the world, 
all of whom are committed to this, that you sit there and 
suggest that it is not serious.
    Now, with all due respect to you, Senator, let me just tell 
you something point blank. The moderate opposition in Syria 
has, in fact, been fighting ISIL for the last 2 years. And 
since last January, the Free Syrian Army has been engaged with 
ISIL in Idlib, in Aleppo, in the Damascus countryside, in Deir 
al-Zor, and groups such as the Syrian Revolutionary Front have 
fought off ISIL. They have expelled them from Idlib province, 
which borders Turkey and includes the border crossing.
    Over the past 2 months, moderate brigades have been 
deployed in northern Aleppo to prevent ISIL from capturing key 
border towns, including Azaz, through which a large quantity of 
humanitarian assistance is now being sent. But they require our 
support.
    Senator McCain knows that. He has been screaming about it 
for some time.
    Senator Corker. We have all been screaming about it, and 
you all have done nothing, or at least not much to talk about.
    Secretary Kerry. Senator, let us just understand that the 
fact is that what has propelled ISIS to some degree is a word 
called success. And as ISIS has had success, they have used 
social media and they have appealed to greater numbers of 
greater fighters.
    As they have now suddenly been put on their heels and as 
the United States and other countries do seriously commit to 
this endeavor--and believe me, what we are doing is serious--
then if success begins to turn and move toward the Free Syrian 
Army and the moderate opposition, I believe you will see 
greater numbers of recruits. That is why the President is 
asking for that open training under Title X in order to try to 
build that up as fast as possible.
    Our estimates are there are now currently tens of thousands 
still of fighting members of the opposition. And if you can get 
more people better trained, and by the way, every month that I 
have been Secretary of State, we have been adding to the effort 
of what we are doing with respect to the Syrian opposition, and 
most of that needs to be covered in a classified setting, as 
you know.
    But our assessment is that we can and, given the urgency of 
the situation, begin to move this program to a greater degree. 
So will it take a period of time? We have all said that; yes. 
But we are confident that we have the ability to be able to 
change the situation on the ground.
    The Chairman. Senator Boxer.
    Secretary Kerry. By the way, I do have a list here. I am 
not going to go into all of it now. But there are Albania has 
sent in the last--we have had at least 18 flights that we have 
taken in to Erbil. We have been providing additional weapons to 
Peshmerga.
    Other countries have been doing this. Australia has 
committed a number of different items to this. I am not going 
to go into them publicly. Bulgaria is providing aid. Canada, 
several--sending various kinds of assistance. Croatia, Czech 
Republic, Denmark, Estonia, France, Germany, Hungary, Italy, 
Saudi Arabia, Germany.
    Look, there are a lot of countries here. And by the way, 
they are all serious, too, or they would not be on this list.
    The Chairman. Senator Boxer.
    Senator Boxer. Secretary Kerry, thank you for your tireless 
work.
    I think it is shocking and a sad state of affairs that we 
heard just now such angry comments aimed at you, Mr. Secretary, 
and through you at our President, instead of at ISI, a savage 
terrorist group that decapitated two Americans and has warned--
and I quote--that they will ``quench'' their thirst for 
American blood.
    I think it is shocking. I am actually shaking and 
trembling. This is not the time to show anger at the people who 
are working night and day, whether you agree with them or not, 
to protect our people.
    Now I want to talk about the AUMF. I voted against the one 
in 2002, which started the disastrous war in Iraq. I voted for 
the one in 2001, and I have reread it about six times.
    Mr. Secretary, the lawyers I have consulted with believe 
that you have the authority to go after ISIL. It is very clear. 
You read the parts. If people listened to you, you read the 
parts that are correct.
    Now that is not to say that I would not welcome working on 
a new AUMF. But I want to say right now, the way things get 
filibustered around this place and the way politics gets played 
around this place, I am proud that you say you are going to do 
your work to protect the American people.
    This is just a sad opening of a hearing. I have never seen 
it, and I have gone through some tough ones.
    Now I want to say this. The Iraq war inflamed the long-
simmering sectarian divisions in that country. I know you do 
not want to get into the past. It is fine. I think it is worth 
mentioning because from my point of view, that is a war I voted 
against. I am for going after ISIL because there is such a 
difference.
    And there are two strains of thought as people speak out 
against the policy of the administration. One is they say you 
are not doing enough. Go back with those ground troops, more 
war, more boots on the ground. American boots, they are the 
only boots that work. You have proven just with a few examples 
that it is just not true, and I certainly reject that view.
    And the other, the second school of thought represented by 
some of the folks out there who I like and talk to all the 
time, they think we should not take the fight to ISIL. Forget 
it. It is too complicated. It is fraught with uncertainty. We 
should sit on the sidelines. I oppose that view as well.
    You cannot sit on the sidelines, at least I cannot, when 
you have a group that is selling 14-year-olds, as my former 
colleague said. Selling 14-year-old girls as slaves, giving 
them as gifts to their fighters, murdering ethnic and religious 
minorities, including Christians, Yazidis, and Shiite Turkmen. 
And again, warning that their ``knife will continue to strike 
the necks'' of Americans.
    They have a very simple goal. They say if you do not take 
our twisted version of Islam, you either flee, you convert, or 
you die. So, no, I am not going to sit idly by.
    Mr. Secretary, I have a question for you. I was being 
interviewed, and I was expressing these views that I was just 
expressed that there were certain areas where it is gray, and 
there are certain areas where it is clear to me. I mean, 
everyone takes their own lens to the question.
    And I was asked this question. How can we make sure that 
the Syrian moderates we help are the right ones? And this 
particular reporter said, well, we have heard reports that the 
Syrian moderates signed a nonaggression pact with ISIL.
    My answer to that was there are all kinds of Syrian 
moderate groups, and we are certainly not working with those 
who do not see it our way. Could you expand on that answer or--
--
    Secretary Kerry. I would be delighted to. Let me just say 
to you that is disinformation fundamentally put out by ISIL. 
The moderate opposition recently restated its commitment as a 
national movement to fighting extremism generally and including 
ISIL. And a recent statement that they had reached a truce is 
simply baseless, not accurate, and they have not. And they will 
not.
    Senator Boxer. Thank you.
    And then just, I mean, I do not have enough time to ask 
everything. So I will ask one last question. What roles do Iran 
and Russia play in this conflict, and how do the interests of 
these two countries factor into the President's counter-ISIL 
strategy? I know it is very delicate, but how would you respond 
to that?
    Secretary Kerry. Well, you know, Russia, obviously, is a 
principal line of support to Assad, and Assad, as we all know, 
has neither proven the willingness nor the capacity to go after 
ISIL. And Russia was at the meeting in Paris. China was at the 
meeting in Paris. Both spoke out powerfully about the need to 
stand up to ISIL.
    And Iran, as you know, there was the subject of whether or 
not they might have been invited. There were certain problems 
in trying to make that happen because of country objections 
with respect to their presence, et cetera, and it did not 
happen. But Iran, obviously, is deeply opposed to ISIL.
    Now we are not coordinating militarily or doing anything, 
but we have had brief conversations on the side of our 
negotiations that are taking place, the P5+1 Iran nuclear 
negotiations. And we are prepared to see whether or not Iran 
can contribute in a constructive way. But that would require 
also changing what is happening in Syria, where their IRGC is 
on the ground and supporting Assad and been engaged in 
activities, Hezbollah on their behalf, whom they support.
    So there are a lot of areas of twisted conflict in the 
relationships here, and we are looking--you know, it would be 
negligent not to be open to listening to some change in the 
dynamic or some possibility of constructive activity. But we 
are not relying on it, waiting for it, organizing around it, or 
in fact coordinating with it at this point in time.
    Senator Boxer. Thank you.
    The Chairman. Before I turn to Mr. Risch, Senator Risch, 
let me just say to the Secretary on this subject I heard what 
you said. But to me, Iran is a regional instigator. It is a 
patron of the murderous Assad regime. It is a sponsor of 
sectarian divisions inside of Iraq.
    It uses Iraq's airspace to send troops and men into Syria, 
and some of us are really concerned that, first of all, their 
end purposes are not our end purposes. And secondly, that some 
of us are concerned that negotiations with Iran, you know, are 
affected by to the extent that they express any desire to be 
helpful, they want to do it at the cost of concessions at the 
negotiating table.
    I know you are shaking your head, and I would not expect 
anything else.
    Secretary Kerry. Not going to happen.
    The Chairman. But I have to be honest with you, when we 
hear all these back channel efforts and then they get outed by 
the Ayatollah, it creates uncertainty in that process. So I do 
not want to take more time from my colleague, but Senator 
Risch?
    Senator Risch. Thank you, Mr. Chairman.
    John, I share some of the anger of Senator Boxer when it 
comes to what has been going on with the beheading of 
Americans. I mean, this is a tough time for America--for 
Americans to be watching their fellow citizens being beheaded 
by these savage people, and something has got to be done about 
it.
    And I fully empathize with the problem you have got to 
where it is happening is such a complex situation with complex 
cultures and what have you, and you have got to do something 
about it. I want to throw in with the chairman. He mentioned 
three points, I think, in his opening that he was hoping he 
would hear, and I have not heard yet.
    And that is he talked about hearing the plan that you have, 
and he wanted to hear what success looks like, and he wanted to 
hear some metrics as to how we measure progress. And John, I am 
just not there yet. I am not convinced.
    And this is particularly true where I think everyone is in 
agreement. The President is in agreement. Congress is in 
agreement. The American people are in agreement. Nobody wants 
boots, American boots on the ground. I mean, that just is not 
going to happen. There is nobody--nobody going to go there with 
that.
    In fact, had the President come here and said that, look, I 
want authorization for airstrikes. You and I both know how 
effective the drone program has been and how good it has been 
as far as accomplishing the goals that we have in Yemen, in 
Pakistan, and in other places. If he would have come here for 
that, you would have had no problem with me.
    As far as the boots on the ground, who do you get to do it? 
Well, we know the Iraqis cannot do it. They dropped their guns 
and uniforms and went home at the slightest bit of threat. With 
all due respect, I know everybody talks about the moderates, 
opposition and the rebels. We have been through this for over a 
year, and I am just not convinced that there is such a group 
there.
    So you said let us talk about this, and let us see if we 
cannot come up with some way to do this. You know, the best 
group around to be able to do this for boots on the ground are 
the Kurds. They have been incredibly successful. They have been 
a reliable--they have been reliable to us. They are great 
fighters.
    I mean, if anybody is going to succeed on the ground in 
Iraq or, for that matter, in Syria, it is going to be the 
Kurds. Have you guys given thought to partnering up with them? 
What am I missing here?
    Secretary Kerry. Well, you are not, Senator. They have been 
extraordinary, and that was our first line of effort, 
obviously. That is why we put the joint operation center in 
Erbil right away. And that is why we elicited immediate 
support. We really had to hold that line.
    That was critical, and that is why the President was 
prepared to use some strikes, actually, to help guarantee that 
that happened. And there is a huge flow of weaponry. As I said, 
18 flights that I know of from us have gone in now to Erbil. 
There are flights coming from other countries, too. Italians, 
others, lots of countries have been supporting the Kurds in 
this effort.
    And you know, I think this is the work that John Allen 
needs a chance to sort of develop a little bit, see how it is 
going to go. The bottom line is the commitment to destroy ISIL, 
and that means what I described earlier today. And for the 
moment, growing the moderate opposition is one way of coming at 
it, and we will see, you know, what else may be possible as we 
go forward.
    Senator Risch. I appreciate that, and it is encouraging for 
me to hear that you have engaged the Kurds. I think that----
    Secretary Kerry. Oh, very, very much so.
    Senator Risch. Let me with the little time I have left, I 
just want to make absolutely certain of your testimony. You 
originally said when you were meeting with these other 
countries, they have said, and I am quoting you, ``What can we 
do to help?'' But you have also said that nobody has agreed to 
put boots on the ground. And then I think you said that you 
have not asked them to put boots on the ground.
    So let me be very clear about airstrikes. Has anybody 
committed that they would fly their flag in and do airstrikes 
into Syria?
    Secretary Kerry. Yes.
    Senator Risch. And they are committed to do that?
    Secretary Kerry. Yes.
    Senator Risch. Okay. That is good. In a classified setting, 
we will be able to get who those people are?
    Secretary Kerry. Yes.
    Senator Risch. That is much more encouraging. Thank you. 
And with that, my time is up.
    Thank you, Mr. Chairman.
    The Chairman. Senator Cardin.
    Senator Cardin. Well, Secretary Kerry, first of all, thank 
you for your incredible service.
    And what you have stated expresses my view on the need for 
international action against a barbaric terrorist organization, 
ISIL. It requires an international response. I think President 
Obama has been effective, particularly in the actions in Iraq. 
The military strikes have been very effective in pulling back 
ISIL's advancements, and I think the President deserves credit 
for doing that and certainly has my support.
    You have been effective in bringing about an international 
coalition, and that is extremely important. Whenever we are 
involved in missions like this, it must include an 
international presence. And you have been very clear that we 
will not have combat ground troops as part of this campaign. 
And I support each of those statements.
    So I want to get back to the point that the chairman 
mentioned, and I guess just about every one of us have 
mentioned, in regard to the authorization of force because I am 
not clear what we will do in Syria, and I am not comfortable 
yet as to what we will do in Syria. And I am looking forward to 
more information being made available to us.
    But my concern, I would really like to get your thoughts on 
this, is that the authorizations that were passed in 2001 and 
2002 were clearly aimed at a different circumstance. And if 
your lawyers' interpretations are correct, they are open-ended 
indefinitely, well beyond the Obama administration and could be 
used for long-term commitments, including ground force 
commitments in the future.
    And that certainly was not congressional intent. I did not 
support the 2002 resolution. As the chairman said, it was based 
upon misinformation. And 2001 was clearly aimed at the 
circumstances in Afghanistan. It was not intended to deal with 
the current circumstances in Syria. I would hope we would all 
agree to that.
    So I think it is absolutely essential that we come together 
and revisit the authorization issues. More than that you would 
welcome congressional involvement, I think it is imperative 
that we attempt to clarify the authorizations on the use of 
force to meet the current needs.
    In Iraq, I do not think that is going to be difficult. I 
think you have been invited in by another country. I think we 
can----
    Senator Boxer. You mean Iraq.
    Senator Cardin. I mean Iraq. Excuse me, in Iraq. I do not 
think it is difficult in Iraq. Thank you, Senator Boxer.
    We have been invited in by the host country. It is clear we 
are not going to put combat troops on the ground there.
    Syria is going to be more difficult because there are many 
of us who are not prepared to authorize the use of force in 
Syria with the information we currently have. But that is 
something I think we have to work with.
    You have Article II power, and the President has Article II 
power. So he always has the right for a short period of time to 
defend the interests of this Nation as he sees fit, and that is 
his responsibility as Commander in Chief.
    So I do not think there is any immediate urgency for 
congressional action. But I just think it is vital for the 
appropriate role of Congress and for moving forward beyond just 
the Obama administration because, as you pointed out, these 
circumstances are not going to end in the next 2 years. And I 
would just welcome your thoughts as to how you think we should 
proceed with an authorization that can pass Congress and give 
you the comfort level that you need to protect us against any 
lengthy combat involvements in these countries in the future 
should ultimately be done by their own military?
    Secretary Kerry. Sure. Well, Senator, thank you very much. 
Thank you for your comments.
    But, look, I would not sit here comfortably and suggest to 
you--nor would President Obama, by that token, I know--suggest 
to you that this ought to go on indefinitely and that there 
should not be an effort with Congress to define this. Of 
course, there should be.
    I think the American people want it, deserve it, and it is 
appropriate role for both branches to play, to work together to 
articulate that going forward. The President has made it 
crystal clear he is ready to do that. We know the chairman has 
announced that he is going to begin work to define that. We 
look forward to working with you to define it. That is how we 
go about it is to work effectively to do it.
    Now in the immediate moment, we have a Prime Minister--do 
you have the comments of Prime Minister Abadi from the press 
conference the other day? Get those out for me, please.
    [Pause.]
    Secretary Kerry. In my meeting with Prime Minister Abadi, 
at the end we met with the press, and I will just read you what 
Prime Minister Abadi said as an opening comment, not even 
prompted or part of a question. He said, ``ISIL is a terrorist 
nation. It is mobilizing its international network to recruit 
people from all over the world. They have funds from all across 
the region. We are fighting these people. These people are--'' 
and then something inaudible about our communities attacking or 
something, minorities, women, children. ``They already--'' and 
then it was inaudible about women and killing or raping. ``They 
are a challenge to the whole region, to the international 
community. They are coming to Iraq from across the border from 
neighboring Syria. Of course, our role is to defend our 
country, but the international community is responsible to 
protect Iraq and protect Iraqis and the whole region.
    ``What is happening in Syria is coming across to Iraq. We 
cannot cross that border.'' That is on an international basis. 
But he says, ''It is an international border, but there is a 
role for the international community, for the United Nations, 
to do that role and the United States to act immediately to 
stop the spread of this cancer. ``This cancer is spreading in 
the whole region, and we have the resolution to fight the 
cancer in Iraq. We Iraqis will have both an inclusive 
government now, and we can do this job properly, everybody as 
whole.''
    And he goes on to talk about how they will do it. But he 
specifically asks for the United States of America to help in 
this role.
    Now our lawyers also are clear that Iraq has the right of 
self-defense, and Iraq is exercising its right of self-defense 
and asking the United States to help it. And we already have a 
military agreement with them with respect to that. And so, Iraq 
is asking us to help them.
    And as a matter of right, if they are being attacked from 
outside their country, you have a right of hot pursuit. You 
have a right to be able to attack those people who are 
attacking you as a matter of self-defense.
    So we believe there is a full justification here, and 
obviously, that will be laid out further. But is it better to 
have a greater statement of that? Is it better to have the 
Congress of the United States defining this going forward? We 
agree. But we need to move and to move rapidly because of the 
urgency of this danger.
    The Chairman. Senator Rubio.
    Senator Rubio. Thank you.
    Secretary Kerry, I was struck by the language in your 
opening statement. ``ISIL must be defeated, period. End of 
story. And collectively, we are all going to be measured by how 
we carry out this mission.''
    Now from a military perspective, the plan of carrying out 
this mission involves a combination of Iraqi Forces in Iraq, 
from the military perspective more capacity; of course, the 
Kurds; moderate rebels in Syria; and American airpower. No 
combat boots on the ground on the part of the United States.
    But over the last few days since the President has made 
that announcement, there has been real doubts expressed by 
military experts over whether that strategy will achieve what 
you have defined as our goal. The Washington Post reported that 
the top U.S. commander in the Middle East advised the President 
that we needed a modest contingent of American troops, 
especially Special Operation Forces, to advise and assist Iraqi 
army units.
    The Chairman of the Joint Chiefs yesterday in the Armed 
Services Committee said that if local forces do not work, he 
would recommend U.S. ground troops potentially to the 
President. So my question is if it becomes clear that the only 
way to achieve the defeat of ISIL, period, end of story, is for 
the engagement of American ground troops, will that be 
something the President will consider at that time?
    Secretary Kerry. The President will not put American ground 
troops into Iraq, and the President made it clear again today 
in a statement that he made at CENTCOM that America can make a 
decisive--I am quoting the President. ``We can make a decisive 
difference, but I want to be clear. The troops that have been 
deployed to Iraq do not, and will not, have a combat mission.''
    Now we believe--and we are not going to deal with 
hypotheticals about what happens if and this and this. We 
believe there are any number of options as to how one can 
guarantee the effect on ISIL long before you were to get to the 
hypothetical conversation about Americans.
    So I understand the Chairman of the Joint Chiefs of Staff, 
whose job it is to look at it from his perspective in terms of 
his military and his judgment. But the President has made a 
judgment as Commander in Chief that that is not in the cards, 
and that is where we are.
    Senator Rubio. So even if the only way, with the military 
expert----
    Secretary Kerry. I am not going to deal with a 
hypothetical. I do not believe it is the only way.
    Senator Rubio. Well, it is not a hypothetical. It is 
actually--it appears to be, quite frankly, we are relying on a 
military strategy built on rebels who, at this point, are under 
assault not just by ISIS, but by the Assad regime, by local 
Iraqi Forces, of which some testimony say up to half, are 
incapable of fighting at this stage, and Kurds that have been 
great fighters but are only willing to protect their territory.
    This is a very clearly stated goal, and the reason why it 
is not a hypothetical is there may come a point where what you 
are saying is that if the only thing that can solve this 
problem is U.S. combat forces, we are not going to do that, and 
ISIL gets to stay.
    Secretary Kerry. But I think we are so far away from that 
quote being the only way in a hypothetical. I mean, honestly.
    Senator Rubio. Then let me ask you this.
    Secretary Kerry. No, let me just--let me just finish that. 
I mean, you know, I am not going to get into hypotheticals, but 
you are presuming that Iran and Syria do not have any capacity 
to take on ISIL. I mean, who knows? I am not going to get--I do 
not know what is going to happen here. Let us start down this 
road and see what happens.
    Senator Rubio. Well, let me ask you about that then. So 
what you are saying now is that there is the opportunity, the 
potential that the United States would be coordinating with 
Iran?
    Secretary Kerry. No, I never said anything about 
coordinating. If we are failing and failing miserably, who 
knows what choice they might make. You prepositioned this on 
the notion we are failing. I do not believe we are going to 
fail.
    Senator Rubio. I did not preposition on----
    Secretary Kerry. And we are not setting out----
    Senator Rubio. I am prepositioning on the state of the 
military----
    Secretary Kerry. You did. You said if we fail we cannot do 
that.
    Senator Rubio. Well, again, I will go back to the report. I 
mean, a number of people, including former Defense Secretary 
Gates has expressed his belief that it is not possible. A 
number of highly qualified military experts have said they do 
not believe that the goal you have stated in your opening 
statement is achievable without a U.S. presence.
    Secretary Kerry. There are lots of possibilities. There are 
lots of possibilities between here and there. The President has 
said he is not going to put American troops----
    Senator Rubio. Well, you mentioned Iran. And you know, Iran 
yesterday said that not that it was on the sidelines of these 
negotiations. They claim that the U.S. Ambassador in Iraq 
reached out to the Iranian Ambassador in Iraq and asked to 
discuss some sort of level of coordination.
    And the Iranians already gave us our answer. You said you 
were open to some sort of dialogue with them if it had any sort 
of promise to be productive. He has already answered the 
question. He says he sees no point in coordinating with a 
country whose hands are dirty. That is what he said about us.
    He says, quite frankly, that--he said this, not me, please. 
He said that you are lying, that we did not exclude them from 
the talks to join the coalition. They excluded themselves, that 
they refused to participate. And he went on to say that in 
Iraq, the United States goal is to turn it into a playground 
where we can enter freely and bomb at will.
    I would just say that any hopes of coordinating with Iran, 
who I consider to be just as evil as ISIS, is something that I 
would discourage for a number of different reasons. But I want 
to ask you just one more question, and it has to do with the 
rebels in Syria.
    Later today, Ambassador Ford is going to testify that the 
biggest enemy that moderate opposition faces is the Assad 
regime. In fact, there are credible reports today that the 
Assad regime has stepped up its targeting of moderate rebel or 
non-ISIS rebel forces in the hopes of wiping them out so that 
they, the Assad regime, will be the only alternative left in 
Syria.
    If we are interested in supporting the moderate rebels, 
will it not require us to protect them from Syria as well, from 
the Assad regime as well, if we hope that they can develop into 
a credible fighting force?
    Secretary Kerry. ISIL first. That is our policy.
    Senator Rubio. Well, but Ambassador Ford is going to 
testify later today that the biggest enemy they face is the 
Assad regime bombing them, and there are reports today, 
credible reports, that Assad has stepped up his campaign 
attacking these moderate rebels. They may not be there for us 
to arm.
    Secretary Kerry. That is not our judgment, but we obviously 
recognize that there are serious challenges with the Assad 
regime, and our policy has not changed of opposing the Assad 
regime and helping the moderate opposition. And in classified 
forum, I think we have a better opportunity to discuss what we 
are doing additionally in order to do that.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Secretary, for being here 
and for all of your tireless efforts to address the ISIS 
threat.
    That is a threat that I believe was really brought home to 
the American people by the barbarous and heinous murders of 
James Foley and Steven Sotloff. And as you may know, Jim Foley 
grew up in New Hampshire, and Steven Sotloff went to prep 
school there. And so, they both have ties to my State, and I 
think people in New Hampshire and across the country really 
felt very personally those murders.
    I appreciate and I said this yesterday at the Armed 
Services hearing with General Dempsey and Secretary Hagel that 
I appreciate the efforts of our men and women in the military 
to make a rescue attempt to free those--James Foley and Steven 
Sotloff and the other Americans--being held hostage. But I have 
been very troubled by the comments from the Foley family that 
have been reported about their concern that they were not 
communicated with and did not have support from our government 
as they were trying to deal with the hostage situation for 
their son.
    And I wonder if you could--well, let me rephrase this. I 
hope that post the murders that this administration and future 
administrations will seriously reassess what can better be done 
to support families who are dealing with this kind of a crisis. 
Some of the reports have pointed out that there are other 
countries who have different ways of dealing with the families, 
and I certainly hope that you will help in this effort as we 
look at how we can better support those families.
    Secretary Kerry. Well, Senator Shaheen--excuse me. Senator 
Shaheen, first of all, let me begin by saying that I know how 
personally deeply involved you were in Jim's case and in 
working with us to try to keep the focus on it. I know how 
close you were to the family, and I know how much effort when 
into the prior effort when Jim was in Libya. I worked on that 
personally and on this subsequent effort.
    We raised it with country after country to try to get a 
Foreign Minister or some contact in the country. Is there a way 
to get proof of life? Is there a way to find out where he is? 
Is there a way to negotiate the release?
    Most recently, even in the last 2 months before he was 
barbarously killed, I was talking with people in one of the 
Middle Eastern countries who traveled to Syria on our behalf in 
order to try to find out whether there was a way to secure the 
release of these hostages. And we--I know that you also made an 
incredible effort to reach out to country after country. I know 
the Czech Republic, others, you were very much active in this 
and engaged in that.
    And when we got him out of Libya, which we worked hard to 
do, I was in touch with people on global posts who I know very 
closely. I mean, they are friends of mine who are part of that 
effort. So they were always in touch with me and talking 
personally about it.
    Now I have read these accounts of things that have happened 
or their judgment. I talked to Diane and John Foley after Jim 
was killed. I think everybody here would just shudder at what 
they have to go through.
    So this is something we feel very deeply, so much so that I 
remember the hours we sat in the situation room in the White 
House working with our brilliant military, who did a remarkable 
job of designing a rescue mission, and the President made the 
difficult decision. Because it is always difficult. You are 
putting American service people at risk going into another 
country. They have air defense. You do not know what is going 
to happen. And you know you are going in where there is ISIL.
    And I sat in the White House in the situation room and 
watched that entire mission unfold and was amazed by the 
capacity of our military people to do what they did. A high-
risk mission performed flawlessly. And the intelligence was 
correct to every degree that they went the right place. They 
did things correctly. It just was empty.
    They had moved them ahead of time, and we do not know 
exactly how soon or when. And you have no idea how just the 
feeling in that room changed when the message came from our 
people on the ground saying nobody is there. So we felt that 
and feel it to this day.
    But you know, if they feel unhappy somehow that it was not 
worked properly, whatever agency it was, we have to make sure 
in the future that we are going to make sure that that is just 
not a feeling--I mean, first of all, we hope no other family 
has to suffer that and go through it.
    But to whatever degree that is a possibility or an 
eventuality, we have got to make sure that people feel better 
about the process. And I can assure you the President on down, 
everybody feels that sensitivity.
    Senator Shaheen. Well, thank you. I appreciate that. And 
for the hostages who are still being held, I hope there will be 
an effort to look at how those families are being supported.
    Mr. Chairman, I know that my time is up. But I just wanted 
to make one more comment because I know, Mr. Secretary, that 
you have repeated the President's argument that this military 
campaign does not require a separate authorization for the use 
of military force. But I certainly believe that if we are going 
to commit to a long-term effort to address ISIS that having 
specific congressional action that is bipartisan to support 
that effort is very important.
    And I believe we should undertake that, and I know the 
chairman has said that he intends to do that, regardless of 
whether the White House and the administration comes to 
Congress or not. So I certainly support that, and I hope that 
the administration will work with us as we do that.
    Secretary Kerry. Yes. Well, we are coming to Congress. We 
are here, and we welcome it, and we look forward to working 
with you on it.
    The Chairman. Thank you. And Senator Shaheen has expressed 
to me on more than one occasion already her desire to work with 
the chair and others on behalf of such an AUMF, and we look 
forward to working you and other colleagues as well.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman. Mr. Secretary, 
obviously these are pretty complex issues. I do not envy you 
and the President your task at all. You are in my prayers. The 
President is in my prayers. Actually, I ask all Americans to 
include you in their prayers because if you succeed--we all 
want you to succeed--that means America and Americans remain 
safe.
    I have been listening to you and the President very 
carefully. I am sure the world has been as well, and words have 
real meaning. So I appreciate the fact that you have testified 
today here that ISIL must be defeated period, end of story.
    You know, the President in his speech to the Nation said 
that the goal here is to degrade and ultimately destroy ISIS, 
but here is my concern. Here is my problem. In the final--in 
the final two paragraphs of his speech to the Nation, President 
Obama said, ``Our own safety, our own security depends on our 
willingness to do what it takes to defend this Nation.'' But, 
Mr. Secretary, by taking options off the table, is President 
Obama not really saying to do what it takes up to a point?
    And as Secretary of State, as you are dealing with 
potential coalition partners who are also listening, if we 
state a goal and the world does not believe we are 100 percent 
committed to it, is that going to be very difficult for you to 
get the kind of commitment out of our potential partners to do 
what they need to do to actually achieve that ultimate goal?
    Secretary Kerry. That is a very fair and a really good 
question. And by the way, thank you for your comments and your 
prayers. The answer is that the President and the military 
folks currently believe we have the capacity, we have the plan, 
and we have the coalition to be able to do the job. Now, you 
know, there are a lot of countries in the region who have 
capacity going forward who, in our judgment, if somebody is 
necessary to be on the ground, ought to be lining up first. So 
there are a lot of options here before we start getting to the 
talk that the President has taken off the table.
    Senator Johnson. So, okay. We have covered--we have covered 
that ground. Let me ask you. In our discussions with, for 
example, Saudi Arabia, do the potential Arab States, do they 
understand how fragile American public opinion will be toward 
this effort, toward this destruction, if they do not fully 
commit?
    And when I think of fully commit, I am thinking back to the 
first gulf war when America only had to pay for about 15 
percent of that, and almost 50 percent of that war effort was 
paid for by Gulf States. The other portion was paid for Germany 
and Japan. I mean, do they understand why it is so important 
for them to step up to the plate and visibly support this 
effort?
    Secretary Kerry. Yes, and, in fact, King Abdullah said to 
me, personally, ``We will do whatever is needed to be done. We 
are committed fully to this effort,'' and they have been. Now, 
there are bigger complications than just sitting here and 
talking about having the Kingdom of Saudi Arabia put its troops 
on the ground in Syria next door to Iran with all of the 
extraordinary complications of the region regarding Shia, 
Sunni, and other geostrategic challenges.
    So we need to be working at this very carefully with all of 
the nations that are part of the coalition, recognizing we have 
to win. And we are just getting started at that. So I can tell 
you we are not going into this in order to fail, and nor are 
any of these other people who are signing up, so.
    Senator Johnson. Well, let me offer, I will be in--up in 
New York next week representing the United States at the U.N. 
with Senator Cardin. I would like to offer, you know, whatever 
I can do to help convince those Arab States that they do need 
to be fully committed to this battle.
    Let me ask you another question. An analogy I have been 
using, and here is another concern of mine. If this is going to 
literally take years, the analogy I have been using is if you 
identify a hornet's nest in your backyard, you realize you have 
got to take care of that. But if what we are really doing is 
just going in the backyard and poking that hornet's nest with a 
stick, is that not a concern right now if we are not fully 
committed to wipe out ISIS quickly?
    You mentioned Brett McGurk, who provided powerful testimony 
to this committee back at the end of July about the threat that 
ISIS really does represent, being able to funnel 30 to 50 
suicide bombers into Iraq per month. Now, we have seen those 
suicide bombers come from Australia and Germany and America 
with passports. And Mr. McGurk's comment was they could easily 
funnel those suicide bombers into the West, into America.
    So that is my concern about allowing this--not being fully 
committed, not getting in there, not cleaning up that hornet's 
nest as quickly as possible. Do we not just increase the time 
where we are really under threat and danger?
    Secretary Kerry. Well, we hope not, Senator. Obviously that 
is not our strategy. I mean, look, ISIL--why do we have to 
focus first on ISIL and focus on it in the way that we are? 
Because they are seizing and holding thousands of square miles 
of territory; because they are claiming to be a state--they are 
not a state in so many ways, and we can go through that. They 
are confronting and defeating thus far a conventional army with 
conventional tactics. They have--they are avowed genocidists--
avowed genocidists--who have already practiced genocidal 
activities at a certain level--Yazidis, Shia, people that they 
have decided to go after along the way--Christians. And they 
have a very large amount of money, unlike lots of other 
terrorist organizations because they cleaned out the banks, and 
they have sold oil, and done other things in the process.
    And so, even al-Qaeda, bold as they were in what they 
decided to do, did not exhibit these characteristics and did 
not have those capacities. And that is why we believe--and we 
think most of the region has come to understand this, including 
the moderate opposition, who are already fighting ISIL.
    So we believe we have the makings of an ability to be able 
to have a very, very significant impact. And already, by the 
way, France and the United Kingdom are flying with us over 
Iraq, and several other countries are now starting to be 
willing to join that. So we think we have the building of an 
ability to be able to turn that around.
    I guarantee you the President's goal is to defeat them. And 
as you and we see this unfold and make judgments about how well 
we are doing, we can have further discussions about what else 
it may or may not take to get the job done. But at the moment, 
these are the judgments that are being made.
    Senator Johnson. Well, thank you. You have made a strong 
case for defeating ISIS and being fully committed to doing it. 
The sooner the better. Thank you.
    The Chairman. Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary. Mr. Secretary, as I look at this challenge from 
ISIL, I think there are two distinctly different parts to it 
relating to Iraq and Syria. I do not believe there is any 
future for Iraq unless Iraq is committed to that future.
    The new leadership there has given us some hope, but 
ultimately we have to trust that we can either train or provide 
the skills and support to the Iraq Army that, in fact, they 
will not be so overrun with corruption that they cannot be an 
effective fighting force. That is--it is a big task, but I 
think it is--at least we are hopeful it is within our grasp.
    I look at Syria and see a totally different circumstance 
there. Syria is a dog's breakfast of violence, and terrorism, 
and deceit, and carnage that has gone on for three years. Here 
we are talking about arming or equipping and training a 
moderate force within Syria. I have read the language that is 
being considered in the House, unless it has been changed in 
the last day or so. Never mentions the word ``Assad'' once when 
it talks about what we are trying to achieve in Syria.
    It comes down to this basic question. It looks to me that 
there are at least three identifiable forces in Syria: Assad, 
ISIL, and what we hope are moderate opposition forces we can 
work with. But I am also told and have been told there are up 
1,500 different militia in that country. Some are neighborhood 
militia.
    How can we chart a course here that defeats ISIL in Syria 
and does not in the end strengthen Assad's hand? How can we 
find the so-called moderate opposition in Syria and believe 
that something will merge there that results in Syrians 
deciding that their own fate and future is their 
responsibility?
    Secretary Kerry. A very good question. The calculation is 
that even with the difficulties that they have faced over the 
last year and a half particularly--I remember when I first came 
in, February of last year, the opposition in Syria was actually 
in a slightly better position with respect to Assad and the 
other groups. And there were not as many of the other groups at 
that moment in time.
    And then regrettably, they started to squabble politically 
as well as to which military group would do what, and they lost 
some momentum with that, number one. Number two, they did not 
get enough supplies at that point in time. Number three, the 
country began to be flooded with these external fighters from 
the outside, and some countries in the region who wanted to get 
rid of Assad started funding people who seemed to be tougher 
fighters who morphed into either al-Nusra, Ahrar ash-Sham, or 
ISIL, and then they began to fight. And so the concentration on 
Assad just dissipated, and during that time some of the support 
that was coming from countries in the region was frankly also 
very badly directed and managed.
    All of that has changed now. We have upped our support and 
our engagement, our training, things that we are doing. Other 
countries have upped it. They have worked out many of the 
leadership issues that existed. There seems to be--even despite 
these difficulties, they have been able to fight ISIL, and move 
ISIL out of certain areas, and keep fighting Assad. You have 
seen this continuing.
    Our belief, therefore, is that as the principal antagonist 
to their presence--more so than Assad in some ways--starts to 
take hits and they gain greater strength, greater training, 
greater equipment, greater capacity, the success will bring to 
them, we think, a larger structure as well as a greater know-
how and ability. And if ISIL is defeated, they are going to be 
taking that experience in the same direction that they 
originally set out to, which is to deal with Assad.
    Senator Durbin. I would like to ask one last question. We 
know, and you have said it in this testimony, that Russia is 
supplying Assad. We have known in the past when there have been 
sources of money, equipment, and other support for our enemies.
    As we look at ISIL today, you told us in testimony that 
Russia--you mentioned Russia--and China, and we know by its 
nature Iran is a Shia nation--oppose ISIL. Who are the 
countries--which countries are aiding and abetting the ISIL 
cause either by providing resources, equipment, and arms to 
them, or allowing their trade to create resources and wealth so 
that they can continue the fight?
    Secretary Kerry. We do not believe at this point that it is 
state supported. What we believe is that because of their 
success in particularly getting the bank in Mosul and other 
success along the way, as well as in selling oil----
    Senator Durbin. Let me stop you there. Who are they selling 
it to? Which countries are transiting----
    Secretary Kerry. I was just about to get to you. We have 
raised with a number of countries in the region the question of 
how they could possibly be getting oil out of the country. It 
is being smuggled out. And that is part of the approach here is 
to deal----
    Senator Durbin. Through which countries do you believe it 
is being smuggled out?
    Secretary Kerry. Well, it is being smuggled out from the 
border countries of Syria obviously, which means either through 
Turkey or through Lebanon or south. That is how----
    Senator Durbin. Now, are they joining us in the effort to 
stop the smuggling?
    Secretary Kerry. They are, but obviously Turkey has 
difficulties right now, has 49 hostages that are being held, 
and they have talked about that publicly. And Turkey is--you 
know, we have had some conversations with them, and those 
conversations will continue.
    Senator Durbin. The sooner we can cut them off from their 
sources of funds and----
    Secretary Kerry. That is exactly what the objective--now, a 
lot of the money----
    Senator Durbin [continuing]. Arms.
    Secretary Kerry. There is other money that comes through 
social media, Internet appeals, through individual fundraising. 
We have been able to trace a one-time lump sum, $140,000, that 
came through one country from an individual in the region. And 
that is why we are going to have this immediate focus on the 
movement of money, and begin to really get tough in shutting 
down that flow of funds.
    The Chairman. Senator Flake.
    Senator Flake. Thank you. Thank you, Mr. Secretary, for 
laying out the strategy. I think you know where this committee 
is and where I am in terms of wanting to give the President and 
the administration the authority and the wherewithal to move 
ahead and succeed in this mission and all our foreign policy 
missions.
    But I am a little confused at the position that is being 
taken by the administration now that AUMF is not required, 
would be desired, but not required now. I look back at one of 
the last hearings that you appeared in. It was with regard to 
Syria and chemical weapons. The President, as you know, had 
drawn a redline and said that he would act if they went beyond 
it. They went beyond it, and then the President came to 
Congress and said what do you want me to do.
    I questioned whether or not that was a wise move. And you 
said to me--these are your words--``It is somewhat surprising 
to me that a member of Congress, particularly one on the 
Foreign Relations Committee, is going to question the President 
for fulfilling the vision of the Founding Fathers when they 
wrote the Constitution, divided power in foreign policy, to 
have the President come over here and honor the original intent 
of the Founding Fathers in ways that do not do anything to 
distract from the mission itself.''
    Now, I would argue, and I think others would as well, that 
that did distract from the mission itself. In fact, it 
torpedoed it, coming to Congress when we said we were going to 
strike and what was described as a 10-day or 2-week mission to 
degrade the ability to use chemical weapons. But then in this 
case, in what you, yourself, today describe as what will be a 
multiyear effort, say that you do not need--you desire, but do 
not need congressional buy-in.
    It is best when we speak with one voice. Our allies know 
that. And in order to build the kind of coalition that is going 
to be required to, one, defeat ISIL, and, two, sustain that 
defeat over time, our coalition partners and our adversaries 
have to believe our threats and our promises. And I would 
submit that it helps for us to be together. So I question the 
unwillingness to come and ask for a renewed AUMF. Can you 
enlighten me as to why the change of heart from the last 
hearing?
    Secretary Kerry. There is no change of heart, Senator, 
honestly. There is a big difference between the authorities 
that are available. We did not have authority in any form 
sufficient without Congress passing it, except for Article 2--
excuse me. We had Article 2 authority for the President of the 
United States, which is always there, and nobody has ever 
gotten to the question of whether or not he would have 
exercised it had Congress not passed it.
    But the fact is the President did make a decision to 
strike. He made a decision and publicly announced it. He said, 
I have made a decision to strike. Then, as you know, there were 
a lot of requests in our briefings with Congress to come to 
Congress. And since we did not have authority beyond Article 2, 
and that is the distinction between then and now.
    Then the 2001 AUMF did not cover chemical weapons with 
Assad. It covered terrorism and al-Qaeda. And so, if it were 
not ISIL that was this direct component of al-Qaeda, and we 
were talking about, for instance, one of the other entities 
there, we might not have the same capacity here. But we are 
looking at an entity that was al-Qaeda from 2004 or 2005 all 
the way through until 2013, and then tried to disassociate 
itself by name, but continued to do the very same things it was 
doing with al-Qaeda the entire time. That is not true of what 
happened with Assad.
    Now, it also happened, and I remember this distinctly, 
obviously, that during the walk-up to the process of the 
request for the AUMF, President Putin and President Obama had a 
conversation in St. Petersburg regarding the removal of 
weapons. Prime Minister Netanyahu had called me, and we had 
talked about the possibility of removal of weapons.
    Senator Flake. I have just got a few seconds here, but I 
appreciate that history. But I hope we have a better 
explanation than that when we go to our allies and say that we 
are going to be in it for the long haul, and that we are united 
in this mission.
    Secretary Kerry. And that is why we want Congress to pass 
AUMF. And I think five times in the course of this hearing I 
have said we welcome the effort work with you to refine the 
AUMF going forward, and, yes, we will be stronger and better 
with the passage of an AUMF and with Congress involved in it. 
But we are not going to put ourselves in the position of not 
being able to do what we believe we need to do with legitimacy 
at this moment in time. But we welcome it.
    Senator Flake. With respect, I would argue that is what we 
did to ourselves before. We put ourselves in a position where 
we drew a redline, and then were not willing to do what it 
takes to go and enforce that redline.
    Secretary Kerry. Well, but----
    Senator Flake. And that is going to affect our ability to 
move forward and build the kind of coalitions that we need to 
do this mission. And that is why I am saying I think there is 
an inconsistency here. I hope that the administration will 
change its mind and ask firmly for an AUMF, and I hope Congress 
gives it. With that, I yield back.
    The Chairman. Senator Udall.
    Senator Udall. Thank you very much, Mr. Chairman. Secretary 
Kerry, thank you for your tireless, committed, caring approach 
to these international issues, all of the ones which are so 
pressing today. And I think you are probably one of the most 
traveled Secretaries we have ever had. And I think all of us 
wish you the very best in your endeavors.
    Chairman Menendez, I would like to thank you for this 
hearing. I think it is very important that we carefully weigh 
the President's request. We must address the very real threat 
presented by ISIS. A little over a year ago, we were in this 
same room talking about air strikes on the Assad regime and 
arming rebels to fight it, and due to Assad's use of chemical 
weapons. Today Assad's weapons are gone, and thank you, 
Secretary Kerry, I think, for your diplomatic efforts there.
    And we are debating now, air strikes on ISIS and arming 
rebels to fight that. That is really, in a way, quite a 
turnaround. The American people deserve a full debate and 
explanation about this new plan that you have presented. And we 
have heard today a number of Senators--ISIS--talk about this. 
ISIS is a brutal terrorist organization. It must be stopped. 
And that is a subject I think we can all agree on. And I would 
associate myself with all of the comments--the previous 
comments about their brutality and their murderous ways. I do 
think there is any doubt about that.
    We have a clear responsibility to continue to work with 
local groups, with our allies in the region, and for as long as 
it takes. We must use strategic force, I believe, to stop ISIS 
and end its murderous path, but let me be clear here. I do not 
want us to lose sight of the forest from the trees. There are 
calls for more and more direct U.S. military intervention in 
the Middle East, putting us back on a very risky course.
    ISIS has thrived on the chaos, on the instability, the 
unintended consequences of America's failed policy in Iraq for 
the past 13 years, and this is the crucial point. Military 
power is one tool, one among many tools, that will be needed to 
bring stability to the region. ISIS emerged from disorder, from 
dysfunction, and alienation, and the divide between Sunni and 
Shia followers of Islam. Those conditions will remain without a 
comprehensive strategy of diplomacy, development, and 
commitment to long-term stability.
    We must destroy ISIS, but we cannot put ourselves in the 
situation of creating a void, one that could then be filled by 
other extremists or by an Iranian-controlled regime. We should 
support the Iraqi Government, as well as the Kurdish and other 
moderate forces. However, I remain skeptical about the so-
called moderate forces. And, Secretary Kerry, you have heard 
several times here this issue about moderate forces and are 
there moderate forces.
    And I think one of the key issues for us is the 
effectiveness of the moderate forces that are there on the 
ground now. And my question to you has to do with--and this all 
public information, and everybody is well aware there has been 
a covert operation operating in the region to train forces, 
moderate forces, to go into Syria and to be out there. We have 
been doing this the last 2 years.
    And probably the most true measure of the effectiveness of 
moderate forces would be what has been the effectiveness over 
that last 2 years of this covert operation of training two to 
3,000 of these moderates. Are they a growing force? Have they 
gained ground? How effective are they? What can you tell us 
about this effort that has gone on, and has it been a part of 
the success that you see that you are presenting this new plan 
on?
    Secretary Kerry. Senator, I hate to do this, but I know it 
has been written about in the public domain that there is ``a 
covert operation,'' but I cannot confirm or deny whatever that 
has been written about it, and I cannot really go into any kind 
of possible program.
    Senator Udall. Okay. Well, I want to say to Chairman 
Menendez, I mean, to me, the key here on effectiveness is what 
has happened these past 2 years. And so, I think we should have 
a briefing by our committee specifically on what has gone on in 
that area from our intelligence people.
    And just one final thing. ISIS is already in possession of 
U.S. weapons paid for by U.S. taxpayers that extremists seized 
from United States-trained Iraqi Forces and Syrian rebels. How 
will you guarantee or assure that the weapons and resources you 
are requesting now will now end up in the hands of radical 
Sunni insurgents?
    Secretary Kerry. Well, we have been following that very, 
very closely, and our folks who have been involved in this at 
all levels. And, again, this probably ought to be in the 
classified session for various reasons. But what we have been 
doing is providing various kinds of support to them, nonlethal, 
as I think you know. And we are vetting people very, very 
carefully.
    And our folks who do that, because this is something we 
have really watched very carefully. The President has been very 
concerned about this question of downstream and impact. There 
are a couple of instances of an overrun of a warehouse up in 
the north and Aleppo and one instance a couple of things. But 
by and large, we have found the vetting to be pretty effective. 
Our guys have been doing it for about 20 years now, you know, 
for better or worse, and they have gotten pretty good at it.
    Senator Udall. Thank you. And I would also agree with, and 
I appreciate your offer to work with us on an authorization of 
force. I think we have to have one with what you are 
describing, and I hope that we can get to that as soon as 
possible. I yield back.
    The Chairman. Senator Udall, let me take your request and 
say, first of all, we will have as robust intelligence 
briefings as we can. However, to the core question that you 
raise, this is a problem that both the administration as well 
as the Senate leadership must be willing to deal with because 
when it comes to questions of being briefed on covert 
operations, this committee does not have access to that 
information. Yet it is charged with the responsibility of 
determining whether or not the people of the United States 
should, through their representatives, support an authorization 
for the use of military force.
    It is unfathomable to me to understand how this committee 
is going to get to those conclusions without understanding all 
of the elements of military engagement both overtly and 
covertly. And so, I am four square with you, but this is a 
challenge--I will call it for lack of a better term--a 
procedural hurdle that we are going to have to overcome if we 
want the information to make an informed judgment and to get 
members on board.
    Before I turn to Senator McCain, let me just recognize some 
distinguished members of the Kurdish delegation and the Iraqi 
Ambassador, Lukman Faily. I appreciate your being here. And in 
the Kurdish delegation, the chief of staff to President 
Barzani, Fuad Hussein, as well as the Minister of Foreign 
Affairs for the Kurdistan regional government, Falah Bakir. So 
thank you both for being here.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. I also want to 
recognize our Kurdish friends who have been such steadfast and 
good allies for so long.
    Mr. Secretary, today, September 17, Secretary Gates said 
the following--former Secretary of Defense Gates. ``The reality 
is they are not going to be able to be successful against ISIS 
strictly from the air or strictly depending on the Iraqi Forces 
or the Peshmerga or the Sunni tribes acting on their own.'' 
Gates said, ``So there will be boots on the ground if there is 
to be any hope of success in the strategy. And I think that by 
containing--by continuing to repeat that that the U.S. will not 
put boots on the ground, the President, in effect, traps 
himself.''
    Now, Mr. Secretary, I have talked to so many people who are 
military experienced, who have been on both sides on this 
issue. They all agree with Secretary Gates' assessment, and 
that is just the reality. And there are some of us that place a 
great deal of confidence in the opinion of people like 
Secretary Gates, General Keane, the architects of the surge, so 
many others. Now, is it your view that the Syrian opposition is 
viable? Hello?
    Secretary Kerry. Hello, Senator. I am taking you so 
seriously I am writing notes.
    Senator McCain. Is it your view the Syrian opposition is 
viable?
    Secretary Kerry. The Syrian opposition has been viable 
enough to be able to survive under difficult circumstances----
    Senator McCain. Are you----
    Secretary Kerry [continuing]. But not yet--but they still 
have some distance to go, and we need to help them go that 
distance.
    Senator McCain. Right. And they obviously need our 
assistance in weapons and training, which you are going to 
embark on. Are you surprised sometimes at the degree of 
disinformation that Members of Congress will swallow whole, 
like there has been a cease-fire agreement between the Free 
Syrian Army and ISIS put out by ISIS? Does that surprise you 
sometimes?
    Secretary Kerry. Senator, sometimes.
    Senator McCain. No, it does not surprise you. It does not 
surprise you. I got it.
    Secretary Kerry. No, no, no.
    Senator McCain. The hero of this piece so far in my view is 
a guy who is going to testify here after you, Robert Ford--
Ambassador Ford. He did a magnificent job at the risk of his 
own life riding around Damascus in support of the Free Syrian 
Army. Now, here is what he is going to say in his testimony. 
``The moderate armed opposition's biggest enemy is not the 
Islamic State. It is the Assad regime, which has killed far 
more Syrians than has the detestable Islamic State. And they 
will not stop fighting the Assad regime even as they advance 
against the Islamic State.''
    But you are saying ISIL first. So we are going to train and 
equip the Free Syrian Army, and they are going to be fighting 
against Assad, who they view as their number one enemy. I agree 
with Ambassador Ford's assessment, but you are saying ISIL 
first.
    So if this--so we are telling a young Syrian today, I want 
you to join the Free Syrian Army. You go to fight ISIL first. 
And, by the way, those barrel bombs that are being dropped on 
you and these attacks from the air that have massacred so many 
Syrians, we are not going to do anything about that. I think at 
least we owe the Free Syrian Army to negate the air attacks 
that they will be subjected to when they finish their training 
and equipping, and go into the fight.
    So why is it that we will not at least neutralize Bashir 
Assad's air activity, which has slaughtered thousands and 
thousands and thousands--192,000 dead, 3 million refugees? And 
we are not going to do anything about Assad's air capabilities?
    And finally, ISIL first, that is what you are telling these 
young men who really view Assad as the one who has slaughtered 
their family members, not ISIL, as bad as ISIL is. So how do 
you square that circle, Mr. Secretary?
    Secretary Kerry. Well, you square it this way, Senator. 
And, first of all, let me just say a word. I think everybody 
knows I had the pleasure of working with Robert Ford in the 
Department from the day I arrived there.
    Senator McCain. We share admiration for him, yes.
    Secretary Kerry. And we worked very closely together. I 
have huge respect and admiration for him. And he and I worked 
many long hours with the Syrian opposition, and I respect his 
opinion, et cetera. He is correct that they will not stop 
fighting the Assad regime. I understand that. We understand.
    Senator McCain. They not only will not stop fighting, it is 
their primary goal.
    Secretary Kerry. Well, it is except that----
    Senator McCain. I know too many of them, John. Go ahead.
    Secretary Kerry. I understand. It is. I am not denying 
that. But they also are fighting ISIL. They are up in Aleppo 
right now fighting ISIL. They are fighting ISIL in other 
places. They threw them out of Idlib province. They are engaged 
in fighting ISIL. And our belief is, I think--I bet you--I hope 
Robert Ford believes that they will actually get stronger as a 
result of ISIL being removed from the field.
    Senator McCain. Are you not going to protect them from air 
strikes?
    Secretary Kerry. I think what we need--yes. And I think 
what we need--that is a legitimate concern, and it is a concern 
that I would need to address with you in a classified session 
for reasons I think you well understand, and I think Robert 
Ford well understands that.
    Senator McCain. I think the Free Syrian Army would like to 
understand, too.
    Secretary Kerry. And if we have a good classified session 
and other good things happen, who knows. The important thing is 
for us to recognize that if ISIL continues doing what it is 
doing, and I think you know this, without being stopped, and if 
we had not stood up when we did stand up and work with the 
Peshmerga and help them to push back and retake Mosul Dam and 
so forth--they were threatening Baghdad, and they were 
threatening more. And if they did that sufficiently----
    Senator McCain. John, we are talking about Syria and----
    Secretary Kerry. No, I know, but I am about to come back.
    Senator McCain [continuing]. The Free Syrian Army.
    Secretary Kerry. I am about to come because that----
    Senator McCain. Thank you. Thank you. I am running out of 
time.
    Secretary Kerry. That pertains to their capacity then to 
focus on Assad, and it might be not the Free Syrian Army, but 
ISIL that you see in Damascus, and ISIL bringing al-Nusra and 
other people to them because of the level of their success. 
Clearly many people have told us in the region success breeds 
success, and many of the people who have come to ISIL have come 
because it seems as if they were not being opposed. Well, we 
believe that transition works to the benefit of the moderate 
opposition, works ultimately to all of our benefit by removing 
ISIL from the field.
    Senator McCain. You cannot ask people to go and fight and 
die unless you promise them that we will defeat their enemy and 
defeat them right away. You cannot say wait until we defeat 
ISIL. People will not volunteer for such things.
    Secretary Kerry. I do not believe that is going to be 
ultimately a wait and see because I do not believe, number one, 
that the people supporting the opposition in various parts of 
the region are ever going to stop until the Assad problem is 
resolved. And number two, I do not believe ISIL is going to--I 
do not believe that the moderate opposition will obviously stop 
in that effort. So, therefore, there will be these two prongs. 
There is no way to avoid that.
    Senator McCain. I hope there are two prongs and not ISIL 
first, that that message is not given to these brave young 
people who we are asking to sacrifice----
    Secretary Kerry. Well, if we do not stop ISIL first, there 
may not be much left of the other prong.
    Senator McCain. John----
    The Chairman. Senator Murphy.
    Senator McCain. That means we cannot take on two 
adversaries at once.
    Secretary Kerry. It is not us.
    Senator McCain. That is bogus and false.
    The Chairman. I know you two colleagues would like to go at 
it for the rest of the session, but----
    Secretary Kerry. No, no, no. [Laughter.]
    The Chairman. We have other--I am sorry.
    Secretary Kerry. We have a great tradition. I believe in 
John's adage that a fight not joined is a fight not enjoyed. So 
we always have a great time.
    The Chairman. Senator Coons. I am sorry.
    Senator Coons. Thank you, Chairman Menendez, and thank you, 
Secretary Kerry, for appearing, and for outlining, and for 
discussing with us in detail the strategy to degrade and 
destroy ISIL. And, I, too, want to thank Ambassador Ford for 
his commendable service and his ongoing commitment to the 
people of Syria.
    I share your grave concern about ISIL, the threat it poses 
to our regional allies and to the United States, and the 
actions that they took in the massacring of Christians, 
Yazidis, Turkoman. And I am proud that we have stood up to 
them, and I am eager to hear and learn more about the strategy 
and exactly how it will play out.
    First, Mr. Secretary, if I might, in your visit to Baghdad 
last week, the Prime Minister announced a proposal to establish 
a national guard style force of Sunnis that would reclaim and 
protect predominantly Sunni areas. And I think reconciliation 
between Shia and Sunni in the formal government and in the 
underground conditions in Iraq is absolutely essential to our 
having a prospect of success.
    Can you explain how long it will take to establish this 
national guard style Sunni force on the ground in Iraq, how 
this model will work, and if there would be any role for our 
National Guard in training or equipping or supporting this 
Iraqi national guard?
    Secretary Kerry. Senator Coons, that is a really good 
question, and I do not have all those answers at this point in 
time. I mean, there are military decisions with respect to who 
is going to be involved in training them and whether there is 
room for some National Guard input, et cetera. I am confident 
that the military folks would not dream of advising and 
assisting with respect to the National Guard structure without 
using their experience within our military as to how it has 
worked here and how it has been effective.
    Senator Coons. Then let me ask a related question.
    Secretary Kerry. That said--but that said, let me just say 
very quickly. The theory of it is to try to localize capacity 
in a way, as I think you know, that deals with this sectarian 
divide. One of the reason that the ``Iraq army,'' as it has 
been called, folded in Mosul and before the wave of ISIL was 
frankly that the--some of the officers abandoned the men who 
were left behind. And there was a real sense of sectarian 
divide there.
    Senator Coons. Right.
    Secretary Kerry. They left because they were perceived by 
many people, and this was part of the problem with Iraq at that 
time, that there was a Sunni--there was a Sunni-Shia divide, 
sectarian divide within the construct of the military itself. 
And people to some degree felt even that it went so far as to 
be the prime minister's personal military entity, and there was 
not a stake in it.
    So it was the absence of that commitment that motivated 
people to take off, and that has to be done away with, and 
there has be a unity. So whatever this national guard is, it is 
going to have to still be unified and connected to the state to 
ensure a sense of national enterprise, but made up of people 
who are--have a greater stake in their local community in their 
region, which was absent previously.
    Senator Coons. I strongly agree and support your hard work 
on the diplomacy side of trying to address the challenges in 
Iraq, because if we have a Shia-only government and military, 
it is not sustainable, and that is in some ways what created 
the vacuum.
    Let me move on to two regional questions, if I could. Has 
the campaign against ISIL affected our ongoing negotiations to 
end Iran's illicit nuclear program? And how has a potentially 
expanded military campaign against ISIL made it more difficult 
to find a final deal between Iran and the P5+1, the deadline 
coming in November, or have the mutual interests of Iraq and 
some of the P5+1 members provided a common point of interest 
for ongoing dialogue? How has it affected our----
    Secretary Kerry. Well, we hope it is going to be the 
latter. We hope obviously very much it will be the latter part 
of your question that it has not affected it, that it can 
continue. Our P5+1 folks left for New York this afternoon. We 
will be engaging in that activity over the course of the next 
days, and we will get a better sense of it.
    My belief is that the nuclear issue is so huge in its 
consequences, not just to Iran, but to the region, to the 
world, to all of us, the interest in getting rid of the 
sanctions, which is the end goal here with respect to Iran and 
our end goal of being able to reach an agreement is significant 
enough. And to the credit of people in the P5+1, thus far there 
has been a compartmentalization. Russia and China are both very 
constructively continuing to be active and involved in the 
negotiations and constructive with them. And our hope is that 
that will prevail going forward, but the answer is not yet 
defined fully.
    Senator Coons. Let me make sure you are not misunderstood 
because I do not think you meant exactly what you just said. 
The end goal is not to end the sanctions. The end goal is not 
to reach----
    Secretary Kerry. The end goal is to end the nuclear 
possibility, but what I said is their end--I think I said their 
end goal.
    Senator Coons. I thought that might be a helpful 
clarification.
    Secretary Kerry. No, no, no. I said there--I thought I said 
their desire is to obviously get the sanctions. You cannot do 
that--you cannot lift the sanctions without absolutely 
guaranteeing that the four pathways to a nuclear weapon have 
been closed off. And that is what we are working at.
    Senator Coons. Last question. I am very concerned about the 
stability, security, safety of the Hashemite Kingdom of Jordan, 
our vital ally in the region, which has borne so much of the 
challenge and the burden of the refugees from Syria. And I am 
concerned that ISIL has had efforts to infiltrate Jordan, and 
there have been some isolated outbreaks of violence in Jordan 
related to ISIL. What are we doing and what more can we do to 
strengthen King Abdullah and to partner with him and work with 
him as we expand the mission we are talking about here as it 
has some impact, not just in Syria and Iraq, but also in 
Jordan?
    Secretary Kerry. Well, we are working very, very closely 
with our friends in Jordan. And I was in Jordan, and I met with 
King Abdullah a few days ago--last week, I think Wednesday 
night after I had been to Iraq. We spent the evening talking 
about the various things we need to do together. They are 
determined to be helpful to us, and we are determined to be 
helpful to them, and we will be.
    We are committing additional funds. We are committing 
additional equipment and capacity. And, you know, everybody 
shares concerns with all the neighbors in the region. I mean, 
ISIL--that is one of the reasons why this is so critical. And I 
can assure that you that an already extremely robust mil-to-
mil, intel-to-intel and, you know, supply assistance program 
and economic program will be even more robust going forward. 
And you all have the budget, and you know what we are trying to 
do.
    Senator Coons. Thank you, Mr. Secretary.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman. Mr. Secretary, 
thank you very much for coming. Yesterday's New York Times 
headline, ``Kerry Says U.S. is Open to Talking to Iran.'' And 
you just--and I agree with your comments about the nuclear 
issue is so huge. You do talk about compartmentalization and 
also that Iran's goal is to eliminate the sanctions.
    We have already seen the administration roll back 
sanctions--January, $7 billion in sanction relief. The 
administration recently introduced and announced another $2.8 
billion in Iran sanction release. There are serious concerns 
that the administration could further relieve and remove 
sanctions in terms of trying to get concessions relating to 
Iran and the fight in Syria or Iraq. Clearly Iran and the 
United States do not have the same goals that we have in Syria, 
so I am curious, what are you hoping to achieve by reaching out 
to Iran regarding ISIL?
    Secretary Kerry. Well, Senator, let me clarify something 
because it is very important to understand it. Every aspect of 
the interim agreement that we arrived at with Iran, which 
required Iran to do certain things, they have done, every 
aspect. And the5 thing that is outstanding still is the IAEA 
compliance where a recent meeting was not as forthcoming as 
people would have liked. But with respect to the agreement they 
entered into with the United States, they have done all the 
things they said they would do.
    We have people daily inspecting in Fordow. Before that 
agreement, we had none. We have people daily inspecting Natanz. 
Before the agreement, we had none. We have people in Iraq on a 
periodic basis with the plans being delivered to us with the 
commissioning completely halted, and before that that was not 
true. I mean, I can run down a list.
    We have had access to centrifuges, centrifuge production, 
centrifuge storage. We have mining and milling and, you know, a 
clarity here as to their activities that simply did not exist. 
That is what we have gotten out of this. Their program has been 
halted where it was when we began. And they have reduced their 
stockpile of 20 percent going down to zero. That is an 
extraordinary thing. For all the people who frankly said to us 
it is never going to work, the sanctions will come apart, that 
is not what has happened. The sanctions regime has not only 
held, there have been additional sanctions.
    Now, yes, was there an agreement to release a portion of an 
initial round of some of the money that had been escrowed and 
held? Yes, $4.6 billion. Was there an agreement for the 
extension of a plan that continued this cooperation of $2.8? 
Yes. That is a total of about, what, $7 billion over, what, 9 
months or something. The fact is that during that same amount 
of time, tens of billions of dollars have been withheld. There 
is more than a hundred--I forget the exact figures--more than a 
hundred and some billion that Iran believes it has a right to 
and wants that is being held in a freeze account until this 
gets resolved.
    So I would have to say to you, Senator, this has been an 
enormous success thus far. Our hope is that in exchange for 
whatever schedule might be worked out, all of which will have 
to be subject to public scrutiny and a final agreement, any 
pathway to a bomb will be eliminated with a sufficient breakout 
time that we have the ability to come to you and say the world 
is safer, our allies in the region are safer, and this is a 
deal that people believe can be upheld. That is the goal.
    We are not there yet. I do not know if we can get there. I 
hope we can get there because the alternatives are, you know, 
more complicated.
    Senator Barrasso. I do not want to get to a point where the 
sanctions have been removed and they are still on a path to 
producing a bomb.
    Secretary Kerry. That will not happen.
    Senator Barrasso. Switching a little bit to follow up with 
Senator McCain, do we have any intelligence on how the Assad 
regime is going to react should the coalition launch airstrikes 
on ISIS targets in Syria in terms of commitments that Assad 
will not intervene specifically? We know ISIS does not have the 
capability to shoot down our jet bombers, but Syria does. And 
are there precautions in place to prevent that?
    Secretary Kerry. The answer is, Senator, we are going to 
take precautions, but what I need to do is take it up with you 
in a classified session.
    Senator Barrasso. A couple of final questions on hostages. 
Do you know how many American hostages we believe are being 
held by ISIS or militant groups right now?
    Secretary Kerry. Somewhere about three or four. I do not 
want to get--I think we have got to be careful on the numbers.
    Senator Barrasso. The concern is that, you know, after the 
barbaric murder of James Foley, the operational details of 
rescue attempts were leaked to the press, including the special 
operations unit. And I just wanted to make sure that the 
administration is committed to working to stop leaking 
classified information that undermines our military operations.
    Secretary Kerry. I honestly do not know where it came from. 
I cannot tell you that. We have a problem in this city with 
leaks in every department of government. And we try, believe 
me, to stop that.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. The 
world today is more complicated, more dangerous than at any 
time during our lifetimes. And I wake up every day thankful 
that we have leaders like you and President Obama, thoughtful, 
strategic, guiding our way through it. So thank you for all the 
work that you are doing and for enduring this process for as 
long as you have.
    It strikes me that we are dealing with a fundamentally new 
problem in a frustratingly familiar context. The new problem is 
ISIL. They are on the verge of becoming the world's first 
autonomous terrorist state if they are successful. I have no 
doubt that they will turn their focus on the United States and 
our allies. But the familiar new problem is the Middle East, 
and if we have learned anything over the last 12 years of war 
it is that the Middle East seems largely immune from U.S. 
efforts to bend it to our will.
    And so, that is not an excuse to idly by. It is just a 
reason why we have to be very careful about crafting a strategy 
that is not just well intentioned, but realistic. And so, I 
think that you and the President have got it largely right. I 
think I am broadly supportive of the strategy that you have 
laid with one exception, and so I want to just bring us back to 
the question about arming and trading with Syrian rebels.
    When we talked about this in open session a year ago, we 
raised concerns about the potential for the Free Syrian Army to 
coordinate with the al-Nusra wing of al-Qaeda, and there was 
confidence that that would not end up being the case. But we 
have a variety of reports that that indeed has been the 
practice, most recently in a joint effort between the Free 
Syrian Army and al-Nusra fronts to take a border post between 
Syria and Israel.
    So let me ask you that question. You answered Senator 
Udall's question about the ways in which we can keep arms from 
flowing to Islamic extremist groups. But why are you 
confident--how can you give us confidence that we are not going 
to train a fighting force that is then going to enter a battle 
with a known affiliate of al-Qaeda? And how confident are we 
that ultimately when they get on the field of battle that they 
are not going to look to ISIS, who is fighting the same enemy 
that they originally entered into battle against, Assad, in 
common cause?
    Secretary Kerry. Well, Senator, there is no fail-safe 
obviously. As I said earlier in answer to an earlier question, 
our guys have gotten much, much better at the vetting. And now 
that we are doing the training to some degree and hopefully do 
it openly, we are going to be in a much better position to do 
command and control, to do, you know, much greater in-depth 
accountability, if you will.
    In the end, there probably will be some strange bedfellow 
moments in the course of this kind of battle. I would be crazy 
if I sat here and just said to you, oh, it will never happen, 
there is nobody--you know. There are exigencies and 
circumstances that we do not always control. But by and large, 
we are beginning to get a much better handle with other players 
in the region on the funding streams, for instance, to al-
Nusra.
    Different countries that have played the angles with 
certain groups are now coalescing together. And we see a shift, 
and I think that is going to be to our benefit to be able to 
exercise at least a greater amount of control. Fail-safe, I 
cannot sit here and promise you that, but we are going to do 
the best we can.
    Now, let me just say to you--all of you here a couple of 
things. One, the House just passed the Syria Train and Assist 
and Equip bill, and obviously we hope the House having done 
that, that the Senate will follow suit in short order. I also 
want to just correct one thing I said earlier. I was talking 
about the JPOA, the agreement, and John is gone. But I just 
want to emphasize, I did not mean to say we did not have any 
inspection before. We did not have daily inspection. We had 
some inspection through our process, but now we have the daily, 
and we did not have a sufficient level to have guarantees in a 
place like Fordow that we have a comfort level.
    One other thing can I just say because you raised this, 
Senator Murphy?
    Senator Murphy. It is fine.
    Secretary Kerry. Okay.
    Senator Murphy. Go ahead.
    Secretary Kerry. No, go ahead. I will answer it following 
your question.
    Senator Murphy. Well, here is my--I guess my only followup 
is this. I understand that there are going to be strange 
bedfellows, but to the extent that the strange bedfellows are 
the Free Syrian Army fighting alongside al-Nusra, which is a 
wing and affiliate of al Qaeda, I hope that is not a reality 
that we are prepared to accept. We have had all sorts of talk 
about ISIL, but it is important to remember that the only major 
terrorist organization that has plans and stated intentions to 
carry them out against the United States today is al Qaeda. So 
I just want to make sure that we have a specific focus on that 
particular set of strange bedfellows.
    Secretary Kerry. I am with you 100 percent, and we will to 
the greatest degree possible, absolutely. But what I wanted to 
say to everybody here is you mentioned something very important 
a moment ago, which was about ISIL being a terrorist state and 
so forth. This is one of the things that I ran into very 
strongly with all the meetings I had in the region. And I want 
to just share with you this, that one of the key parts of this 
strategy is to not ever give them the legitimacy that they are 
trying to seek as to being a state. They have no legitimacy. 
They are not an Islamic state, and they are not in the vein of 
any other state in that region that tries to give meaning to 
the concept of Islamism as they celebrate it with their 
citizens and their countries.
    And this is important for us because, you know, Islam does 
not produce--no legitimacy in Islam produces the butchers who 
killed Steven Sotoloff or David Haines or, you know, Jim Foley. 
That is not Islam, and Islam is not ISIL. And increasingly all 
of the voices in the region are really starting to feel that 
they have a need to speak out and to reclaim Islam, and that is 
one of the most important things that could come out of this. 
And we are working on ways to do that.
    So ISIL is not a state obviously. It is not remotely like a 
state, and what we need to do is make that more clear. So let 
me just share with you two important things. The Grand Mufti of 
Saudi Arabia, the home of Mecca and Medina, which, by the way, 
are in the target scale of ISIS, these are Islam's most holy 
cities, they said of these murderers they are enemy number one 
of Islam. That comes from the Grand Mufti of Saudi Arabia.
    And today, Saudi Arabia's top clerical council, all 21 
members, the only institution in the Kingdom of Saudi Arabia 
that is authorized to issue fatwahs, invoking Muhammad, using 
the words of the Koran itself, today they said that ISIL are 
killers. They are thugs. They should be singled out and 
punished as apostates under Sharia, and made an example of. And 
they said they were not following the Prophet, but that these--
and these are their words, not mine. They are following the 
order of Satan.
    Now, that is what you are beginning to hear from the 
region, and that is a key part of this strategy. And obviously 
we do not have the legitimacy to do what people in the region 
can do to de-legitimize, but we are certainly going to do 
everything in our power to help encourage that and make sure 
that people are aware of it.
    The Chairman. Senator Paul.
    Senator Paul. Thank you, and thank you for your testimony. 
I agree with you and with the President that we must confront 
and destroy ISIL. I think that, you know, I am well on record 
as being very skeptical about our interventions in the Middle 
East. I think that the original war in Iraq has led to more 
chaos and less stability. I think the President's war in Libya 
as well as your intervention in Syria have led to less 
stability and more radical Islam throughout the country, and 
have actually enabled ISIL.
    I do also and have been a frequent critic of Secretary 
Clinton for not providing adequate security, though, for 
Benghazi and for the consulate. So I do think that there is an 
American interest in defending our Embassy in Baghdad as well 
as our consulate in Erbil. And I want there to be some message 
going forward from this hearing today that there is obviously 
bipartisan support for defending American interests in Iraq.
    However, I am very disappointed, though, in the President 
for not obeying the Constitution. The Constitution is very 
clear. It gave the power to declare war to Congress. And you 
can say, hey, we are going to come back when it is convenient, 
but we are going to be committing war for the next 3 or 4 
months, and we will do as we please. That is not what the 
Constitution intended.
    The interesting thing about the creative logic that used to 
say that a vote in 2001 has anything to do with today is that 
it seems to be acknowledged that, well, that allows you to do 
anything with forces that may be associated with terrorism or 
al-Qaeda. One of the interesting things is if you look at 
Ambassador Ford's testimony, he will say that ``Moderate forces 
have and will tactically coordinate with al-Qaeda, with al-
Qaeda linked to al-Nusra.'' So the interesting thing, if we use 
your logic and say the 2001 AUMF can be used to justify this, 
well, the 2001 AUMF could be used to justify going after the 
moderate Syrian rebels who are associated with al-Qaeda.
    So I think really anybody who is intellectually honest 
would say that the people who voted in 2001 to go to war with 
the people who attacked us on 9/11, the people who congregated 
in Afghanistan, has absolutely nothing to do with this. And 
really this committee, Congress, Senate, and the President are 
all abdicating the responsibility to vote for a new use of 
authorization of force, and that what you are doing now is 
illegal and unconstitutional.
    I think also from a practical point of view, it would be 
better to bring the country together. I think we would 
galvanize more support. It would be a bipartisan war. And had 
the President been a great leader, he should have come before a 
joint Congress instead of going on TV. He should have come 
before a joint Congress and immediately asked for a resolution, 
and there should have been a vote. That would have been true 
leadership. There would have been true bipartisan support, and 
then really there would be less carping on both sides.
    The President also used to believe this. The President ran, 
and it was one of the large reasons the public went for the 
President initially, is he said no President should 
unilaterally go to war without the authority of Congress. So I 
liked the President as a candidate on this issue, but not so 
much as the President.
    The other problem with this is that, you know, who are 
these moderate people? Are there really moderate, you know, 
Islamic rebels in Syria? Here is a quote, and I would like your 
comment on this. Ryan Crocker, the distinguished former United 
States Ambassador to both Iraq and Syria, said, that ``The 
administration's knowledge about the non-ISIS opposition in 
Syria is that we need to do everything we can to figure out''--
this is Crocker. ``We need to do everything we can to figure 
out who the non-ISIS opposition is because, frankly, we do not 
have a clue.''
    You know, most of the weapons we have been giving to the 
moderate rebels, they are sort of at a stopping place. That is 
where they stopped briefly before ISIS takes the weapons. Some 
of these, the Syrian National Revolutionary Front have signed--
have signed a cease-fire. Maybe not all of the vetted rebels 
are, but the Syrian Revolutionary Front has signed a cease-
fire.
    So really, I argue, and I would believe, and I would like 
to hear your comment. I think we have allowed there to be more 
of a safe haven for ISIL in giving weapons to the so-called 
moderate rebels because really that has taken pressure off 
them. It has kept Assad at bay. And I think, contrary to what 
others have said here, had we bombed Assad last year, ISIL 
would be in Damascus.
    So I think we are lucky we did not bomb Assad last year, 
and that we should be very careful about arming any Islamic 
rebels in Syria because the weapons may not stay where they are 
intended, and they may have the unintended consequence of 
actually enabling ISIL. Your comments?
    Secretary Kerry. Well, we are not planning to, nor do we 
want to, nor have we armed Islamic folks in Syria. The United 
States does not do that, and we have opposed it, and Robert 
Ford will tell you. And Robert Ford worked very hard to make 
sure that we were not doing that.
    I also think it is good that you are going to hear from 
Robert Ford because he will give you about as good an analysis 
of who the non-ISIS opposition is, and he will break it down 
point for point because he did that for me on many occasions 
and articulated who they were and so forth. But he was also a 
passionate supporter of making certain that the moderate 
opposition got support. And he fought hard to get it more 
support than they did get, absolutely. So I think he should do 
that for you.
    But let me just make it clear that the--I mean, I am glad 
that you can guarantee that there would be a vote if the 
President sent up here. I have got 60 nominees, some of whom 
have been waiting more than a year to get a vote up here. And 
the chair and the ranking member have been terrific in helping 
to try to break them out, but they cannot get a vote. So if you 
can tell the President you can absolutely guarantee a vote, I 
would be really amazed.
    Senator Paul. I find it unbelievable that if the President 
came before a joint session of Congress and asked for use of 
force, that he would not get a vote. I find it unthinkable. 
There is absolutely no way that you can imagine that he would 
not get a vote if he asked for it, so really, let us be honest. 
Politics are engaged here. People do not want to have a vote 
before the election. They are afraid of this vote. People are 
petrified, not of the enemy, but petrified of the electorate. 
That is why we are not having a vote.
    Secretary Kerry. Well, let me answer the first part of your 
question so that we make it crystal clear why the President is 
doing what he is doing, because you are not insinuating. You 
are stating quite declaratively that the President has violated 
the Constitution. The President absolutely, clearly, by almost 
any legal standard that I can imagine is not violating the 
Constitution. He is upholding it. Article 2 gives the President 
the power to do what he is doing. He has lived by the War 
Powers Act. He has sent countless notices up to the Congress. 
And I think every legal analysis suggests that while you may 
not like it----
    Senator Paul. If Article 2 gives unlimited power, why come 
at all?
    Secretary Kerry. Senator, let me just finish. Because he 
believes that the Congress ought to do this, and no one has----
    Senator Paul. But he does not believe he is bound.
    Secretary Kerry. The President has the right as the 
President under Article 2 to defend this Nation and to take the 
steps necessary to do so. The War Powers Act declares the terms 
under which you do that, Senator. You know that. And he has 
lived absolutely within that constitutional prerogative.
    Secondly, like it or not, and I can agree. I think you can 
find reasons to be uncomfortable. That does not mean it is not 
legal. And the chairman of this committee is appropriately 
going to try to recalibrate the AUMF, which we support 
entirely. We welcome the opportunity to have it recalibrated. 
It should be. But for the moment, the President believes we 
need to move now, and that is a full and appropriate exercise 
of constitutional power.
    Senator Paul. And for the record, that will be after the 
election.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman, and Mr. Secretary 
for your testimony. It has been an illuminating back and forth. 
I also want to thank Ambassador Ford and Mr. Connable, the 
written testimony that you each prepared. Very instructive. I 
often walk away from hearings older, but not smarter. I am 
walking away from this one older and smarter, so thank you for 
that.
    Mr. Chairman, I want to thank you for your comments at the 
beginning with respect to the authorization. A number of us 
feel like additional congressional authorization for the 
mission as described by the President is mandatory. Some of us 
do not feel that. But all of us, I think, on both sides of the 
dais believe it is advisable. And your commitment to crafting 
that in an appropriate way is notable and important.
    I have introduced a draft, and others have as well, that we 
know will be forwarded to this committee as we look to try to 
put something together that is, in fact, bipartisan, and it 
should be. Based on the statements around the table, it should 
be.
    An observation. Tomorrow in Portsmouth, VA, a container 
ship, the MV Cape Ray, is returning to the Commonwealth of 
Virginia. It is a merchant marine ship with merchant marines 
and DOD personnel, and it is the ship that has been in the 
Mediterranean involved in the complete destruction of the 
declared Syrian chemical weapons stockpile. That is a good news 
day tomorrow. And I think it is something that we ought to just 
contemplate as we are thinking about U.S. power, that there was 
a diplomatic breakthrough that led to the destruction of one of 
the largest chemical weapons stockpiles in the world. The 
United States played a critical role and this committee played 
a critical role.
    The diplomatic breakthrough, a factor in that was the 
willingness to use military force. Diplomacy is important. 
Often you get a much better result if you are really willing to 
use military force. Some interpret what happened last year as 
the President stepped away from a redline. No, there was a 
redline. We will take action against you if you use chemical 
weapons. We were prepared to take military action. Had we taken 
military action, the best we were going to get from the mission 
as described was convincing the Assad regime not to use 
chemical weapons again. But we were not going to get their 
complete destruction.
    Those chemical weapons still would have been out there, 
possibly to have been seized by ISIL or other elements. What we 
now have, because of a willingness to use military force as a 
factor, is the complete destruction of a stockpile that is 
widely viewed as a real positive, especially by neighbors in 
the region. So as we move forward, diplomacy is important. 
Credible military threat is important. Those things can work 
together.
    Mr. Secretary, you talked a lot about this. We are very 
deeply concerned about the extent of the coalition, and we 
understand as it is still coming together, the purpose for the 
hearing today is not to describe every Nation and what their 
role is. But just to sort of put it on the table for you and 
others, it is incredibly important that this coalition not just 
be vast, but that it also be public at the appropriate point, 
and that the participation of Arab nations, nations in the 
region, be public. They have often been willing to support the 
United States playing the lead in a financial way where they 
have not wanted to be public in condemning atrocities within 
their own region.
    I do not think the American public, and I do not think 
Congress, will support the United States policing a region that 
will not police itself. And so, it is critically important for 
the success of the mission and for the success of both of 
getting bipartisan support and supporting the American public 
that the coalition be vast, but especially with the nations 
that their participation not be, you know, we will help finance 
it, but we do not want to be public about it. They have to be 
full public partners for this mission to be successful.
    In addition, the importance of their public participation 
is critical to the success of the mission on the ground because 
if this is a campaign of the West against ISIL or the United 
States against ISIL, in a bizarre way, we will potentially 
legitimize ISIL even more. But if it is, and you read the 
quotes earlier that are helpful, if it is a public campaign by 
leaders in the region, whether they be religious leaders or 
clerics and certainly nations against ISIL.
    This is not about Islam. You are a profanation of Islam in 
what you are doing. So the more public that is, the more ISIL 
is de-legitimized, and the ultimate success of this mission is 
not just a military success, it is a de-legitimization strategy 
that will strip away the pretense that this is an organization 
that has anything to do with Islam and demonstrating to the 
public that they need to back away from it and condemn it. And 
so, that is why the coalition thing is so critical, and the 
public nature of the coalition is important. And if you just 
want to comment on that briefly, please.
    Secretary Kerry. Well, no, Senator, look, you have said it, 
and I think I have said it in the course of the hearing. We 
completely understand that. We do not want this just to be--
this is not just an American effort. That is one of the reasons 
why the President took the time to make sure that the Iraqi 
Government was in place, that we were going to build a 
coalition, that we took the time to do what was necessary 
because we all understand that no one is advantaged by this 
being perceived of as just an American effort, and it is not. 
There are many other countries. I mean, France helped, stepped 
up, and bringing people to Paris the other day for a larger 
conference, and Jeddah, Saudi Arabia hosted that meeting. And 
countries that had not sat at the table together for some 
period of time were at that table.
    One of the things that people really have not, I think, 
sufficiently focused on in this story is the Iraqi story. I 
mean, Iraq was on the brink 2 months ago, and many people were 
talking about, oh, my god, is it going to break up? Can it hold 
together? What is going to happen? We worked very, very closely 
with Iraqis, and Iraqis led that effort, all of them, you know. 
The Sunni folks who had bitter feelings about what happened in 
the last years came together, picked a new speaker.
    The Kurds, who had plenty of reasons to be mistrustful and 
not, you know, be certain of the future, came together and 
elected a new president. And that new president had the courage 
to choose somebody other than the current Prime Minister to say 
you try to form a government. That could have faltered. It did 
not. They came together, put together that new government, 
actually ratified the new Prime Minister. The new Prime 
Minister has been continuing to put the government together. 
His Foreign Minister was in Jeddah, was in Paris.
    So, you know, this photograph I pointed out of a, you know, 
of a Kurd President, of a, you know, Saudi Arabian Foreign 
Minister of a Shia-Iraqi Foreign Minister, all together 
conferring about how they are going to deal with ISIL tells you 
the story of an amazing transformation that has taken place. 
And I think people need to recognize that that is a big step 
forward. Now, we have to build on it.
    The second thing I would just say about the Cape Ray coming 
back, I want to thank your people. I wish you would extend the 
huge gratitude of the administration and of the world for this 
incredible job well done. And you are absolutely correct. The 
President announced he was going to strike. We had already been 
talking with the Russians and others about how to get the 
weapons out, and then the deal came together and took away the 
necessity for the President to make a judgment he still would 
have made, whether or not to strike under his constitutional 
power based on the announcement he made.
    But clearly getting 100 percent of the declared weapons 
out--we still have some questions about a few other things. But 
100 percent, 1,300 tons of weapons out completely and destroyed 
is the first time that has ever happened in a time of conflict 
in any part of the world.
    And I will tell you, ask Prime Minister Netanyahu, ask 
people in the region, they will tell you they are safer. You 
have an X factor that has now been eliminated from this whole 
equation of what we may or may not do in Syria as a consequence 
of that action.
    The Chairman. Senator Markey.
    Senator Markey. Thank you, and thank you for the excellent 
job which you are doing, Mr. Secretary. Turkey--Turkey does not 
want to become part of our combat operations because ISIL has 
hostages from Turkey. But at the same time, Turkey has become 
the destination for the oil which has been captured by the ISIL 
army in both Iraq and in Syria. And it is upward of a million 
to $3 million a day, $300 million to a billion dollars in the 
course of a year. In fact, the smuggled oil has now become the 
lifeblood of the ISIL army.
    So talk a little bit about Turkey and what our efforts are 
going to be to just shut this down, because without that money, 
they do not have the money to produce Hollywood-style videos. 
They do not have the money to pay their soldiers. They do not 
have the money to take care of these cities and towns that they 
are taking over. Talk about what we have to do with Turkey to 
just get them to shut this down.
    Secretary Kerry. Well, Senator, it is a very, very relevant 
question and one that we are working on very hard obviously. We 
really do understand the sensitivities that Turkey has. I do 
not want to talk about it too much publicly, to be honest with 
you, because of that. I think we are better off having a 
classified conversation about this. But I have hopes that as we 
move forward here over time, that the current dynamic may be 
able to shift in a way that will help us deal with that a lot 
more.
    Turkey understands the challenges, believe me, and we have 
had some very candid conversations about it. But Turkey will 
have to make its decisions in the days ahead, and we will see 
what happens.
    Senator Markey. It is unconscionable that Turkey has become 
the principal source of funding for ISIL, and if we can shut 
that down, we do almost immeasurable damage to their ability to 
finance this war. And I just think we have to put Turkey right 
front and center and have the world say to them, they must stop 
it.
    Let me move on. The language which is in the resolution 
says that one of the goals is to promote the conditions for a 
negotiated settlement to end the conflict in Syria. We will be 
voting on that. So experts are saying that it will take upwards 
of 3 years to resecure the border between Iraq and Syria. And 
experts are also saying that it will take up to 10 years to 
create the conditions on the ground in Syria to bring Assad to 
the table in order to, in fact, have a negotiated settlement.
    So I would ask you talk about those two timelines that 
experts are talking realistically given the weakness of the 
Free Syrian Army, how long it will take to build them up, how 
long it will take for us to push the ISIL army out of Iraq. The 
American people, I think, want to know how long we are going to 
be engaged in this effort toward the end game.
    Secretary Kerry. Well, let me talk macro in a sense here, 
Senator, if I can. First of all, I have read various accounts 
of summaries of various experts, some of whom are experts and 
some of whom are called experts. And there is only one expert 
right now that I am looking to, and that is Gen. John Allen. He 
has the responsibility here. He is putting together his team 
very rapidly. He is having meetings, and I will listen to him 
very carefully before I start pushing out timelines.
    Now, that said, President Obama has already said it is 
going to take a number of years to do the broad-based effort 
that we are at. And when I say that, you know, I think you can 
do a lot to ISIL fairly quickly, and then you have a longer 
fight as you begin to really go into the, you know, full 
destruction and defeat mode, so to speak.
    But I got to tell you, and this is something that I expect 
to be talking about more with this committee and with Congress 
over the course of the next months. The fight of our generation 
is a combined fight against the immediate challenge of radical, 
religious extremism and its exploitation in various parts of 
the world, and large, unemployed populations of young people 
without good governance surrounding them and without 
opportunity, without dignity, respect. And this is a challenge 
we face, all of us, and all countries that consider themselves, 
you know, developed, and near-developed, and civilized.
    It is our challenge, and we need to figure out how we are 
going to do all the things we need to do. And this is part of 
what President Obama talked about when he went to West Point, 
and about the focus on counterterrorism, and the need to talk 
more as we go forward in the days ahead about exactly how we 
are going to fill out the full agenda of our country to be safe 
in the long term.
    It is a big, long-term operation, and that part of it is 
going to take years. And the United States, I think it is 
clear, is going to have to help lead that effort, and that is 
going to require a different attitude about foreign policy and 
engagement than a lot of people have been willing to embrace. I 
look forward to that discussion very much, and we are doing our 
homework to be able to come to you with thoughtful ideas about 
how we can deal with it.
    Senator Markey. Thank you, Mr. Secretary. We are very 
fortunate to have you as the person sitting in that seat. Thank 
you.
    Secretary Kerry. Well, you are because you are now in my 
seat. [Laughter.]
    The Chairman. The most fortunate of them all. Well, Mr. 
Secretary, thank you for your engagement here today. You became 
the Secretary of State at a time in which I have never seen in 
22 years in the Congress such a confluence of challenges 
globally as they exist right now, the topic we have been 
discussing here for the last 3 hours: the challenge of ISIL, 
the Russian invasion in Ukraine, the challenges of Ebola in 
Africa, the reality of our continuing challenge with Iran and 
its search for nuclear weapons, and the list goes on and on. 
And your service comes at an extraordinarily important time, so 
we want to salute you.
    I do want to make one or two final comments. Number one is 
this is going to be an issue in which more information and a 
steady flow of information and briefings will be critical to 
having the congressional understanding and the ultimate support 
for what I believe is our mutual mission to defeat ISIL. And I 
just want to say that on various occasions, you have 
legitimately said that we need to have some of these 
conversations in classified settings. I will say that I look 
forward and intend to hold those classified hearings, but I 
hope it is going to be as robust so that when we get into a 
classified hearing, we do not have to hear, well, I cannot talk 
about that in that context. That will be problematic.
    Secondly, there have been many--I do not question anybody's 
intentions here. I believe that there are many legitimate 
questions, and there are certainly legitimate questions when we 
think about putting America's sons and daughters into harm's 
way. We are strongest in the national challenge that we face 
when we speak with one voice, as Democrats, Republicans, and 
Independents together as Americans. And it is that unity of 
purpose I think that will be critical--a critical element of 
our success against ISIL. This is a moment in which politics 
must stop at the water's edge.
    This committee for the last 2 years has taken on a whole 
host of major foreign policy and national security challenges 
in a bipartisan way, and I look forward to working with my 
colleagues to come together again to do that in this most 
critical case. I think we can.
    And finally, I remind those who are concerned about the use 
of U.S. military might in a foreign country, that we face the 
world as it is, not as we wish it to be. I do not know how you 
negotiate with an entity that beheads Americans.
    So thank you, Mr. Secretary, for your testimony and 
engagement for what I expect will be a continuing engagement. 
And before you have a parting word, I do want to urge 
colleagues, we have an important panel coming up with a lot of 
information, and I hope members will be able to stay or come 
back.
    Mr. Secretary.
    Secretary Kerry. I will be very, very brief. Just thank you 
very much. I look forward to having those discussions. And one 
coda, I think you know this. I long believed as chairman that 
the chairman and ranking member should have the same input as 
the chair and ranking member of the other committees--Armed 
Services, et cetera, Intel--because of the policy 
considerations. And I have advocated for that within this 
administration, and it is something that I think ought to 
happen.
    The Chairman. Thank you. Thank you, Mr. Secretary.
    Secretary Kerry. Thank you.
    The Chairman. We appreciate your testimony. Let me call up 
our second panel today as the Secretary leaves. And I----

    [Disturbance in hearing room.]

    The Chairman. The committee will come to order. I will ask 
the Capital Police to remove individuals who will not come to 
order.
    Our second panel today is Robert Ford, senior fellow of the 
Middle East Institute. And Ambassador Ford, of course, has a 
long and distinguished history in the Foreign Service of the 
United States, which he did so exceptionally well in Syria. And 
Ben Connable, the senior international policy analyst at the 
RAND Corporation here in Washington. I appreciate both of you. 
Both of your written statements will be included in the record 
in its entirety without objection.
    And I appreciate your willingness to hang in there for the 
last several hours and to still be here to provide what I think 
is some critical testimony and insights. So with the thanks of 
the committee to both of you, I will recommend--I mean, I will 
recognize Senator--I mean, I will recognize Ambassador Ford 
first, and then we will turn to Mr. Connable.
    Ambassador Ford.

 STATEMENT OF HON. ROBERT S. FORD, SENIOR FELLOW, MIDDLE EAST 
                   INSTITUTE, WASHINGTON, DC

    Ambassador Ford. Mr. Chairman, Senator Johnson, and other 
distinguished guests and members of the committee. It is a very 
big honor to be with you today, and I thank you for the 
invitation. And as you noted, I submitted a written statement. 
And so, let me just make a few opening remarks, and then I will 
turn it over to my copanelist, Ben.
    Many have spoken about the dangers of the Islamic State 
against us and against our allies in the region. And I would 
simply note that I have been looking on Arabic social media 
sites in Arabic language, and some of the language is blood-
curdling, the threats against us. And I take these people at 
their word, and they do present a serious danger to us.
    The administration's proposal to increase assistance to 
moderate elements of the armed opposition in Syria will be 
useful as one part of addressing the Islamic State threat, and 
the administration's proposal deserves congressional support. I 
understand from you--well, Secretary Kerry that the House has 
voted, and I hope the Senate does as well as soon as possible.
    Let me just make three points. First, and I heard it again 
today here. People question whether there is a moderate armed 
opposition, but there is, and it is already fighting the 
Islamic State. I put some details about some of the groups in 
my written testimony, Mr. Chairman. When I say ``moderate,'' 
what I mean by that word is that its leaders--the leaders of 
these groups do not seek to impose a religious state on Syrian 
society by force. Many of them are Islamists, Mr. Chairman, but 
they do not seek to impose a religious state by force.
    That said, there are no angels in the Syrian war now. 
However, the moderate groups emanate from what were peaceful 
protest movements around Syria in 2011. These were the protest 
movements that I myself saw. And their leaders accept the idea 
that there has to be an eventual political deal in Syria. That 
also makes them moderate. Some of these groups, in fact, 
including groups in my written testimony, had representatives 
at the talks in Geneva where Secretary Kerry was present.
    My second point is these moderates now are fighting the 
Islamic State. They lost badly in eastern Syria. They lost very 
badly. That is how the Islamic State took control of oil 
fields. They are holding their own right now in northern Syria 
not far from the Turkish border, but it is a hard fight. It is 
a desperate fight, and they would definitely benefit from 
greater and more reliable material aid in those battles against 
the Islamic State in northern Syria.
    We just had a delegation here from the Iraqi Kurdish 
Government. Like the Iraqi Kurdish Peshmerga who are fighting 
the Islamic State on the Iraq side of the border, the moderate 
armed opposition in Syria would benefit as well from American 
airstrikes against Islamic state targets. And they would 
benefit more than Assad because those airstrikes up in northern 
Syria would help the moderates we are trying to help secure the 
moderates' vital supply lines. Assad does not even have forces 
that far north in Syria anyway.
    My last point is that we have to go into this with our eyes 
open. The moderates in the Free Syrian Army and the Syrian 
armed opposition, their primary enemy is indeed still the Assad 
regime, which has killed far more Syrians than has the Islamic 
State, as awful and terrible as the Islamic State is. And so, 
as we try to work with them, they will always be thinking about 
how to manage their two-front war--the Islamic State on one 
side, the Assad regime on the other.
    But as their resources from the entire coalition of 
countries that Secretary Kerry and the administration is 
assembling, as their total resources increase, they will have 
more resources to devote against the Islamic State, but I doubt 
that all of their new resources from all of the countries are 
going to be used only against the Islamic State. I think we 
have to understand that going in.
    Mr. Chairman, I will be happy to take questions later, and 
thank you again for your invitation.
    [The prepared statement of Ambassador Ford follows:]

                  Prepared Statement of Robert S. Ford

    Mr. Chairman, Senator Corker, members of the committee, it is an 
honor to be invited to speak with you today about what we should do in 
the face of a growing threat from the Islamic State.
    I spent almost 5 years working within Baghdad as the senior 
political advisor and later deputy to Ambassadors John Negroponte, 
Zalmay Khalilzad, Ryan Crocker, and finally Chris Hill. I left Iraq in 
2010.
    And I then served on the ground in Damascus for a year before we 
had to close the Embassy in February 2012 and I returned home to head, 
for 2 years, the State Department team working on the Syria crisis.
    It's been a grim 3 years, but I see some positive signs in Iraq 
that suggest guideposts as we think about next steps in Syria.
    These signs result from policy approaches to contain and reduce 
extremist groups that also worked when I was in Iraq years ago.
    Over the past several months in Iraq we identified groups on the 
ground in Iraq that rejected the Islamic State and that were sturdy 
enough to build upon.
    The Iraqi Kurdish Peshmerga were not extremely well organized in 
June 2014--they had multiple command chains and there was confusion at 
the time of the fall of Mosul. And to be clear, the political goal of 
an independent Kurdistan shared by many Kurds is not one that the U.S. 
Government has endorsed.
    Still, the Peshmerga represented a reliable core group that could 
use our help to confront the Islamic State's fighters on the ground.
    And despite the collapse of many Iraqi army units, there were 
reliable special operations army units that again could usefully 
utilize our help to fight the Islamic State.
    These Peshmerga and Iraqi Special Operations Forces together with a 
limited, judicious use of airstrikes pushed Islamic State fighters away 
from the Mosul Dam, from Erbil and Kirku parts of Diyala province.
    The fight is not at all over, but the Islamic State's advance in 
Iraq has been blunted.
    It's going to be a long fight.
    The President, very wisely in my opinion, insisted that we could 
not fight the Iraqi battle against the Islamic State for them, however. 
He conditioned big American help on the Iraqis finding a political deal 
to set up a new government--a sort of unity government--that could 
rally all Iraqis to fight the Islamic State.
    The President rightly understands that it is vital to undercut 
extremist recruiting among the disaffected Sunni Arab population by 
means of Iraqi political leaders figuring out a political deal.
    I am very encouraged that various tribal figures in Anbar and 
Hawija, elected provincial councils in Mosul and Salah ad-Din all have 
come forward to offer to mobilize Sunni Arab fighters against the 
Islamic State if the new government in Baghdad will join with them. The 
initial statements I have seen from the new Prime Minister are also 
encouraging.
    The regional states pledging to act with us in Iraq is also 
encouraging--and something we didn't really have when I was in Iraq 
years ago. Just the symbolism of the Iraqi Foreign Minister--a senior 
Shia politician--appearing in Riyadh at Saudi invitation with other 
Sunni states' representatives was very positive. We're in a better spot 
in this regard than we were in 2003 or 2007.
    But as I said, if there are encouraging signs, we also need to 
understand that just as it took years to contain and reduce Al Qaeda in 
Iraq, so it will take years again in Iraq. Patience and firm insistence 
on our political conditions are vital.
    Turning to Syria, it's a much harder problem than Iraq and we are 
long past the chance to find easy answers or sure bets. Still, the same 
elements used in Iraq offer the best path forward:

  <bullet> We need to identify friendly forces on the ground and boost 
        their ability to fight the Islamic State;
  <bullet> We may need to use, judiciously, our own airpower;
  <bullet> As in Iraq the real fighting will be on the ground, so 
        equipment, ammunition, logistics, and even cash matter just as 
        much if not more;
  <bullet> A sustainable solution requires a new Syrian government via 
        negotiations 
        between Syrians with outside encouragement.

    Many Americans question whether there are any moderates left in the 
Syrian armed opposition. There are. They are fighting the Islamic State 
and the Assad regime both, they are, not surprisingly, hard pressed, 
and they could very much use our help.
    I find it odd that the media don't talk about them much. Units like 
the Hazem Brigade fighting in northwestern Syria that actually helped 
expel the Islamic State out of that part of Syria last spring. The 
Hazem Brigade issued a manifesto last March saying it was fighting for 
a pluralistic Syria where minorities' rights would be protected. Or 
units like the 101st and 13th divisions, fighting in both northern and 
southern Syria, led by former Syrian military officers. Or units like 
the Omari and Yarmouk brigades which are fighting regime forces in 
southern Syria. There are others too, of course.
    Right now, some of these units, and others are locked in battle 
with the Islamic State near Aleppo in northern Syria.It's a hard 
fight--U.S. equipment the Islamic State captured from the Iraqi Army is 
being used against those Free Syrian Army fighters. However, these 
units also have received help from outside and they have fought the 
Islamic State to a standstill in that part of Syria. It's a desperate 
fight--the Islamic State is trying to capture vital supply lines for 
the moderate armed opposition coming down from Turkey.
    Helping those units, right now, around Aleppo could secure supply 
routes and boost the morale of the moderate fighters. Assad's forces 
are some distance away and far too stretched already to hold ground 
northeast of Aleppo. Thus, we and our friends ramping up help there 
would not benefit Assad nearly as much as the moderate opposition.
    We do need multiple changes in approach. Larger, more reliable 
logistics help, including provision of ammunition and cash, are a must 
if we hope to make any headway against the Islamic State. And just as 
important, regional allies must stop competing with each other for 
influence by provisioning different groups in an uncoordinated fashion 
and instead blend their efforts in a broader strategic plan with the 
Syrian fighters' commanders.
    And we must understand two vital points going in:

--The moderate armed opposition's biggest enemy is not the Islamic 
    State. It is the Assad regime which has killed far more Syrians 
    than has the detestable Islamic State. And they won't stop fighting 
    the Assad regime even as they advance against the Islamic State.
--Moreover, in the desperately hard-fought battle against the Assad 
    regime, moderate forces have, and will, tactically coordinate with 
    the al-Qaeda-linked Nusra Front on the ground. This is due to 
    operational necessity, made more urgent by the shortage of 
    supplies.

    This coordination has nothing to do with ideological sympathy--
indeed, groups such as the ones I mentioned have criticized the Nusra 
Front's politics and even refused to work with its leaders in towns 
recaptured from the regime.
    Until the moderate elements are so strong that they don't need 
Nusra to pressure the regime successfully, the moderate elements will 
accept working militarily with Nusra.
    As we think medium- and longer-term, a large moderate opposition 
force will be vital to holding ground seized back from the Islamic 
State. It will also be necessary to contain the Nusra Front one day. I 
do not see any other force that could do this short of a U.S.-led 
foreign force and even that would be extremely hard to sell politically 
in the region and in the broader international arena. I therefore 
welcome the administration's proposal to move to a Title 10 program.
    However, just as in Iraq, the sustainable solution is to find a way 
to rally more Syrians against the Islamic State. The Assad regime's 
brutality has helped the Islamic State's rapid growth in Syria. Working 
with the Assad regime would be a golden gift to help the Islamic 
State's recruiting in Syria and beyond. And there aren't Assad forces 
to spare for central and eastern Syria anyway.
    Instead, as in Iraq, the endgame in Syria has to be a new 
government able to rally the armed opposition and the remaining regime 
forces together to fight the Islamic State.
    And we should know from the Libya experience, and our Iraq 
experience, that negotiating the creation of that new government in 
Syria, not trying to topple it, is the only way to preserve what 
remains of the Syrian state.
    Getting to negotiations will be very, very hard. Our Geneva efforts 
failed quickly. But 7 months later, the regime's forces have taken 
heavy casualties at the hands of the Free Syrian Army and the Islamic 
State. Assad's remaining forces are more stretched and tired. There are 
new signs of dissent among Assad's ranks.
    Asad's supporters may be tired but they don't see a place to jump. 
They fear extermination at the hands of the Islamic State and the al-
Qaeda-linked Nusra Front. I don't blame them.
    The best way to give them a sense that there is a third way for a 
new government--one that is neither the current regime nor an Islamic 
extremist state--is for the moderate opposition to reach out to Assad's 
supporters and to put forward ideas about how together they could 
assemble a new government.
    Asad won't like this, but that's not the point. The point is that 
others inside the regime's ranks should and could drag the top Syrian 
leadership back to negotiations.
    Thus, as we ramp up help to the Syrian moderate armed opposition, 
we also should insist that the opposition redouble efforts to reach out 
to regime elements and pursue discussions about a deal for a new 
government. There are steps the moderate opposition could take right 
now to send the right signal--treating prisoners well and offering to 
exchange them would be an excellent start.
    I do not think any of this will be fast or easy. I do think that 
both sides are tiring, and that could help get to the negotiations for 
a new government. The conclusion of a few local cease-fire deals here 
and there indicates that local commanders at least are willing to talk.
    Lastly, I welcome the administration's decision which, when 
implemented with real resources and actions, will gain support of 
regional allies. In Iraq when I was there we worked without regional 
support with the exception of Kuwait. The administration is making a 
strong pitch for regional political and material backing. If we show 
determination, the regional states who have long wanted to see the 
Syrian crisis resolved will back us, even if some necessarily do it 
quietly.
    Going forward, we have be determined and committed.The first step 
is for the Congress to approve the President's proposal to help Syrian 
moderate armed groups. And as we begin our efforts under Title X and 
back moderate fighters on the ground, we will need to be strategically 
patient and very tough with our allies and the moderate opposition when 
they stray outside the agreed lines of scrimmage. The Islamic State 
problem has grown over the course of 3 years. Putting it down again in 
Iraq and Syria likely will last years more. But based on what I saw in 
Iraq years ago, it is achievable.

    The Chairman. Thank you. Mr. Connable.

STATEMENT OF BEN CONNABLE, SENIOR INTERNATIONAL POLICY ANALYST, 
                RAND CORPORATION, WASHINGTON, DC

    Mr. Connable. Chairman Menendez, Ranking Member Corker, and 
distinguished committee members, thank you for allowing me 
testify before you today on this critical topic. Ambassador 
Ford, it is an honor.
    I have been engaging with Sunni Iraqis since 2003 first as 
a Marine intelligence officer in Iraq, then as an attache in 
Amman, Jordan, and most recently in support of my research on 
Sunni-Iraqi perceptions at RAND. My remarks are based on those 
relationships and on my research.
    This afternoon, I will outline options the United States 
and its allies can take in order to help free northern and 
western Iraq from Islamic State dominance. The thrust of my 
proposition here is that the success or failure of any 
coalition effort to defeat Islamic State and ultimately to 
stabilize Iraq hinges not on tactical consideration or tribal 
engagement efforts, but on the more critical issue of Sunni-
Iraqi reconciliation.
    IS has been able to dominate millions of Sunni with only a 
few thousand fighters because they generate considerable fear, 
but also because the ongoing Sunni revolt against the 
Government of Iraq has given IS a perfect opportunity to latch 
onto the Sunni host in a part parasitic, part symbiotic 
relationship. IS serves the purposes of the Sunni polity by 
fighting against the government, and the Sunni provide IS with 
at least a temporary accommodation.
    In late 2014, we now have a situation in Iraq that closely 
resembles that in late 2004. Sunni Iraqis are disenfranchised 
from their government. They fear Iranian influence, and they do 
not yet trust the coalition. But underlying all of this is the 
desire to turn out the extremists. Tolerance of IS in Iraq is 
temporary. The ways in which they may be ejected, however, 
matter a great deal.
    The coalition counterterrorism approach, which we use 
together with coalition airstrikes, Iraqi operations, and Sunni 
militia support, will certainly reduce IS influence and power 
in Iraq. Yet the coalition plan to defeat and destroy IS faces 
a range of challenges. I will enumerate three of those for you 
now.
    First, the recent tactical victories in northern Iraq came 
only with the help of local sectarian and ethnic militias. It 
is possible, but unlikely, that these groups will directly 
support Iraqi army advances further west into the almost 
wholly-Sunni province of Al Anbar. There are limits to Iraqi 
collaboration.
    Second, the offensive capability of the Iraqi army is 
questionable at best. They may well be able to mount a 
successful campaign into Mosul and Al Anbar, but it is more 
likely that they will move slowly, haltingly, and that they 
will have an insufficient force to overcome many of the 
hardened urban objectives they will face.
    And third, the Iraqi army is not structured, trained, or 
inclined to conduct the kind of thoughtful counterinsurgency 
campaign that appears necessary in the Sunni provinces. 
Instead, they are likely to conduct the kind of tactical 
campaign they executed in Al Anbar in the first half of 2014. 
This military-centric approach is unlikely to generate 
grassroots Sunni support for the government.
    Sunni popular and militia support, though, are critical to 
the success of the coalition campaign. This kind of uprising or 
revolt against IS is central to the possible solution I am 
laying before you this afternoon. To achieve this, some hope to 
force a reprise of the 2006 to 2008 awakening movement by 
aggressively incentivizing Sunni with financing and military 
aid. Yet simply paying or otherwise incentivizing Sunni to 
fight at the local level absent national reconciliation is 
likely to perpetuate rather than reduce instability in Iraq. If 
not addressed, the ongoing Sunni revolt will continue even if 
IS is ejected, in this event the second awakening is likely to 
end in the same was as the first, with Sunni fighters turning 
against the government in a recurring cycle of violence.
    President Obama and senior administration officials have 
correctly stressed that success against IS is dependent on 
Iraqi reconciliation and positive Iraqi leadership. I recommend 
two mutually supporting approaches, one solely Iraqi and one 
for the broader coalition to capitalize on this strategic 
assumption. Prime Minister al-Abadi has a window of opportunity 
now in the early stages of the campaign to make unequivocal 
moves towards genuine reconciliation. The coalition should 
encourage him to enact all grievance resolution measures within 
his authority in one fell swoop.
    Following this top-level Iraqi action, all coalition 
activities should be predicated on reconciliation. This may 
mean taking some tactical risk, but these risks will be taken 
in the hope of achieving long-term stability rather than short-
term tactical success. Stopping IS now is wise. Current anti-IS 
action should be applied aggressively to keep the organization 
on its heels. In the case of IS, military force is necessary.
    Yet addressing root causes of any insurgency has also 
historically proven to be the best and most lasting way to 
defeat insurgent groups. Leveraging reconciliation and using 
military force to support reconciliation rather than using 
reconciliation to support military force seems to be the least 
costly and possibly the only way to defeat Islamic State in 
Iraq and to stabilize that country.
    I look forward to your questions. Thank you.
    [The prepared statement of Mr. Connable follows:]

                   Prepared Statement of Ben Connable

    Chairman \1\ Menendez, Ranking Member Corker, and distinguished 
committee members, thank you for allowing me to testify before you 
today on this critical topic.
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to federal, state, or local 
legislative committees; government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
---------------------------------------------------------------------------
    This afternoon I will first discuss how the self-described Islamic 
State, or IS, was able to sweep through northwestern Iraq with such 
rapidity, and then I will outline options the U.S. and its coalition 
allies might take in order to attempt to free northern and western Iraq 
from IS dominance. The thrust of my proposition here is that the 
success or failure of any coalition effort to defeat IS--and ultimately 
to stabilize Iraq--hinges not on tactical considerations or tribal 
engagement efforts, but on the more critical issue of Sunni Iraqi 
reconciliation. I believe the new anti-IS coalition can succeed if it 
predicates all of its actions in Iraq on national reconciliation 
between Sunni and Shia Iraqis. If political reconciliation is not the 
core aspect of an anti-IS strategy then coalition efforts are likely to 
fail in the long run.
                islamic state sweeps into northern iraq
    There are many tactical, or perhaps localized reasons why IS and 
its temporary nationalist insurgent allies were able to achieve so much 
success in June and July. These include a patient yet aggressive 
infiltration of IS assets into northern Iraq through the spring, major 
gaps in Iraqi Security Force (ISF) capabilities in Nineweh province, 
and also a series of IS victories in Syria and western Iraq that 
generated operational momentum. The Iraqi Army units in the Mosul area 
had alienated local Iraqis and lost nearly all vestiges of popular 
support. These units may have also been stripped of some of their 
equipment and personnel to shore up units fighting in Anbar province. 
Morale in the northern Iraqi Army Forces was low, leadership was weak, 
and IS capitalized brilliantly on their own operational surprise. Other 
Iraqi Army units that might have responded to the IS invasion of Mosul 
were tied down in the west or were simply incapable of the kind of 
rapid planning and movement required for operational-level quick 
reaction. IS succeeded in part because of Iraqi Army weakness, but also 
in great part due to their own military competence and elan.
    All of these military factors were important to the IS sweep into 
northern Iraq. However, they do not fully explain why IS has been so 
successful in dominating millions of Sunni with only a few thousand 
fighters. The mostly Sunni Iraqi provinces of Anbar, Salah al-Din, and 
Nineweh are known for rejecting outside influence and repelling 
invaders. But while most Sunni Iraqis reject IS methods and philosophy, 
only a few have turned against IS and tried to push them out of the 
Sunni provinces. The ongoing Sunni revolt against the Government of 
Iraq (GoI) has given IS a perfect opportunity to latch on to the Sunni 
host in a part parasitic, part symbiotic relationship. IS serves the 
purposes of the Sunni polity by fighting against the government, and 
the Sunni provide IS with at least a temporary accommodation.
      underlying sunni issues present opportunities to extremists 
                          and to the coalition
    A similar phenomenon took place between 2003 and 2006, the period 
after the U.S.-led coalition invasion of Iraq. Millions of Sunni Iraqis 
suffered the growth and ultimately the dominance of AQI while quietly 
and fearfully rejecting the al-Qaeda methods and philosophy. They 
underwent years of murder and intimidation, beheadings, robbery, and 
rape because at least in part they viewed AQI as the lesser of three 
evils: the extremist group did not present as great an existential 
threat as either a Shia-led government or the foreign coalition. During 
this period many nationalist, or Ba'athist fighters reached temporary 
deals with AQI and even supported some of its military activities. 
AQI's power culminated in early 2006 after the destruction of the 
Golden Mosque in Samaara; they exploited the fear of Shia oppression 
and took on the role of ``defenders of the faithful'' to fight for the 
Sunni.
    Yet in late 2006 the Sunni Iraqis turned against AQI. Despite their 
best efforts to play on Sunni fears and sectarian animosities, AQI had 
worn out its welcome. Most Sunni Iraqi did not want to be part of an 
AQI caliphate and were only willing to accept AQI presence as long as 
the balance of fear kept them in check. The Awakening movement was the 
outward expression of the Sunni's turn against AQI. They accepted the 
promises of support and protection made by both the coalition and the 
government of Prime Minister al-Maliki. Many members of AQI turned 
against the group itself, other insurgents rose up to fight AQI emirs, 
and in very short order AQI was defeated. While coalition and Iraqi 
Army military power helped turn the tide, the key to success in 2006 
and 2007 was the shift in popular Sunni sentiment against extremism and 
against outsider domination.
    Unfortunately, Prime Minister al-Maliki abused the trust of the 
Sunni and undertook an active campaign to disenfranchise them. Between 
2006 and 2013, the Sunni again lost faith in what they saw as an 
Iranian-influenced government. They again grudgingly allowed a foreign-
led Sunni extremist group to enter and dominate their provinces, partly 
out of fear of IS and greatly out of fear of the Iraqi Security Forces 
(ISF). In late 2014 we now have a situation that closely resembles late 
2004: Sunni Iraqis are disenfranchised from their government, they fear 
Iranian influence, and they do not yet trust the coalition. But 
underlying all of this is a desire to turn out the extremists. For now 
the members of IS float on the surface of the Sunni Iraqi polity; but 
they will never be integral nor will the Sunni Iraqis accept the IS 
caliphate. Tolerance of IS in Iraq is temporary. The ways in which they 
might be ejected, however, matter a great deal.
     a military centric anti-is effort faces formidable challenges
    In his 10 September speech, President Obama described a primarily 
military-focused effort designed to eject IS from Iraq and ultimately 
destroy them across the globe. This counterterrorism approach, which 
weaves together coalition airstrikes, Iraqi Army operations, and Sunni 
militia support, will certainly reduce IS influence and power in Iraq. 
Within months we can expect that IS armor, large artillery pieces, 
technical gun trucks, and overt fixed military positions will be 
reduced or eliminated inside of Iraq; they will no longer have the 
ability to conduct large-scale offensives of the kind we saw in Mosul 
and Tikrit. It does not necessarily follow, however, that IS will be 
weakened to the point of defeat. While many pundits and analysts have 
focused on IS technical and financial assets, their fighting power 
derives primarily from their overall morale and their aggressive, 
motivated small infantry units. Some of these can be destroyed from the 
air, but most can and probably will position themselves close to the 
civilian population in an effort to survive and increase chances of 
civilian casualties from airstrikes. As a result, airstrikes are 
insufficient to defeat or destroy IS.
    The coalition plan also calls for increased support to the Iraqi 
Army, which will then help to drive IS out of Iraq. Equipment and 
trainers are already being prepared and deployed, and intelligence and 
air control support have already played critical roles in places like 
the Mosul Dam. All of these technical efforts will help Army units get 
back on their feet, and they will stiffen the resolve of some units 
that may be faltering. Consistent, overt U.S. military support can 
strengthen an allied partner in ways that cannot be measured and should 
not be underestimated. However, there are several reasons why the Iraqi 
Army will be challenged to achieve immediate or even long-term success 
against IS. I propose three of what I think are the most important 
reasons for doubt.
    First, the recent tactical victories in northern Iraq came only 
with the help of combined Kurdish and Shia militia support. Iraqi Army 
units fought alongside Kurdistan Workers' Party (PKK) units, Peshmerga 
units, and some sectarian Shia fighters. It is possible but unlikely 
that Kurdish forces will directly support Iraqi Army advances into the 
mostly Sunni city of Mosul. It is even less likely they will support 
offensive thrusts further west into the almost wholly Sunni province of 
Anbar. They are most interested in protecting the Kurdish north. 
Similarly, Shia fighters are most interested in protecting their 
sectarian cantonments in Diyala and other mixed provinces. While some 
Shia militia may accompany Iraqi Army units west, their presence will 
only serve to reinforce the increasingly widespread--if perhaps 
exaggerated--belief amongst Sunni that the Iraqi Army is a Shia-
dominated, Iranian-directed force bent on eliminating Sunni Arabs. 
There are limits to Iraqi collaboration.
    Second, the offensive capability of the Iraqi Army is questionable 
at best. They may well be able to mount a successful campaign into 
Mosul and Anbar, but it is more likely that they will move slowly, 
haltingly, and that they will have insufficient force to overcome 
hardened urban objectives. They remain, as some experts have noted, 
logistically challenged; this problem will require years of 
remediation. Iraqi special operations forces that have carried out the 
most aggressive and successful actions against Sunni insurgents are 
exhausted from nearly a year of constant combat, and they are too few 
in number to generate the kind of combat power necessary to seize a 
large urban area like Mosul, Fallujah, or Ramadi.
    And third, the Iraqi Army is not structured, trained, or inclined 
to conduct the kind of thoughtful counterinsurgency campaign that 
appears necessary in the Sunni provinces. Instead they are likely to 
conduct the kind of counterguerrilla campaign they executed in Anbar in 
the first half of 2014. Counterinsurgency campaigns are designed to win 
support of the population by building government legitimacy and 
applying force in careful measure. Counterguerrilla campaigns are 
designed to kill guerrillas, or in this case IS. In early 2014 Iraqi 
Army units conducted Vietnam War era ``sweep and clear'' missions 
across Anbar province with very little success. When they moved against 
the insurgent stronghold in Fallujah they used excessive force and 
still failed to retake the city. Surely they will be more successful at 
killing IS fighters with coalition air support and intelligence, but 
they will probably be no more successful at winning popular support 
than they were earlier this year.
    There are also aspects of IS that will affect the likelihood of 
military success. I stated previously that they are militarily 
competent and resilient. They may collapse in the face of airstrikes 
and ground offensives, but it seems more likely that they will adapt 
their tactics and dig into dense urban areas. They will also probably 
accelerate their use of terror attacks against both military and 
civilian targets in order to weaken political support for the coalition 
and to degrade Iraqi Army morale.
    But while IS has many strengths it also has weaknesses. As pressure 
mounts against the group, and as young and unbalanced IS fighters are 
forced to manage hundreds of thousands of Sunni civilians, the 
likelihood that IS will alienate the Sunni Iraqis increases. And while 
IS may have a robust force of tens of thousands of fighters across Iraq 
and Syria, some IS fighters were either forcibly conscripted or have 
stronger loyalties to Iraqi nationalist insurgent groups like the Jaysh 

al-Rijal al-Tariqeh al-Naqshibandieh, or JRTN. These conscripts and 
nationalist fighters can be peeled away from IS with the right pressure 
and incentives. This will make the job of the Iraqi Army somewhat 
easier.
     what about the tribes? considering a second awakening movement
    There are challenges to an Iraqi Army offensive, even if it is 
supported by coalition airstrikes and intelligence. But there are three 
proposed legs to the anti-IS military plan: airstrikes, Iraqi Army 
operations, and Sunni popular support. Ostensibly the Iraqi Government 
and the coalition will try to rally Sunni support to turn against IS 
and, at the very least, defend their local areas to create space for 
the Iraqi Army to maneuver. Some hope to see a reprise of the 2006-08 
Awakening Movement. A mass Sunni uprising against IS would probably 
shift the balance of power in favor of the government and might rapidly 
push IS back across the international border to Syria. Indeed, this 
uprising, or revolt against IS is central to the possible solution I am 
laying before you this afternoon. However, it is important to eliminate 
misconceptions about the first Awakening movement before trying to 
encourage a second.
    Conditions in 2006 and early 2007 were perfect for an Awakening. 
AQI had alienated the population, the U.S. had demonstrated its 
commitment to the Iraqis by announcing a surge of troops, and the Iraqi 
Government pledged millions of dollars in reconstruction support to 
Sunni areas stricken by years of heavy combat. Finely tuned special 
operations targeting raids kept the insurgents on their heels while 
U.S. infantry and armored forces created safe zones for civilians and 
for burgeoning yet vulnerable Sons of Iraq militias. Prime Minister al-
Maliki offered reconciliation to the Sunni and seemed to prove his 
nonsectarian bona fides by moving against Shia militias. And probably 
millions of dollars changed hands through local reconstruction deals 
and direct payments to fund and motivate Sunni militia leadership.
    What did not happen is just as important as what did happen. While 
Sattar Albu Risha did lead the Awakening council and was a charismatic 
figure, he was not a unifying figure for all Sunni nor did he generate 
the Awakening. At no point did U.S. interlocutors find ``the right 
person'' to talk with, thereby energizing a Sunni revolt against AQI. 
Instead, Albu Risha was a convenient public face for a broad grassroots 
shift in popular sentiment. And while the U.S. troop surge played an 
important moral and physical role in defeating AQI, the troop surge was 
not the critical component in the Awakening. While it would have been 
far more difficult, and would have taken longer, it is possible that 
the Awakening might have succeeded against AQI even with less U.S. or 
coalition support. Iraqi Sunni are competent and sometimes aggressive 
fighters. They nearly ejected the coalition from Iraq, and perhaps 
ultimately they could have ejected AQI from Sunni-dominated areas.
    Conditions today are different in several critical ways. IS has 
alienated many Sunni, but it still has some support in various Sunni 
areas. There are some strong local Sunni leaders and even potential 
national leaders, but the Sunni political class is badly fragmented. 
Even tribal leaders have very limited influential power over their own 
tribal members, and many tribes are if anything more divided than they 
were in 2006. There are no U.S. ground troops to create ``oil spots'' 
of stability for fledgling militia forces, and ostensibly none of the 
supremely capable U.S. special operations direct action forces will 
help pick apart IS leadership in the dense urban or maze-like rural 
swathes of Anbar. Most importantly, though, is the absence of proof--so 
far--that the new Prime Minister of Iraq, Haider al-Abadi, is serious 
about reconciliation.
    Finding ``the right person'' to talk to amongst Iraq's Sunnis and 
handing over bags of cash to stand up militias or encourage Sunni to 
join a new national guard may lead to real short-term tactical success 
in some Sunni areas of Iraq. There may be visible signs of Sunni 
resistance against IS as tribal leaders come to the fore and, cash in 
hand, pledge to work alongside the Iraqi Army. It is possible that over 
time, with coalition airpower, the Iraqi Army and Sunni militiamen may 
be able to push IS out of Iraq without national reconciliation of any 
kind.
    Ultimately, though, this quick tactical approach is likely to 
perpetuate rather than reduce instability in Iraq. While the world 
focuses on IS, it is important to remember that IS floats above the 
Sunni population and does not represent enduring Sunni grievances or 
narratives. There is an ongoing Sunni revolt against the Iraqi 
Government that, if not addressed, will continue even if IS is ejected.
    In this event the second Awakening is likely to end in the same way 
as the first: with armed, angry Sunni fighters turning against the 
government in a recurring cycle of violence.
    I propose there is a way to encourage the Sunni to turn against IS 
in a way that will be more tactically effective, more cost effective, 
and ultimately more enduring than inducing quick and temporary 
allegiances with cash and military aid. I also propose that this 
approach will obviate the weaknesses inherent in a primarily military 
or counterterror approach to the IS problem.
     reconciliation is the best and least costly option for success
    The Iraqi state that existed in early 2014 now exists only in the 
Iraqi Constitution. There is a de facto split of Iraq along 
ethnosectarian lines: Sunni, Shia, and Kurd. It may or may not be 
possible to bring the Kurds fully back into the Iraqi state. Chances 
for successful Sunni-Shia reconciliation are probably quite low. 
However, my interactions with Sunni Iraqis since 2003, and my targeted 
research on Sunni Iraqi perceptions over the past year indicate that 
all strata of the Sunni Iraqi population wish to remain within the 
state.
    They tend to view their revolt against the government as an anti-
Iranian rather than an anti-Shia movement. Most are nationalists who 
believe they should play a prominent role in the central state. 
Further, the natural resources in the Sunni provinces are 
inconsequential in comparison to Kurdish and Shia resources, and Sunni 
do not believe decentralization will result in equitable sharing. While 
they want more local power, they do not want to be permanently 
marginalized and disenfranchised from the state. It is therefore 
possible to leverage Sunni nationalism to foster lasting 
reconciliation.
    One approach to Sunni reconciliation would be through negotiation. 
This might require finding a charismatic Sunni leader who represents a 
large majority, or at least large plurality, of the Sunni population. 
His influence would have to be sufficient to encourage tens of 
thousands of Sunni to turn against IS. As of late-2014, though, this 
leader has not emerged and the Sunni do not seem disposed to follow a 
single political figure. Another approach would be dispersed 
engagement, with coalition and Iraqi leaders fanning out across Iraq to 
drum up local support. I argue this approach will lead to tactical 
success but strategic failure. Instead, I propose that only intensive, 
one-sided national reconciliation efforts aimed at the broad Sunni 
population will lead to lasting success.
    Earlier this month Prime Minister al-Abadi enumerated a list of 
grievance resolution measures he intended to take in order to win Sunni 
support. These include general amnesty for innocent Sunni caught up in 
the counterguerrilla campaign, a depoliticized justice system, 
amendments to antiterror laws, reconstruction of damaged Sunni areas, 
the formation of a National Guard, and increased regional authorities. 
Sunni leaders have listed other grievances and want the immediate 
release of all female prisoners and Sunni politicians, restoration of 
full retirement pay for former regime officers, and other measures to 
reduce the impact of de-Ba'athification laws that have been used to 
target Sunni leadership. Some of these actions will require political 
ratification, but others will not.
    President Obama and senior administration officials have correctly 
stressed that success against IS is dependent on Iraqi reconciliation 
and on positive Iraqi leadership. Prime Minister al-Abadi has a window 
of opportunity now, in the early stages of the campaign, to make 
unequivocal moves toward genuine reconciliation. The coalition should 
encourage him to enact all grievance resolution measures within his 
authority in one fell swoop. This action, which should include prisoner 
releases and the real-time transfer of money for reconstruction and 
retirement pay, would demonstrate that he is taking a different path 
than his predecessor. At this point in the year-long Sunni revolt, only 
real and dramatic action on the above-named fronts will be sufficient 
to convince the Sunni that the more tangible things--cash payments, 
equipment--are part of a broader strategy to reunite the state.
    Following this top-level Iraqi action, all coalition activities 
should be predicated on reconciliation. Every engagement should hinge 
on some kind of local or regional reconciliation measure, and every 
tactical military action should be planned to preserve and improve 
relationships between the Sunni and the state. This may mean taking 
some tactical risk, including strictly limiting damage to Sunni urban 
areas and curtailing aerial targeting. Advisors will find themselves in 
difficult positions as they attempt to rein in Iraqi Army air and 
artillery support. This approach will certainly preclude the use of 
Shia and Kurdish militias in support of Iraqi Army combat actions in 
Sunni areas. Reconciliation first and foremost, in conjunction with 
coalition support, and Iraqi military and government efforts must be 
woven together into a holistic strategy with a definitive envisioned 
end-state.
    There are many hurdles to successful reconciliation. Divisions in 
the Sunni polity will continue to undermine Sunni cohesion and may 
hinder efforts to develop militia support. Prime Minister al-Abadi may 
not be willing or able to make the kind of dramatic measures necessary 
to gain Sunni trust. And IS and some of its allies will probably make 
every effort to foster discord between Sunni and Shia in order to 
maintain Sunni support. They already conduct terror attacks that seem 
designed to deepen the divide between Sunni and Shia Iraqis. However, 
there are also some positive underlying factors. While there are 
divisions between Sunni and Shia Iraqis, there are also strong inter- 
and intra-tribal bonds between the two sectarian groups. Sunni leaders 
I have spoken with in the last year repeatedly emphasized their belief 
that Sunni and Shia Iraqis are first and foremost Iraqis.
                               conclusion
    As I stated earlier, chances of genuine and lasting reconciliation 
in Iraq are admittedly low. However, reconciliation also offers the 
best and perhaps only chance to reconstitute the admittedly limited 
successes of Operation Iraqi Freedom and Operation New Dawn. Absent 
reconciliation we can expect lasting instability in Iraq. We may 
physically defeat IS, but the ideas that cause young Iraqi men to 
support groups like IS and al-Qaeda will live on. The group name will 
change--there were over 100 identified insurgent groups in Iraq during 
the 2003-11 war--but the violence will continue to destabilize the 
region, give space for international terror groups, and deprive 
millions of Iraqis of even a modicum of normal life.
    Stopping IS now is wise; current anti-IS actions should be applied 
aggressively to keep the group on its heels. In the case of IS, 
military force is necessary. Yet addressing root causes of any 
insurgency is also historically proven to be the best and most lasting 
way to defeat insurgent groups. Leveraging reconciliation--and using 
military force to support reconciliation rather than using 
reconciliation to support military force--seems to be the least costly 
and possibly the only way to defeat IS in Iraq and stabilize that 
country.

    The Chairman. Well, thank you both for your testimony. 
Ambassador Ford, let me start with you. One of the main 
arguments that the administration has presented in addressing 
members of Congress' concerns about the vetting for the 
fighters that we seek to train and equip--the so-called 
moderate vetted Syrian rebels--is we know them. We know them. 
And I can tell you that as this issue has come forward that I 
am constantly called by colleagues for which this is one of 
their central questions--not their only question, but it is one 
of their central questions, particularly as this vote comes up.
    So my questions to you are: do we really know these 
fighters would receive U.S. training and equipping if Congress 
provides the authority? And are there enough willing, capable 
fighters that would pass U.S. vetting standards, do you 
believe?
    Ambassador Ford. The answer to the second question is a 
simple, yes, there will be enough. Actually the problem has 
always been, Senator Menendez, that there have been more 
willing fighters in the Free Syrian Army than they have 
material guns, ammunition, et cetera.
    So a different question is, do we know them? Two things I 
would say. First, we do not know all 1,500 groups because some 
of the groups are just two or three guys and, you know, they 
have a video camera, and, wow, you are, you know, a group of 
freedom fighters. There is actually a pretty small number of 
serious groups, and when I say ``serious,'' I mean that have a 
thousand, two, five, 7,000. That number of groups is actually 
pretty small. It would not pass more than about 15 to 20. Funny 
how that is never mentioned in the press.
    Those groups, we do not work with all of them. Some of them 
are beyond the pale politically in terms of not being moderate 
the way I mentioned, like Ahrar ash-Sham, which has sectarian 
tendencies and might well try to impose a state. And that is a 
big group. So I have met Ahrar ash-Sham, but we do not in any 
way provide assistance to them.
    But the other groups and the ones that, for example, the 
State Department was providing nonlethal assistance to, yes, we 
know them. Not a secret that I have met them on occasion in 
places like Turkey, and I went over the border and met them in 
Syria about 14 months ago. We know them, and we have talked 
politics with them. We have talked about the Nusra Front with 
them. Those, I think, we know, and we have had more experience 
just in the last 7, 8, 9, 10 months with them as well. So I 
think the groups that we need to help that will have an impact 
on the ground, we know them.
    The Chairman. Okay. So we know them, and you believe that a 
sufficient number of capable fighters would pass U.S. vetting 
standards.
    Ambassador Ford. Yes, I feel very strongly about that.
    The Chairman. All right. Well, that is very important to 
know. Now, in an article in Sunday's New York Times, there was 
a report that said, ``Mr. Assad and his closest advisors have 
looked at the American decision to undertake anti-ISIL military 
strikes in Syria as representing a victory for their 
longstanding strategy, which is obliterating any moderate 
opposition to its rule, and persuading the world that it faces 
a stark choice between him and the Islamist militants who 
threaten the West.''
    How do we respond to those who raise that concern? How do 
we prevent Assad and his Iranian- and Russian-backed forces 
from seizing back territory from ISIL after military strikes, 
further squeezing the moderate vetted Syrian rebels?
    Ambassador Ford. Two comments on that very quickly, 
Senator. First, Assad does not have enough forces. He has been 
seriously depleted. That is why he could not hold the air base 
in Tabqa, for example, where they actually flew some of their 
senior officers out and then left hundreds of their soldiers to 
be murdered by the Islamic State of Iraq and Levant. And they 
could not hold other parts of eastern Syria, for example.
    He does not have the troops to put back in. His forces are 
very stretched. He was depending a lot on Hezbollah and Iraqi 
Shia militia. The Iraqi Shia militiaq has flown home to deal 
with ISIL inside Iraq.
    So I would not worry so much, especially in north and 
eastern Syria about Assad benefiting very much. The moderate 
armed opposition will benefit greatly more, especially as they 
try to secure their supply lines. It is interesting to me that 
ISIL is trying to cut their supply lines coming down from 
Turkey. So they need to--they need help to secure those lines.
    One other comment about Bashir al-Assad. I think his 
strategy all along has been to sort of destroy the political 
opposition--the moderate political opposition and the armed 
fighters attached to it. If we do not go forward on this 
proposal to help the moderate armed opposition, I think he will 
say indeed my strategy is working, the Americans will come 
around and eventually deal with me. And that will actually make 
it even harder to get a resolution to the Syrian crisis.
    The Chairman. Which is, in part, why we had an 
authorization in the committee a year ago, which supported your 
view. Part of what I want to do here is try to get some of the 
concerns of my colleagues responded to by virtue of your 
expertise.
    Secondly--thirdly, the authorization language submitted by 
the administration in order to stand up, train, and equip the 
effort for the Syrian moderate opposition articulates three 
purposes: one, defending the Syrian people from attacks by ISIL 
and the Syrian regime, facilitating the provisions of essential 
services and stabilizing territory controlled by the 
opposition; two, protecting the United States, its friends and 
allies, and the Syrian people from the threats posed by 
terrorists in Syria; and, three, promoting the conditions of a 
negotiated settlement to end the conflict in Syria. Do you 
agree that those should be the stated purposes? Would you 
change or add anything to them?
    Ambassador Ford. Sorry. I had not seen the language. Yes. 
These seem reasonable to me, but I would just caution that 
getting to negotiations is going to be a very long and hard 
process. I would not want to pretend that we could get there 
quickly. Geneva was a bad failure, and until the regime feels 
more pressure--it is already under pressure. What is 
interesting is in Assad's own community now, there are 
demonstrations against him. There is a whole campaign called 
Sarkhet al-Watan--``Scream of the nation''--just criticizing 
Assad for keeping his throne, they call it, and sending young 
Alawis to their graves. So there is--there are cracks which we 
did not see before. But I do not think this is going to be 
fast, Senator.
    So the first goal of containing and starting to roll back 
ISIL and defending the Syrian people, and also as well 
protecting us, those are in the short term things we have to 
work on right way. Negotiations are going to come later.
    The Chairman. Right. And do you think--I think--oh, Senator 
McCain is back, so he is probably going to ask this question on 
his own, but I think it is an important one. Do you envision 
the moderate vetted Syrian rebels understanding that if we are 
training and equipping them with our focus being ISIL that they 
will look toward that fight even as their main goal is to 
displace Assad?
    Ambassador Ford. Absolutely they will for two reasons. One, 
the Islamists, or ISIL, is actually threatening their supply 
lines right now, and has butchered hundreds of members of the 
moderate Syrian opposition, and I mean butchered. Cut their 
throats, video, the whole nine yards. So there is no--there is 
a lot of bad blood between them. That is the first reason.
    The second reason is, in places where ISIL was in 
authority, especially in northwestern Syria in the Idlib 
province, there was a popular reaction against them. And that 
public popular support helped the moderate armed opposition 
actually eject ISIL fighters out of that province. And also the 
same thing happened in Aleppo to the west of the city.
    There was also an uprising, Senator, a very big uprising 
against ISIL. In Deir ez-Zor province, an entire tribe, called 
Shaitat tribe, rose up against them, but they did not--they did 
not get any help. And that is not a criticism of us per se, but 
they just--they lost a military battle, and ISIL killed--I have 
seen estimates of as many as a thousand of the tribesmen 
afterwards in retaliation. So there will be constant problems 
and fighting between the moderate armed opposition and ISIL. I 
do not see any way that that is going to end.
    Syrians just in general are Mediterranean people, and they 
do not go for this kind of very heavy duty, conservative Salafi 
type state. They are just not that kind of fundamentalist 
religiously.
    The Chairman. Well, these insights are very important. Mr. 
Connable, I do have questions for you, but my time has run out. 
In deference to my colleagues, I will come back to you at the 
end.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman, and, again, thank 
you for this hearing today. Thank you both for your testimony. 
Ambassador Ford, I think we have all experienced being in--or 
most of us--refugee camps looking into the eyes of Syrians who 
had counted on us to do a lot of things that we said we were 
going to do and did not do. And their brothers, and cousins, 
and uncles were butchered, and we never supported them like we 
said we would.
    You actually encouraged them out doing your patriotic duty. 
We encouraged them out. And, in fact, we did not follow up with 
much that they thought was coming, and when we did, it was 
delayed. And I want to thank you for your service also and your 
leadership in Syria. And I think all of us on this panel 
probably wish to do so.
    My question to you is, what is the mentality now of the 
Syrian opposition having seen, you know, promised support, it 
not being what was envisioned? What is their mentality, their 
attitude, toward the United States right now relative to 
helping them, if you will, against Assad?
    Ambassador Ford. Senator Corker, thank you. First, just a 
comment to be clear on the record, we did not encourage, and I 
certainly as Ambassador did not encourage Syrians to protest. 
But I did defend their right to protest peacefully. And, in 
fact, when I was in the country I said, do not resort to 
violence because it will cause problems even for us if you do 
that. That is ancient history. But just to be clear what we 
did, we did not encourage them out, but we absolutely stood for 
their right to protest peacefully in accord with rights under 
the U.N. Charter for Human Rights.
    What is the mentality of the Syrian opposition now toward 
us? I think you and I both know that there is a lot of 
bitterness. Two hundred, maybe more--200,000 maybe more have 
died. I think there is very great anger that the United States 
did not intervene militarily to stop that. There is a belief 
that we could have stopped it. I am not sure that belief is 
accurate, but in any case it is widely held. And so, we have a 
credibility problem, and we have a credibility problem, Senator 
Corker, with some of these groups even.
    You do not regain credibility overnight. It is based on new 
shared experiences. And so, were we to go forward with the 
administration's proposal, and I certainly hope we do, I think 
with the passage of time, credibility and confidence can be 
restored. But I think it will be bumpy at the start.
    Senator Corker. One of the things that people--thank you 
for that. One of the things--one of the things that people have 
said, and by the way, I strongly supported, as most people did 
here, arming, especially back in May, but even before, a year 
and a half ago. And I think we might be in a different 
situation, and I would say we would be in a different situation 
today if we had taken action at a more--at a better time. I 
still support what is getting ready to happen, although I have 
a lot of questions relative to the moderate opposition being 
trained and armed.
    Some people have said who have been close to this issue 
that there are not enough--I know you answered a question 
specifically to Menendez, but there are not enough, and it is 
very difficult and expensive to train these people, that 5,000 
troops over the next year, short-term training in Saudi Arabia, 
getting more sophisticated weapons after they have proven 
themselves on the ground is something that is not going to be 
particularly effective. Could you respond to that?
    Ambassador Ford. Syria is a big country, Senator, and 5,000 
is not a lot for a country that size. The Syrian armed 
opposition, however, is a lot bigger than 5,000. I think the 
latest numbers I have seen for the non-Nusra, non-ISIL groups 
is still in the range of 80 to 100,000. I think most people now 
are saying it is more on the lower end of that, so say 80,000. 
Some say higher. The Islamic State--you probably saw the same 
things in the press I did. They have somewhere 20 to 30,000, of 
which some are in Iraq and some are in Syria.
    So it is not as if the 5,000 would be the only ones on the 
field. I think there will be a lot of others on the field. And 
although we are not helping some of the harder line Islamist 
groups, like Ahrar ash-Sham, Ahrar ash-Sham is also fighting 
ISIL right now, and ISIL killed a number of Ahrar ash-Sham 
prisoners. And so we are not in that exact fight, and the 
groups that we have helped are not in that fight. But there are 
other people also fighting the Islamic State. So I do not look 
at it as only 5,000.
    Senator Corker. Knowing what you know about the way things 
are on the ground, is what is being laid out something that 
will evolve into an effective ground strategy, or are there 
additional components that you knowing the country the way you 
do are necessary--if we really want to destroy and defeat ISIL 
are necessary to make that happen?
    Ambassador Ford. I would think we are going to get into a 
longer-term relationship with some of these groups that I 
mentioned. It needs to be really carefully coordinated with 
other countries in the region that have been funneling in help. 
And it has got to be centralized in a way, Senator. There is 
too much stuff going to too many disparate groups, and it 
actually has made the job of the armed opposition much more 
difficult. So we are going to have to be pretty tough with some 
of our regional allies. That is on the diplomatic political 
side.
    On the ground, Senator, as ISIL is pushed out of places, it 
will be really important to try to get help into the civil 
administrations. The Syrian Government will not go into those 
places. And, again, these are in a sense the political side of 
the opposition linked to the moderate armed opposition. And so, 
the State Department has worked in some places with these 
people, and I think there is going to have to be a dedication 
of resources and program money to backfill as ISIL is pushed 
out of places so that the lights stay on some hours a day, so 
that there is clean water some hours of the day, maybe so 
schools can reopen in some places, that kind of thing.
    Senator Corker. Just one more question. I know time is 
short. We put a lot of stock in Idris, and many of us got to 
know him, and yet we did not support him. We left him hanging. 
Trucks that were supposed to be delivered to him were delivered 
months late. The things--I mean, it was almost like a--I do not 
even want to use the word because it is just a negative 
connotation toward the activities that we undertook. Has there 
been a command and control established for the moderate 
opposition that is workable after we, in essence, again, 
undermined by not really doing the things we said we would do, 
not that Idris was General Patton. But do we have someone 
there, an organization there, that has the ability to deal with 
command and control?
    Ambassador Ford. I think this is a question that you will 
want to be asking as you go forward. You are right, Idris was 
never empowered not only by us, Senator, but by other regional 
states that were funneling assistance in. And so, he was always 
in a very difficult position. And I think going forward, if we 
want the moderate armed opposition to be successful, we are 
going to have to figure out a way to get a more centralized 
command structure. And aid goes through that structure, and all 
countries must support that structure and not help friendly 
group over here or friendly group over there.
    The Chairman. Senator Rubio.
    Senator Rubio. Thank you. Thank you both for being here, 
and thank you, Ambassador. A couple of points that I wanted 
to--first, I do not want to go back in time simply for purposes 
of pointing fingers or saying who was wrong and who was right, 
but I think it is important to learn lessons from this.
    It was my impression early in this conflict that when this 
arose, and by the way, it is important to remind everyone that 
this was not a U.S.-instigated thing. These were Syrians who 
wanted to get rid of Assad. And in the initial stages, the 
rebellion were Syrians, but the lack of--the decision not to go 
in and empower them early created a vacuum that attracted 
foreign fighters from all over the world to kind of pour in and 
take advantage of that situation.
    In your opinion, had we been more forceful early on--if we 
could go back two and half years in time knowing what we know 
especially and had empowered those groups early on to be more 
capable, do you think that it is possible that you would--that 
that space that was left there for ISIL may never have existed? 
In essence, having a more forceful group on the ground, you 
know, the Syrian military defectors early on would have closed 
off the opening for some of these more radical foreign fighters 
to be able to come in and take advantage of the chaos on the 
ground?
    Ambassador Ford. Senator, I do think that. I have said that 
publicly before. And in particular, three things: cash, 
ammunition, and food. And had more of the moderate groups I am 
talking about that are not seeking to impose an Islamic state 
by force, had they had these things--cash, ammo, food--in 
greater supplies in, say, second half of 2012, it would have 
been very hard for Nusra to gain recruits. I heard that 
repeatedly from members of the Syrian opposition, including 
from the Free Syrian Army, that they could not pay salaries. 
The other guys could.
    I would say, well, I mean, you are a liberation movement; 
why do you need salaries? And they would say, you have got to 
understand, the fighters have families. They have got kids. 
They have got parents they have to take care of. So, yes, if 
there had been more back then, I think the problem today would 
be smaller, but I am encouraged at least that now I think there 
is an understanding of that. And if this program goes forward, 
I think that will actually help reduce the recruiting of ISIL 
and Nusra.
    Senator Rubio. Now, the second question I wanted to ask, 
and it touches upon a theme that Senator McCain has also 
explored is, so these groups that are on the ground that we 
want to work with now, as you said in your testimony, the 
biggest threat that they face, the people who are targeting 
them right now the most, although they will fight ISIL. But the 
group that is doing the most damage to them militarily is 
Assad.
    It seems from here to appear to be that Assad is 
undertaking a very deliberate strategy of trying to wipe out 
what we could call moderate forces so that the world is left 
with a very simple choice: if you want to defeat ISIL in Syria, 
you have to align yourself with Assad. He is the only 
alternative to them, if he can wipe these more moderate groups 
out.
    And then, in fact, it seems like over the last few hours, 
days, and weeks, he has ramped up the effort to wipe them out 
in pursuance of that strategy. Do you agree that is the 
calculation he has made? And, if so, how could any effort to 
equip and empower and capacitate these groups, how could any 
effort to do that be successful if we do not protect them from 
the assault that is being undertaken against them?
    As I asked the Secretary when he was here, I guess, 2 hours 
ago now, when I asked him questions, there may not be anyone 
left for us to arm or train if Assad is continued to be given 
free rein to target them and try to eviscerate them.
    Ambassador Ford. I do think that is Assad's strategy, and I 
think it is very evident. Just kind of looking at what he is 
doing day by day, it is clear. I do think the moderate armed 
opposition has some staying power, and if the administration's 
proposals are adopted and go forward, I think that will help 
bolster them, and they will be in the field for the long term.
    But absolutely they are going to fight Bashir al-Assad. I 
think the idea that they would somehow turn away from that 
fight, the original fight, and focus solely on ISIL is simply 
not realistic.
    Senator Rubio. Well, they cannot ignore the fact they are 
being attacked.
    Ambassador Ford. Right, precisely. And in the end, I talked 
about the bad blood between ISIL and the armed moderate 
opposition, but there is plenty of bad blood between them and 
the Assad regime, too, not to mention the airstrikes you are 
talking about.
    I do take heart, Senator Rubio, that the armed moderate 
opposition, I think they have gotten more supplies, though. I 
am not sure where from. But they have been making some gains on 
the ground, and, in particular, against the Syrian regime, and 
in particular, up in the area between Damascus and Aleppo, Hama 
and Homs up there. There is a lot of heavy fighting, and also 
along the Lebanese border in a place called Qalamoun where the 
moderate armed opposition suffered a big defeat in May and June 
2013. They have actually retaken a lot of those places. And I 
think part of it is Hezbollah had to re-deploy to other places, 
and this just goes back to the manpower shortage of the regime 
itself.
    So as we go to the American people and we make the argument 
we need to do this, and I am in favor of doing this. I have 
actually called for this for quite a while, and I was part of 
those on this committee that voted to do that a while back. The 
American people best understand when they--either a face or a 
name that they know. Right now it is just kind of a generic 
term, ``moderate rebels,'' but we do not know who they are. And 
in the absence of being able to point to who they are, it 
leaves it open to all sorts of misinformation that I have seen 
in the press, including from members of Congress who have made 
claims that, quite frankly, are not only inaccurate, but 
outrageous with regards to who some of these groups are and who 
we would be working with.
    Could you help navigate a couple of the organizations? I 
mean, I know there are some groups out there that we have 
heard. The Steadfastness Movement is one. I do not know if you 
are familiar with them. Harakat Hazm, but other groups like 
this. I mean, I do not know if that is the right example, but 
who exactly are some of these groups that you think fit the 
bill of what we would look to work with?
    Ambassador Ford. Yes. So let me--I will just very quickly 
name a few, and they are in my written testimony, and I am 
happy to provide members of your staffs more information later. 
Harakat Hazm, the Hazzm Movement, which operate mainly in 
northern Syria, but also has fighters in the south. They are 
one of the groups. They actually are kind of more or less 
fighting the Nusra front right now, as well as the Islamic 
State and the regime. And so, they are in it up to their 
eyeballs.
    There are two units of the moderate opposition that are 
mainly officered by recently defected Syrian army officers. One 
is called the 101st Division, although I do not think it has 
anywhere near a division's worth of men. I think it is in the 
range of 3,000 to 4,000. The 101st--it is kind of ironic--too 
bad Dave is not here. And then the 13th Division as well, 
again, led primarily by recently defected army officers.
    You might remember, Senator Rubio, there was a Syrian air 
force pilot who flew his plane to Jordan a couple of years ago. 
That pilot is the commander of the 13th Division now. But it is 
not a division in terms of, like, 14, 15,000. There are a 
couple of thousand.
    The Chairman. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman. Ambassador Ford, 
you mentioned a word that really--I really want to be the crux 
of my questioning, is ``credibility.'' I want to explore the 
credibility of our commitment and the credibility of our 
strategy.
    So, first of all, in my questioning of Secretary Kerry, I 
quoted the President when he said that ``Our safety, our 
security depends on our willingness to do whatever it takes to 
defend this Nation.'' And, of course, by taking off--a number 
of options off the table, I certainly am concerned about that, 
the credibility of our commitment.
    What is your view in terms of our potential coalition 
partners? I mean, they are listening to this as well. Do they 
feel there is any credibility to our commitment to the defeat 
of ISIS?
    Ambassador Ford. I think the meeting in Riyadh was really 
interesting--I am sorry--in Jeddah. I was really struck that 
the Saudis brought the Iraqi Foreign Minister there, and that 
was something when I was working in Iraq for 5 years under--
during the war with all of our ambassadors there, we could 
never get the Saudis to do that. Never could get the Saudis to 
do that. So I think that is a change, and it is significant. It 
is symbolic, but it is a start.
    I think ultimately, Senator Johnson, our credibility by 
countries in that region--Saudi, Emirates, Qatar, Turkey--will 
be judged by what we do ourselves in the next few weeks and 
months. If the proposal to help the Syrian armed opposition 
does not move forward out of Washington this week and then gets 
bogged down, I think our credibility will suffer not only with 
the Syrian opposition, but it will suffer with countries in the 
region.
    Senator Johnson. So let me quickly ask, is it true that the 
Saudis are willing to base as well as pay for that training 
effort?
    Ambassador Ford. I have not received any classified 
briefings since I left government, Senator Johnson, but it 
seems everything I am seeing in both Arabic language media as 
well as English language media says it is the case.
    Senator Johnson. I mean, if that is the case, then let us 
face it, the moderate-vetted Syrian rebels will be armed and 
trained. So would it make sense--that being the case, would it 
not be better for the United States to be involved in that 
training, especially if we do not have to pay for it?
    Ambassador Ford. Completely. Totally.
    Senator Johnson. Okay. Again, I think that is the political 
argument for voting for that authorization.
    Ambassador Ford. I am assuming--again, I have not received 
any classified briefings. You all will know more than I do, but 
I am assuming that there will be U.S. personnel working on this 
with Saudis and other coalition partners in Saudi Arabia.
    Senator Johnson. Yes, I would just make that point 
because--I make that point. I understand our colleagues' 
concern about who are we really training, but they are going to 
be trained anyway. I would rather be involved in that process, 
probably reduce the chance that the wrong individuals will be 
trained by whoever.
    Ambassador Ford. We will be much safer from ISIL in the 
future if we lead this effort rather than hand it off to 
someone else.
    Senator Johnson. Mr. Connable, you have been sitting here. 
There you go. I do want to actually utilize you in the 
testimony here. I want to really talk about the credibility of 
the strategy. From my standpoint, there is really two major 
steps to the offense. I mean, first of all, it is to drive ISIS 
out of Iraq and secure Iraq again, and then, of course, we have 
got the whole mess in terms of Syria.
    Let us go back in history. I think both you gentlemen were 
there in Iraq during the surge. We had Brett McGurk before us, 
and I was just trying to kind of put this thing in context 
using some numbers. We had about 68,000 Al Qaeda in Iraq at 
that point in time were the estimates, and we had 130,000--
surged over 160,000 U.S. troops to defeat Al Qaeda in Iraq. Now 
we have got 31,000 ISIS. We have 1,500 noncombat troops on the 
ground. We have got an Iraqi Security Force. We have the 
Kurdish Peshmerga. How credible is it that we are going to be 
able to, first of all, just get ISIS out of Iraq with that 
force?
    Mr. Connable. I would start by saying I do not put a lot of 
credence in the numbers that we had either in the first Iraq 
war that we have now. I do not believe we have any degree of 
accuracy there, so assuming we are within some kind of order of 
magnitude there.
    I do not think the key to this in 2006, 2007, and 2008 was 
necessarily the surge. The announcement of the surge helped 
strengthen our allies on the ground. Really I believe it was 
the Sunni population turning against Al Qaeda in Iraq that was 
the key to victory there. And I think that is going to be the 
key to victory now.
    So whether there are 10,000 IS in Iraq or 30,000, I think 
over time that becomes less relevant when you look at how much 
territory they have to control. If that is hostile territory, 
they are going to have a real hard time doing that. Just 
bombing them and trying to drive them out with Iraqi army 
units, I think our chances are much lower.
    Senator Johnson. So which gets you basically to your point 
that the key here is reconciliation between the Sunni and the 
Shia in Iraq. And I guess the question I wanted to ask either 
one of you or both of you--I am trying to think of the exact 
term you used--the grievance resolution measures. Is the Shia 
government threat enough to actually do what you think is 
necessary to pass those grievance resolution measures to bring 
the Sunnis back into the government?
    Mr. Connable. Frankly, I think the chances of 
reconciliation are low. I think it is the best strategy, and it 
is probably the one that is going to lead to long-term success. 
But Haider al-Abadi is in a very difficult position. He has got 
the Iranians there providing direct support. They have no 
enthusiasm for reconciliation with Iraqi-Sunni. He has got 
other fragmented elements of the Shia polity that he has to 
deal with. They just voted down a couple of his nominations for 
key posts in his cabinet. So I do not hold out a great deal of 
hope, but I do think that that is where we need to put all our 
emphasis.
    Senator Johnson. So in other words--go ahead, Ambassador 
Ford.
    Ambassador Ford. I totally agree with what Ben said, that 
the key to the success in Iraq back in the period 2007, 2008, 
2009 was getting Sunni Arab support. The presence of our troops 
was vital, but the most important part, the key part, was to 
get the buy-in from the local populations.
    Just one little thing on your question about are the Shia 
today, 2014, are they sobered. Ben is absolutely right. The 
nominees for Defense and Interior Minister are such sensitive 
positions in the cabinet that were just disapproved by the 
Iraqi Parliament yesterday. Not a good sign. However, I have 
also seen Prime Minister al-Abadi say they will not send the 
Iraqi Army deep into Sunni regions again, and that they are 
going to try to build a national guard. I have seen him say 
that.
    So I think now what they are arguing about in Iraq, if I 
understand it is, who do they trust enough from among the Shia 
and the Sunni to do that mission. So the proof will be in the 
pudding. Having spent 5 years in Iraq, I have learned to trust 
nothing at first look. But I at least was encouraged that Abadi 
said we will not send the Iraqi Army deep into the Sunni 
province. Again, we will get a national guard.
    Senator Johnson. Okay. I have got a lot more questions, but 
I am out of time. So thank you.
    The Chairman. Senator McCain.
    Senator McCain. I thank the witnesses, and I thank you, Mr. 
Connable, for being here. And, Ambassador Ford, thank you for 
your outstanding service. Mr. Connable, if I have got you 
right, the Iranians are in a position of significant influence 
in Baghdad right now, is that correct?
    Mr. Connable. I believe that to be true.
    Senator McCain. That cannot be good for our interests over 
time.
    Mr. Connable. I agree with you.
    Senator McCain. And another legacy of total withdrawal.
    Mr. Connable. I think that would have happened anyway. I 
think it was exacerbated by the fact that the western and 
northern parts of Iraq collapsed. I cannot attribute it 
directly to our withdrawal.
    Senator McCain. Ambassador Ford, is there any doubt about 
the viability if given the proper training and equipment, and 
you mentioned--my understanding is that ISIS has given them as 
much as $2,000 a month because they have got plenty of money; 
that there is no doubt in your mind about if we do it right, 
that the FSA is viable.
    Ambassador Ford. With much less support than what we have 
been giving, they have actually held ground and advanced in a 
few places.
    Senator McCain. And I share that view, and the thing that 
is frustrating to me sometimes is all of this stuff that people 
accept--they have made a deal with ISIS, they cannot fight. And 
having known them, as you have known them a lot better than I 
do, they will fight, and they need our support in order to do 
that successfully. But they are not about to become part of 
ISIS or even al-Nusra if from time to time they have to 
cooperation because of their straightened circumstances.
    Ambassador Ford. That is absolutely true that they are in a 
tough situation. A two-front war is never fun. But I am very 
impressed that they have held up as well as they have despite 
the difficult circumstances.
    Senator McCain. So in my view, I conclude that it is an 
excuse that people use, frankly, to not have us involved. And I 
do not expect you to comment on that, but here we are. Again, I 
want to sort of pursue what I was pursuing--a line that I was--
with Secretary Kerry. We are going to train them. We are going 
to equip them. But we are not going to protect them from these 
airstrikes that are so devastating to their capability--the 
barrel bombs, the helicopters, the fixed wing, which, by the 
way, as you know, is the main way for Bashir al-Assad to move 
his people and material around Iraq.
    So is it not--we are asking them to fight. We are asking 
them to risk their lives, and yet we will not give them the 
protection from the air attacks, which would be the major 
source of casualties for them. Make sense of that for me.
    Ambassador Ford. Well, I think we both know that there are 
concerns that if we provide surface-to-air missiles, that they 
will be somehow transferred to the Nusra front or to ISIL or 
something like that. One encouraging sign I take from the 
recent fighting, Senator McCain, up in Hama, which is a city 
between Damascus and Aleppo, the regime has a very important 
air base. And using stand-off weapons, mortars and such things, 
the Free Syrian Army was actually able to bring most of the air 
traffic at the Hama military airport to a stop.
    Senator McCain. I am impressed with what they do, but if I 
am a Syrian and I am being armed and trained and asked to go 
into battle, and I see that we are not giving us the capability 
even, much less the United States taking out that air power, it 
is not great for my morale.
    Ambassador Ford. Our refusal to provide surface-to-air 
missiles has been a gigantic irritant not only to the armed 
opposition fighters, but to the population in generation that 
is getting barrel bombed. There is no doubt of that.
    Senator McCain. Did you see--I am sure you saw the quote I 
gave from Secretary Gates, his comment today that we really 
cannot succeed without boots on the ground is basically what he 
was saying.
    Ambassador Ford. I did not see Secretary Gates' remarks.
    Senator McCain. Well, I guess I could read it to you again, 
but do you think that in your estimate that the 5,000 being 
trained and not taking out Bashir al-Assad's air assets, 
telling everybody that it is ISIL as if we cannot address two 
adversaries at the same time, that the chances of success 
without much more significant involvement on the ground, and it 
does not mean combat units, but forward air controllers, 
special forces, et cetera, that we are going to have to--
basically Secretary Gates was saying we are going to have to do 
that over time.
    Ambassador Ford. I think several things on this, Senator 
McCain. First, 5,000 is obviously not enough. Syria is a really 
big country. But I think there is going to be more than 5,000. 
And I think already elements of the armed opposition, excluding 
Nusra and ISIL, 80,000 plus. The 5,000 might be one of the 
better parts, and it might be the part that we would have more 
influence with. But frankly, we will have more influence if we 
provide more weapons and cash anyway.
    Second point, with respect to ISIL first or not, I just 
think realistically, of course, the armed opposition is going 
to fight Assad even as they fight the Islamic State. We would 
be foolish to think otherwise. So----
    Senator McCain. The question is, Do we help them to do 
that?
    Ambassador Ford. Well, I think we----
    Senator McCain. The way we help them to do that is you 
neutralize the air assets.
    Ambassador Ford. Yes. But we have not neutralized the air 
assets obviously, and there have been horrific barrel bombs 
attacks almost daily. We have been providing other help. We 
suffer credibility problems, Senator McCain. I am not going to 
argue with you on that.
    We have been providing other help, which they use against 
the regime. I would actually argue that help that we have 
provided has actually enabled them to make advances in places 
like southern Syria and northern Syria. And the aid has 
actually been effective that way.
    Senator McCain. And there is no doubt in your mind they are 
not going to join forces with any extremist organization.
    Ambassador Ford. As I mentioned--I am glad you asked that 
question. I actually have raised with them when I was working 
at the State Department the problem that Nusra poses for us, 
and I get a very consistent answer. I got a very consistent 
answer, which is we do not like them either. We do not like al-
Qaeda. Now, these are defected army officers or, you know, 
people who were civilians, but were high up in the Syrian 
military before they went into civilian life, and then they 
became leaders in the Free Syrian Army.
    They say, we do not like them either, but you cannot ask us 
to not deal with them when they are over in the next 
neighborhood, and we are pushing against the regime, and they 
are pushing, and not coordinate with them. They said, that is 
not reasonable because we do not have enough stuff to do this 
by ourselves. And they were very blunt with it. They said, you 
give us more stuff, we will not have to deal with them.
    Senator McCain. Mr. Connable, do you have a comment on that 
aspect of it?
    Mr. Connable. In regards to Syrian air power, I think it 
would be very interesting to see if we eventually do put Title 
10 advisors on the ground on Syria, what effect that will have 
on the Assad regime's decision on whether or not to attack the 
Syrian opposition. So if our special forces teams are providing 
higher level advice there, I think the Syrian Government will 
be very reluctant to attack those forces.
    Senator McCain. Thank you very much.
    The Chairman. Thank you, Senator. One last question, Mr. 
Connable. You made a very pointed effort to make the case that 
it was the Sunni awakening that was the critical element in the 
success. Yes, the surge. Yes, the other elements. But that 
without the Sunni awakening, we might not have had the success 
that we ultimately achieve there.
    So what steps must, in your view, the Iraqi Government take 
to facilitate reconciliation with the alienated Sunni tribes in 
Anbar province and other Sunni majority areas in order to 
reduce political support for ISIL and to get them to have a 
second awakening?
    Mr. Connable. Yes. As I have stated, Mr. Chairman, that is 
the fundamental question. There is one major problem and, I 
think, one major opportunity. The major problem is the Sunni 
polity and the political leadership are so badly fragmented, 
that there is really no hope for some kind of negotiated 
settlement at the top level or even with regional leaders. 
There simply is not enough credibility there in the Sunni 
leadership to allow that to happen.
    However, the real opportunity is that the Sunni, in a very 
kind of dispersed way, have very clearly enumerated a lot of 
the grievances that they think are most critical to them, and 
it is almost like a laundry list. I listed a few of them in 
my--in my written testimony.
    But I think the good news here is that Prime Minister al-
Abadi also listed another laundry list of these when he assumed 
office and put his government together, and that was a very 
positive step. So he has already announced the things that need 
to be done. The trick is executing. And I think about 50 
percent of the things that he identified, and you could 
probably add in another small group of things that would be 
really critical, he could probably do with the stroke of a pen. 
The others would require deliberation of the government.
    I think he should do whatever he can under his own 
authority immediately and together. If he is able to do that, 
then Sunni that I have spoken to, I think, would react quite 
favorably to that. It is a first step, but it is an important 
one.
    The Chairman. So even though the Sunni leadership, as you 
described it, is fragmented, there are some universal issues 
that they have raised that if addressed as part of 
reconciliation would be cross-cutting.
    Mr. Connable. I think Prime Minister al-Abadi is speaking 
to the Sunni people, not to Sunni leaders. I think they are 
cross-cutting, yes.
    The Chairman. Well, this has been very helpful. You have 
the thanks of the committee for your insights.
    This record will remain open until the close of business on 
Friday.
    And with that, this hearing is adjourned.
    [Whereupon, at 6:40 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


           Responses of Secretary John F. Kerry to Questions 
                    Submitted by Senator Marco Rubio

    Question. On Iran.--Secretary Kerry, several days ago, you 
indicated that the United States might be open to including Iran in the 
coalition being organized to challenge ISIL.

  <diamond> Have there been any conversations with Iranian officials 
        regarding potential cooperation against ISIL?

    Answer. If we believe that it would be useful to discuss counter-
ISIL efforts with Iran, we may do that on the margins of the P5+1 
talks, as we have done in the past. We are open to engagement with 
Iranian officials in specific circumstances when doing so could help to 
advance U.S. interests. But let me be clear that the nuclear 
negotiation is a separate issue from actions regarding ISIL.

  <diamond> Would you describe Iran as a state that furthers or 
        undermines regional stability?

    Answer. While Iran has, in common with the emerging international 
consensus, a strong interest in seeing ISIL defeated, we remain deeply 
concerned about many aspects of Iran's foreign policy in the region. In 
particular, we continue to express our concerns about Iran's 
destabilizing activities in Syria where it, along with Lebanese 
Hezbollah (LH), continues to support the Assad regime by providing 
weapons, training, and material assistance to Assad's forces.

  <diamond> Under what scenarios would the Obama administration 
        cooperate with Iran against ISIL?

    Answer. As previously mentioned, if and when there are specific 
circumstances in which engagement with Iran would advance our interests 
in countering ISIL, we are open to such engagement. However, let me be 
clear that the United States will not coordinate military action with 
Iran.

  <diamond> As military actions against ISIL expand, what actions will 
        the United States take to avoid implicitly supporting Iranian 
        or Syrian forces currently combating ISIL?

    Answer. We are not coordinating with the Assad regime or Iran 
regarding any planning that the U.S. military is developing. The 
President has emphasized repeatedly that Bashar al-Assad has lost 
legitimacy in Syria and should go. Supporting the moderate opposition 
will support our goal of degrading and destroying ISIL and our goal of 
pressuring Assad to accept a negotiated political settlement. As we've 
made very clear, the United States will take lawful action when our 
people are threatened, regardless of geographic boundaries.

    Question. On the Strategy.--The President compared his strategy to 
confront ISIL to very limited counterterror operations carried out in 
Yemen and Somalia.

  <diamond> Are Yemen and Somalia today the model of stability the 
        President seeks to achieve in Iraq?
  <diamond> Is the threat posed by ISIL in the territories it controls 
        in Iraq and Syria comparable to that of al-Shabab in Somalia or 
        AQ in the Arabian Peninsula in Yemen?

    Answer. The U.S. strategy to defeat the Islamic State of Iraq and 
the Levant (ISIL) involves five interdependent lines of effort: (1) 
providing military support to the Iraqi Security Forces (ISF) and to 
the moderate Syrian opposition; (2) cutting off the flow of foreign 
terrorist fighters to ISIL; (3) countering ISIL's financing and 
funding; (4) addressing humanitarian crises; and (5) de-legitimizing 
ISIL's ideology. Simultaneously, we will support the efforts of the 
Government of Iraq to govern inclusively. This is a broad strategy, 
which builds on the model the President announced at the National 
Defense University and at West Point, with many elements that will 
require a long-term commitment to achieve success. We are not 
indicating that the threats emanating from Somalia and Yemen are 
entirely parallel to those of Iraq and Syria, nor are we holding up 
Yemen and Somalia as our end-state goal for Iraq and Syria in years to 
come. Rather, the administration has pointed to these lines of effort 
as examples of where the United States has used a comprehensive 
strategy and had seen some successes.
    In Yemen and Somalia, the United States has taken steps to build up 
the capacity of forces on the ground to take the fight to terrorists in 
their own country, and we have used our military and intelligence 
capabilities to support the efforts of those indigenous forces. With 
our support, al-Shabaab has been pushed out of nearly all major urban 
areas in Somalia by local Somali forces and the African Union Mission 
in Somalia (AMISOM). Across the country, Somalis have chosen peace, 
local governance, and a national identity instead of al-Shabaab. In 
April and May, the Yemeni military conducted an offensive that drove Al 
Qaeda in the Arabian Peninsula (AQAP) from its safe havens in Abyan and 
Shabwah governorates. While AQAP remains a lethal threat, it no longer 
openly controls large swaths of territory.
    Beyond our military and intelligence activities, the administration 
has also worked with partners inside and outside these regions and even 
in the United States to prevent the flow of foreign terrorist fighters 
to Yemen and Somalia. The U.S. Government has used its financial tools 
and mobilized international efforts to cut off external contributions 
to AQAP and al-Shabaab. We have provided alternative messages to their 
hateful propaganda. Our counterterrorism efforts in both countries have 
been underpinned by a comprehensive strategy to support the government 
and the people as they pursue challenging but important reforms through 
their political transition processes, recognizing that stability and 
security also depend on continued political, economic, and humanitarian 
progress. While severe challenges remain in both countries, we strongly 
believe that our counterterrorism efforts will only succeed in the 
context of broader political and economic advancement.
    Using this model in Yemen and Somalia, we have been able to contain 
the threat to the U.S. homeland, degrade those terrorist-affiliated 
organizations, and in some instances, eliminated their top leadership. 
Like these efforts, the fight against ISIL will be waged through a 
steady, relentless effort to take out ISIL wherever it exists, using 
our air power, support from a growing coalition of foreign partners, 
and our support for partner forces on the ground, complemented by a 
broader campaign that brings all elements of national power to bear in 
countering this threat.

    Question. Former U.S. Ambassador to Syria, Robert Ford, said in 
June: ``We need, and we have long needed, to help moderates in the 
Syrian opposition with both weapons and other nonlethal assistance. Had 
we done that a couple of years ago, had we ramped it up, frankly, the 
al-Qaeda groups that have been winning adherents would have been unable 
to comply with the moderates.''

  <diamond> Do you agree with Ambassador Ford that the failure to 
        provide lethal and nonlethal assistance to the mainstream 
        Syrian opposition helped give rise to ISIS and other jihadist 
        groups?
  <diamond> Wouldn't we have better options before us now if he had 
        taken that route early on?

    Answer. We have been providing nonlethal assistance to the moderate 
opposition since 2013; with the rise of ISIL, we are increasing 
nonlethal assistance as well as moving forward with the train and equip 
program, along with our regional partners. The moderate opposition is 
being squeezed from both sides, forced to confront ISIL, other 
extremists, and the Assad regime. In order to degrade and ultimately 
defeat ISIL, as well as to counter the Assad regime, we need to 
strengthen the moderate opposition, and will do so with a joint State 
Department and DOD train and equip program as authorized by Congress. 
With this new effort, we'll provide training and equipment to help the 
moderate opposition grow stronger and take on ISIL terrorists inside 
Syria. This program will be hosted outside of Syria, in partnership 
with allies, and it will be matched by our increasing support for Iraqi 
Government and Kurdish Forces in Iraq.

    Question. A month ago, the President referred to the moderate 
Syrian opposition as ``former doctors, farmers, pharmacists, and so 
forth.'' He went on to say ``There's not as much capacity as you would 
hope.''

  <diamond> Can you describe what changed the President's assessment of 
        the opposition since then to such an extent that he now hopes 
        to provide them lethal assistance?
  <diamond> What percentage of the opposition in Syria is made up of 
        extremist or terrorist elements and what percentage would you 
        deem moderates that we can work with?
  <diamond> Is it still possible for the non-jihadist rebels to topple 
        Assad and gain control of the entire country? In essence, will 
        they be able to not just take over Damascus, but also drive the 
        jihadists out of northern Syria? If it is, what will it take 
        for that to happen?

    Answer. As the President said in his ``60 Minutes'' interview that 
was broadcast on September 28: ``Keep in mind my statement referred to 
the outlook 2 years ago. The point that I made then, which is 
absolutely true, is that for us to just start arming inexperienced 
fighters who we hadn't vetted would leave us in a situation where we 
didn't know and couldn't sort out who was a potential ISIL or al-Nusra 
member and who was somebody that we could work with. For us to just go 
blind on that would have been counterproductive and would not have 
helped the situation.''
    The Free Syrian Army (FSA) is a term to describe various armed 
groups that share the goal of overthrowing the Assad regime, and 
includes secularists as well as moderate Islamist fighting groups. The 
FSA has proven its will and ability to stand up against ISIL, at the 
same time Assad's air force was attacking them with ground forces and 
barrel bombs.
    Estimates of the total number of violent extremist fighters or the 
moderate opposition are complex, and the most detailed estimates are 
based on sensitive information. The most recent relevant analysis of 
ISIL is that it has between 20,000 and 31,000 fighters. By way of 
comparison, estimates of the moderate opposition are larger: tens of 
thousands of nationalist Syrian fighters committed to facing ISIL are 
present today in Aleppo, Idlib, Deir al-Zor, and Daraa.
    The United States is already supporting some of these fighters with 
nonlethal assistance, but the train and equip program will enable us to 
increase our support. It could also help deter ISIL recruitment efforts 
as the moderate opposition demonstrates greater support from abroad. 
Together with our partners, the United States is supporting the Syrian 
opposition to be a counterweight to the terrorists of ISIL and the 
brutality of the Assad regime.

    Question. What role is Qatar playing in our coalition against ISIL? 
How do you respond to concerns that Qatar is playing a double game, 
trying to work with the United States, while simultaneously retaining 
ties to terrorist groups inside of Syria?

    Answer. Qatar is an important partner in the coalition to degrade 
and defeat the Islamic State of Iraq and the Levant (ISIL). As a 
signatory to the Jeddah Communique, Qatar joined a host of countries in 
the region and the United States in pledging to support a comprehensive 
strategy to fight ISIL. Qatar has been outspoken in its condemnations 
of ISIL, with Minister of Foreign Affairs Dr. Khalid bin Mohammed Al 
Attiyah stating that he is ``repelled by their [ISIL's] views, their 
violent methods, and their ambitions.'' The Qatari Ministry of Foreign 
Affairs has also issued statements congratulating the new Iraqi Prime 
Minister Haidar al-Abadi on his appointment and welcoming the formation 
of a new Iraqi Government, helping to establish the regional legitimacy 
of the fledgling government.
    Qatar joined the United States in initiating airstrikes in Syria, 
and hosts the 
al-Udeid Air Base, a critical military facility for the coalition's air 
campaign against ISIL. We continue to work closely with Qatar on other 
issues related to terrorism, including efforts to combat contributions 
from private citizens in the region to violent extremist groups. On 
September 16, Qatar announced a new law regulating charities that, if 
fully implemented and deployed, will be an important step in its 
progress in cracking down on terror financing.

    Question. Press reports indicate that ISIL receives significant 
funding from cross-border smuggling of oil into Turkey. Many foreign 
jihadists that have joined ISIL's ranks also have transited through 
Turkey on their way to Syria.

  <diamond> How would you characterize your discussions with Turkey 
        about both of these challenges? Is the Turkish Government doing 
        enough to address both of these issues?

    Answer. We have raised with Turkish officials at the highest level 
our serious concerns regarding ISIL financing via black market oil 
sales and smuggling in the region. While Turkish officials have already 
taken some action to curb oil smuggling, they realize more needs to be 
done and have promised to take additional steps, including bolstering 
the Customs Ministry's role in antismuggling efforts. U.S. and Turkish 
agencies have also stepped up the exchange of analysis and intelligence 
on oil smuggling and other ISIL financial activity to assist Turkey in 
taking more effective action.
    Similarly, we are working closely with Turkey and other European 
partners to stem the flow of foreign fighters into Syria. Turkish 
Government leaders acknowledge that the extremist presence in Syria 
poses a threat to Turkey, the region, and the home countries of foreign 
fighters. Turkey faces particular challenges given its geographical 
location and the high volume of legitimate travelers. As the conflict 
in Syria has continued, the threat posed by violent extremist elements 
has prompted stronger action by the Turkish Government to counter 
foreign fighter travel across its borders. For example, the Turkish 
Government is working to tighten entry and exit controls.
    We have an ongoing, robust dialogue with Turkey on ways to improve 
our counterterrorism cooperation, including better information-sharing, 
curbing of terrorism finance more effectively, and stronger border 
security. Special Presidential Envoy for the Global Coalition to 
Counter ISIL John Allen traveled to Turkey October 8-10 to discuss 
coalition efforts to degrade and defeat ISIL through a variety of 
means, including efforts to stop terrorist financing and countering the 
flow of foreign fighters.
                                 ______
                                 

            Responses of Secretary John Kerry to Questions 
                     Submitted by Senator Tom Udall

    Question. How much has food insecurity contributed to ISIS' rise, 
and what is the international community and USAID doing to help ensure 
that access to food is protected among refugees, displaced populations, 
and even the Iraqi military?

    Answer. ISIL has preyed upon grievances and vulnerabilities within 
Syrian communities. We have not been tracking food insecurity 
specifically, but needs continue to expand. The international 
humanitarian community, with the U.S. Government as the largest donor, 
continues to feed millions of Syrians every month, both inside the 
country and in neighboring countries. In August, the U.N. World Food 
Programme (WFP), USAID's primary partner in the region, delivered food 
assistance to more than 4.1 million people inside Syria in August--the 
largest number of people reached in 1 month since the conflict began. 
Distributions by WFP were taking place in areas that ISIS has since 
conquered, and WFP can now no longer access these areas. Gathering the 
necessary public health data to assess acute malnutrition rates in a 
war zone is difficult. Comprehensive food security and nutrition 
surveys have not been possible since 2010 due to the conflict, but 
there have not been reports of the emergency-level acute malnutrition 
rates that would indicate severe food insecurity inside Syria during 
the conflict. While food prices in Syria have risen dramatically, Syria 
had better-than-expected harvests in 2012 and 2013 despite the 
conflict; those harvests, along with international food assistance, 
helped offset what would otherwise have been a more severe decline in 
food security due to the war.
    USAID-funded food assistance to internally displaced and conflict-
affected Syrians inside the country and to Syrian refugees in 
neighboring countries is very carefully targeted and distributed to 
ensure that it reaches only intended beneficiaries and is not used for 
nonhumanitarian purposes. Inside Syria, USAID-funded WFP food parcels 
reach specific, vulnerable communities, and our NGO partners deliver 
food parcels directly to beneficiary households and provide flour to 
bakeries that benefit affected communities. In neighboring countries, 
WFP provides USAID-funded food assistance to Syrian refugees in strict 
accordance with refugee registration lists; assistance is provided 
either via voucher, for which refugees must prove their identity, or 
via food distribution to specific households.
    In Iraq, the Public Distribution Systems (PDS), managed by the 
Iraqi Government, used to provide basic food rations to nearly all 
food-insecure Iraqi families on a regular basis, including in areas 
that ISIS now controls. In those areas PDS has now been suspended. We 
have not heard any reports of the excessively high food prices in Iraq, 
or of the emergency-level acute malnutrition rates. Malnutrition rates 
are generally very low in Iraq and there are no indications that this 
has changed recently or that food insecurity has led to increased 
support for ISIS. The food security situation has been stable in recent 
years and USAID had not needed to contribute food assistance since 
2008.
    Due to a generous contribution from Saudi Arabia, WFP's emergency 
food operations in Iraq are covered through December. Ensuring food 
assistance reaches those in need remains a priority, and WFP has 
consistently increased the geographic and numeric reach of its 
operations since conflict intensified in June. USAID will consider 
support for WFP in coming months as necessary based on review of WFP's 
pipeline and assessment of need.
    USAID does not provide food assistance to the Iraqi military or 
indeed to any military.

    Question. The conflict in Syria has continued for over 3 years and 
taken nearly 200,000 lives. If ISIS is beaten back in Syria but the 
underlying conditions of the Syrian civil war remain, should we expect 
another radical Islamic group to emerge?

    Answer. We have long been working to lay the basis for effective 
peace negotiations and a post-Asasd Syrian government. Our ongoing 
support to local communities, together with the political leadership of 
the opposition help opposition-held areas effectively govern, rebuild, 
and establish law and order. This is why we continue to support the 
local councils, civil defense brigades, and teachers in opposition-held 
areas. The moderate opposition is already benefiting from this help as 
it administers areas in Aleppo, Hama, Northern Lattakia, Idlib, Daraa, 
and some areas around Damascus, while building credibility with 
citizens of their communities. While no plan is risk-proof, our goal is 
to empower civilian institutions, together with vetted brigades on the 
ground, in partnership with local communities we support, to fill in 
any space that is vacated by ISIL.
    Supporting the moderate opposition is essential to our political 
strategy. There is no military solution to the conflict. Increasing 
support to the moderate opposition can put pressure on the regime and 
promote more conducive conditions for a negotiated political 
settlement. The regime has created the present instability and the 
conditions for the growth of violent extremism among an otherwise 
nonextremist population.
    The administration has built an international coalition against 
ISIL working across multiple lines of effort. In coordination with our 
international partners, we will also redouble efforts to cut off 
funding flows to ISIL; enhance intelligence collection on ISIL; counter 
the group's violent, extremist ideology; and stem the flow of foreign 
fighters into the area. Additionally, the President committed to 
working with our international partners to continue providing 
humanitarian assistance to innocent civilians who have been displaced, 
to stabilize a potentially vulnerable population. The United States 
will also continue to work to help prevent mass atrocities, 
particularly against vulnerable religious and ethnic minorities, since 
these can also be destabilizing and lead to a cycle of violence.

    Question. One year ago many of us were concerned about plans to arm 
these so-called Syrian moderates because weapons could get in the hands 
of al-Nusra, which is a powerful rebel group allied with al-Qaeda. Who 
is backing al-Nusra in the region and what is the administration's 
strategy for dealing with them should ISIS be degraded and destroyed?

    Answer. The support structure of violent extremist organizations is 
complex and diverse. Al-Nusra Front, which is a mix of foreign fighters 
and Syrian nationals, like ISIL, has received its financial support 
from criminal activities, abuse of nonprofit organizations, looting of 
cultural heritage sites, and some external support. The recent 
legislation authorizing the train-and-equip program requires us to vet 
out, at a minimum, those associated with terrorist groups, including, 
but not limited to, ISIL, al-Nusra Front, Ahrar al-Sham and other al-
Qaeda related groups, and Hezbollah.

    Question a,b,c. If we look around the Middle East, there are 
radical Islamic elements in many nations that have lost central 
government control. We have been fighting the Taliban for over a 
decade, long after driving them from power and eliminating the senior 
al-Qaeda leaders responsible for 9/11. Libya is in a civil war. Iraq is 
in a civil and sectarian war. Similar situations persist in Yemen and 
Somalia and Sudan. Syria is perhaps the worst example. We seem to be 
engaging in many of these conflicts in one way or another.

  <diamond> With our engagement in each of these areas, are we focusing 
        on individuals and groups that are seeking to attack American 
        interests and our homeland?

    Answer (a). The Taliban (Afghanistan).--The President has been 
clear that while our combat mission will be over by the end of the 
year, we will continue to pursue our objective in Afghanistan of 
disrupting threats posed by al-Qaeda. We will advance that objective 
with a twofold mission of supporting counterterrorism operations 
against the remnants of al-Qaeda as well as a broader effort to train 
and equip Afghan Forces to ensure that Afghanistan does not again 
become a safe haven for al-Qaeda and other extremist groups.

    Answer (b). Somalia.--The United States has designated the Somalia-
based group al-Shabaab a terrorist organization. Al-Shabaab's leaders 
have publicly pledged allegiance with al-Qaeda and have called for 
attacks against the United States and U.S. citizens abroad. The group 
leverages its regional network to conduct terrorist operations.
    U.S. counterterrorism programs are aligned with strategic regional 
priorities to assist Somalia's efforts in monitoring and securing its 
own borders, detecting and disrupting terrorist plots, and 
investigating terrorist incidents. We have funded programs to build 
capacity in law enforcement, crisis response, border security, and 
strengthening the rule of law.
    The Federal Government of Somalia works in partnership with the 
United States and other regional partners to deny and disrupt al-
Shabaab operations within Somalia. We have also conducted unilateral 
strikes against targets, including against former al-Shabaab emir Ahmed 
Abdi ``Godane.'' A key focus of our engagement is to strengthen the 
Somali Government's capacity to provide sustainable security that will 
eliminate al-Shabaab's ability to regroup and regain footholds in 
Somalia.

    Answer (c). Syria.--Yes, that is always the primary concern. For 
example, that is why in Syria we have been tracking for several years 
the al-Nusra Front and the ``Khorasan Group,'' a term sometimes used to 
refer to a network of al-Nusra Front and al-Qaeda core terrorists who 
share a history of training operatives, facilitating fighters and 
money, and planning attacks against U.S. and Western targets. These 
operatives are seasoned and very dangerous individuals who have fought 
and lived together in Chechnya, Afghanistan, Pakistan, Iraq, Iran, 
Yemen, and North Africa. They have many years, if not decades, of 
experience conducting and planning attacks against innocents, and they 
have brought advanced skill sets to Syria.
    ISIL also poses a threat to the people of Iraq and Syria, and the 
broader Middle East--including American citizens, personnel and 
facilities. If left unchecked, these terrorists could pose a growing 
threat beyond that region, including to the United States. While we 
have not yet detected specific plotting against our homeland, ISIL 
leaders have threatened America and our allies. Our Intelligence 
Community believes that thousands of foreigners--including Europeans 
and some Americans--have joined them in Syria and Iraq. Trained and 
battle-hardened, these fighters could try to return to their home 
countries and carry out deadly attacks.
    Success for us is working to methodically target such 
organizations, their external plotters, and operatives to prevent 
attacks as best we can, particularly any plotting against U.S. 
interests or the homeland, and to set the conditions in place so that 
these groups are defeated in the long run. This will have to be done in 
concert with partners on the ground.

                                  [all]
</pre></body></html>
